APPENDIX

TABLE OF CONTENTS

Appendix A:

California Supreme Court opinion,
Aug. 29, 2019 .................................................... 1a

Appendix B:

California Court of Appeal opinion,
Aug. 21, 2017 .................................................. 92a

Appendix C:

California Superior Court order
on motion for reconsideration,
Feb. 3, 2016 .................................................. 125a

Appendix D:

California Superior Court order
on petitioner’s motion to compel
arbitration and stay proceedings,
Dec. 11, 2015 ................................................ 127a

Appendix E:

California Superior Court order
on petitioner’s motion to vacate
administrative award,
Dec. 11, 2015 ................................................ 141a

APPENDIX A
IN THE SUPREME COURT OF CALIFORNIA

S244630

OTO, L.L.C,
Plaintiff and Appellant,
v.
KEN KHO,
Defendant and Respondent;
JULIE A. SU, as Labor Commissioner, etc.,
Intervener and Appellant

Filed: August 29, 2019

Before: CORRIGAN, CANTIL-SAKAUYE,
CUELLAR, KRUGER, and GROBAN.

LIU,

CHIN, dissenting.
OPINION
Opinion of the Court by CORRIGAN, J.
Here, we again consider the enforceability of an agreement requiring arbitration of wage disputes. Sonic-Calabasas A, Inc. v. Moreno (2011) 51 Cal.4th 659 (Sonic I)

(1a)

2a
concluded that such arbitration agreements are categorically unconscionable because workers waive their statutory rights to a “Berman hearing” and related procedures
designed to assist in the recovery of unpaid wages. (See
Lab. Code, § 98 et seq.)1 Rather than invalidating the entire agreement, however, Sonic I held that while Berman
protections could not be waived, any party dissatisfied
with the Berman hearing’s result could move the dispute
to arbitration. (Sonic I, at pp. 669, 675.) The United States
Supreme Court vacated that judgment and remanded for
consideration in light of AT&T Mobility LLC v. Concepcion (2011) 563 U.S. 333 (Concepcion). Thereafter, we determined Sonic I’s categorical rule of unconscionability
was preempted by the Federal Arbitration Act (FAA; 9
U.S.C. § 1 et seq.). (Sonic-Calabasas A, Inc. v. Moreno
(2013) 57 Cal.4th 1109, 1146 (Sonic II).) We held instead
that an arbitration agreement is not categorically unconscionable solely because it entails a waiver of the Berman
procedure. An agreement to arbitrate wage disputes can
be enforceable so long as it provides an accessible and affordable process for resolving those disputes. (Id. at p.
1146.)
We originally granted review in this case to decide
whether an arbitral scheme resembling civil litigation can
constitute a sufficiently accessible and affordable process.
Because the facts here involve an unusually high degree
of procedural unconscionability, however, a definitive resolution of that specific question is unnecessary. Even if a
litigation-like arbitration procedure may be an acceptable
substitute for the Berman process in other circumstances,
an employee may not be coerced or misled into accepting

1
All statutory references are to the Labor Code unless otherwise
stated.

3a
this trade. Considering the oppressive circumstances present here, we conclude the agreement was unconscionable, rendering it unenforceable.
I.

BACKGROUND

The relevant facts are not in dispute. Ken Kho was
hired as a service technician for One Toyota of Oakland
(One Toyota) in January 2010.2 Three years later, a human resources “porter” approached Kho in his workstation and asked him to sign several documents. Kho was
required to sign them immediately and return them to the
porter, who waited in the workstation. It took Kho three
or four minutes to sign them all. He had no opportunity to
read them, nor were their contents explained. Kho’s first
language is Chinese. He was not given copies of the documents in either language.
One document was titled “Comprehensive Agreement—Employment At-Will and Arbitration.”3 As the

The auto dealership is licensed as OTO, L.L.C., apparently an acronym of One Toyota of Oakland.
2

According to the parties, this agreement is essentially the same
as the one involved in the Sonic cases. Although impossible to verify
without the Sonic record, the assertion may be at least partially true.
Both employers are automotive dealerships and the contract appears
to be a standardized form. However, the agreements cannot be “identical,” as One Toyota claims. The Sonic II contract allowed either
party to seek review of an award under California appellate rules of
procedure. (See Sonic II, supra, 57 Cal.4th at pp. 1146-1147.) The
agreement here includes no such term. Sonic II did not resolve
whether the agreement was substantively unconscionable. Instead,
noting that details of the arbitration process might not be reflected
on the face of the agreement, the case was remanded for additional
fact-finding. (See id. at pp. 1147-1148.) Here, once again, we are faced
with a bare agreement. No additional facts about One Toyota’s arbitration process were developed below.
3

4a
Court of Appeal observed, “Notwithstanding its designation as a ‘comprehensive’ employment contract, the one
and one-quarter page contract is merely an arbitration
clause grafted onto an acknowledgment of at-will employment.”
The contract’s arbitration clause is contained in a
dense, single-spaced paragraph, written in a very small
typeface that fills almost an entire page.4 Subject to limited exceptions, nearly any employment-related claim
made by either party must be submitted to binding arbitration. Class or collective proceedings are generally prohibited. Arbitrations must be conducted before a retired
superior court judge, pursuant to the California Arbitration Act (Code Civ. Proc., § 1280 et seq.), with full discovery permitted (see Code Civ. Proc., § 1283.05). Furthermore, “[t]o the extent applicable in civil actions in California courts,” the agreement requires adherence to “all
rules of pleading (including the right of demurrer), all
rules of evidence, all rights to resolution of the dispute by
means of motions for summary judgment, judgment on
the pleadings, and judgment under Code of Civil Procedure Section 631.8.”5 The allocation of arbitration costs is
not addressed explicitly. Instead, the agreement refers to
Code of Civil Procedure section 1284.2, which generally
provides that parties to an arbitration must bear their
own expenses. But the agreement also states that “controlling case law” or statutes will prevail over Code of
Civil Procedure section 1284.2 if there is a conflict.
The parties dispute the precise font size. Kho asserts it is 7 points,
while One Toyota insists it is 8.5 points. By any measure, the type is
quite small.
4

5
A motion for judgment under Code of Civil Procedure section
631.8 is the equivalent of a nonsuit motion in a court trial. (See Ford
v. Miller Meat Co. (1994) 28 Cal.App.4th 1196, 1200.)

5a
Kho’s employment ended in April 2014. Several
months later, he filed a complaint with the Labor Commissioner for unpaid wages. At a settlement conference
before a deputy labor commissioner, One Toyota was represented by counsel; Kho appeared in propria persona.
One Toyota contends its attorney demanded arbitration
at the conference, presenting Kho with a copy of the
signed arbitration agreement, but Kho and the Labor
Commissioner dispute this account. Kho rejected One
Toyota’s settlement offer and requested a Berman hearing. The hearing was set in August 2015, some nine
months later.
On the Friday before the Monday Berman hearing,
One Toyota filed a petition to compel arbitration and stay
the administrative proceedings. It did not serve these papers on Kho. On the morning of the hearing, One Toyota’s
attorney notified the Labor Commissioner by fax of its petition and asked that the hearing be taken off calendar.
The hearing officer refused. One Toyota’s attorney appeared at the scheduled time but left after serving Kho
for the first time with the petition to compel. Proceeding
without One Toyota, the hearing officer awarded Kho
$102,912 in unpaid wages and $55,634 in liquidated damages, interest, and penalties. One Toyota sought to vacate
the award. The Labor Commissioner intervened on Kho’s
behalf and opposed the motions to compel and vacate. One
Toyota posted the required bond to permit de novo review
of the award under Labor Code section 98.2. (See post, at
p. 8.)
The trial court vacated the Labor Commissioner’s
award, concluding the hearing should not have proceeded
in One Toyota’s absence. The court did not compel arbitration, however. It found a high degree of procedural unconscionability attended the agreement’s execution,

6a
which “created oppression or surprise due to unequal bargaining power.” The court also found the agreement substantively unconscionable under Sonic II because it “fails
to provide a speedy, informal and affordable method of resolving wage claims and has virtually none of the benefits
afforded by the Berman hearing procedure.” The court
observed, “Contrary to the assumption that arbitration is
intended to provide an inexpensive, efficient procedure to
vindicate rights, the agreement in this case seeks, in large
part, to restore the procedural rules and procedures that
create expense and delay in civil litigation.” In light of this
ruling, the court declined to address the Labor Commissioner’s argument that One Toyota waived its right to arbitrate by waiting too long to claim it.
The Court of Appeal reversed. Although it noted an
“extraordinarily high” degree of procedural unconscionability in the agreement’s execution, it concluded the
agreement was not substantively unconscionable. The
agreement had no objectionable terms and could be considered “ ‘harsh or one-sided’ only in comparison to the
various features of the Labor Code that seek to level the
playing field for wage claimants.” The arbitration would
be sufficiently affordable under Sonic II because laws external to the agreement require that employers pay both
the costs of arbitration (see Armendariz v. Foundation
Health Psychcare Service, Inc. (2000) 24 Cal.4th 83 (Armendariz)) and a successful claimant’s reasonable attorney fees (see Lab. Code, § 218.5). Though the selected arbitration procedure is more complex than a Berman hearing, the court observed that those hearings are nonbinding and can progress, at either side’s request, to a de novo
proceeding in superior court. In specifying an arbitral
process that resembles civil litigation, the agreement thus
“anticipates a proceeding that is no more complex than
will often be required to resolve a wage claim under the

7a
Berman procedures.” This resolution made it unnecessary for the court to address the Labor Commissioner’s
cross-appeal from the order vacating her award. Finally,
the court held that One Toyota did not forfeit its right to
arbitrate because there was no showing of prejudice from
the company’s delay in seeking arbitration.
II. DISCUSSION
A. The Berman Process

Before addressing Kho’s unconscionability defense,
we review the statutory procedures he waived by agreeing to arbitration. We also consider the significance of that
waiver in light of Sonic I and Sonic II.
1. Statutory Procedures Available To Wage Claimants

The Labor Code provides an administrative procedure
for recovery of unpaid wages. When an employer does not
pay wages as required, the employee may either: (1) file a
civil action in court, or (2) file a wage claim with the Labor
Commissioner under sections 98 to 98.8. The administrative option was added in 1976 (see Stats. 1976, ch. 1190,
§§ 4-11, pp. 5368-5371) and is commonly known as a “Berman” hearing.6
If an employee files an administrative complaint, the
Labor Commissioner may either accept the matter and
conduct a Berman hearing (§ 98, subd. (a)); prosecute a
civil action on the employee’s behalf (§ 98.3); or take “no
further action . . . on the complaint” (§ 98, subd. (a)). The
commissioner’s staff may try to settle the complaint before holding a hearing or filing suit. (Dept. of Industrial

6
The legislation was sponsored by Assemblyman Howard Berman.
(Post v. Palo/Haklar & Associates (2000) 23 Cal.4th 942, 946.)

8a
Relations, Div. of Labor Stds. Enforcement (DLSE), Policies and Procedures for Wage Claim Processing (2012
rev.) p. 2.) Subject to extensions of time, Berman hearings
must generally be held within 90 days after a matter is
accepted. (§ 98, subd. (a).)
A Berman hearing is conducted by a deputy commissioner, who may issue subpoenas. (Cal. Code Regs., tit. 8,
§§ 13502, 13506.) The procedure “is designed to provide a
speedy, informal, and affordable method of resolving
wage claims.” (Cuadra v. Millan (1998) 17 Cal.4th 855,
858 (Cuadra).) Pleadings are limited to a complaint and
answer. There is no discovery process. (§ 98, subd. (d).)
Technical rules of evidence do not apply, and all relevant
evidence is admitted “if it is the sort of evidence on which
responsible persons are accustomed to rely in the conduct
of serious affairs.” (Cal. Code Regs., tit. 8, § 13502.) The
hearing officer may assist the parties with cross-examination and explain issues and terms involved. (DLSE, Policies and Procedures for Wage Claim Processing, supra,
at p. 3.) If necessary, a translator will be provided. (Ibid.;
see § 105, subd. (b).) The claim must be decided within 15
days of the hearing. (§ 98.1, subd. (a).)
Either party may appeal the decision to the superior
court, which reviews the claim de novo. (§ 98.2, subd. (a).)
An employer who appeals must post an undertaking in the
amount of the award. (Id., subd. (b).) On appeal, the Labor
Commissioner may represent claimants “financially unable to afford counsel” and must represent any indigent
claimant attempting to uphold the award while objecting
to no part of it. (§ 98.4.) An unappealed decision is a final
judgment, enforceable immediately. (§ 98.2, subds. (d),
(e).) The commissioner is responsible for enforcement
(id., subd. (i)), which is entitled to court priority (id., subd.
(e)).

9a
If an employer’s appeal fails, the court determines
costs and reasonable attorney fees incurred by the successful employee and orders payment by the losing appellant. (§ 98.2, subd. (c).) Claimants represented by the commissioner may still recover fees, consistent with the statute’s goal of discouraging unmeritorious appeals. (Lolley
v. Campbell (2002) 28 Cal.4th 367, 376-378 (Lolley).) “An
employee is successful if the court awards an amount
greater than zero.” (§ 98.2, subd. (c).) The statute provides
a one-way fee-shifting scheme: An unsuccessful employer
must pay attorney fees but a successful one may not recover them. (See Arias v. Kardoulias (2012) 207
Cal.App.4th 1429, 1435.) This fee scheme differs from
wage claims brought in superior court, where the “prevailing party” may obtain attorney fees. (§ 218.5, subd.
(a).)7
The Berman process is optional for both claimants and
the Labor Commissioner. Aggrieved employees may take
their wage claims directly to superior court. (See § 218.)
Likewise, the commissioner may decline to act on a filed
complaint. (See § 98, subd. (a).) However, Berman procedures can significantly reduce the costs and risks of pursuing a wage claim. They provide “an accessible, informal,
and affordable” avenue for employees to seek resolution,
with assistance available if necessary. (Sonic II, supra, 57
Cal.4th at p. 1129.) They discourage unmeritorious appeals through a bond requirement and a fee-shifting
7
As amended in 2013, section 218.5, subdivision (a) provides that
“if the prevailing party in the court action is not an employee, attorney’s fees and costs shall be awarded pursuant to this section only if
the court finds that the employee brought the court action in bad
faith.” (Stats. 2013, ch. 142, § 1) Although it does not guarantee that
wage claimants will be able to recover their attorney fees, this amendment largely eliminates the risk that they will be liable for their employer’s fees.

10a
scheme that favors employees. (See id. at p. 1130.) They
permit the commissioner to represent claimants on appeal
and facilitate award collection. (See ibid.)
2. The Sonic I and Sonic II Decisions

Sonic I and Sonic II addressed the validity of predispute agreements requiring wage claim arbitration. Sonic
I held that it is against public policy for an employer to
require employees to waive their Berman rights as a condition of employment, and that an arbitration agreement
effectively waiving Berman rights is substantively unconscionable as a matter of law. (Sonic I, supra, 51 Cal.4th at
pp. 684-687.) However, in construing the agreement to attempt to harmonize the competing policies at issue, Sonic
I also held that parties could proceed to binding arbitration after they had completed a Berman hearing. (Id. at p.
675.) In other words, instead of pursuing a de novo appeal
in superior court, a party dissatisfied with the Labor Commissioner’s ruling could petition to compel arbitration.
(Id. at p. 676.)
Sonic I’s holdings were short-lived. Two months later,
on a related question, Concepcion, supra, 563 U.S. 333,
abrogated our holding from Discover Bank v. Superior
Court (2005) 36 Cal.4th 148 that class arbitration waivers
in consumer contracts are unconscionable. (Concepcion,
at pp. 341-344.) The high court explained that the “overarching purpose of the FAA . . . is to ensure the enforcement of arbitration agreements according to their terms
so as to facilitate streamlined proceedings.” (Id. at p. 344.)
Because Discover Bank’s classwide arbitration rule interfered with the “fundamental attributes of arbitration,”
such as efficiency and informality, it was preempted as inconsistent with the FAA. (Concepcion, at p. 344.) There-

11a
after, the court vacated the Sonic I judgment and remanded for our consideration in light of Concepcion.
(Sonic-Calabasas A, Inc. v. Moreno (2011) 565 U.S. 973.)
On remand, we acknowledged the Supreme Court’s
admonition that states “cannot require a procedure that
is inconsistent with the FAA, even if it is desirable for unrelated reasons.” (Concepcion, supra, 563 U.S. at p. 351;
see Sonic II, supra, 57 Cal.4th at p. 1141.) Because the
court identified efficiency as a hallmark of arbitration under the FAA, Concepcion taught that “courts cannot impose unconscionability rules that interfere with arbitral
efficiency, including rules forbidding waiver of administrative procedures that delay arbitration.” (Sonic II, at p.
1141; see Concepcion, at pp. 344-345.) Accordingly, Sonic
I’s categorical rule prohibiting a waiver of Berman procedures was preempted. (Sonic II, at pp. 1139-1141.)
Nevertheless, we noted that unconscionability remains a valid defense to enforcement, even after Concepcion. The overarching unconscionability question is
whether an agreement is imposed in such an unfair fashion and so unfairly one-sided that it should not be enforced. Arbitration agreements could not be deemed categorically unconscionable simply because they entail a
waiver of the Berman proceedings. (Sonic II, supra, 57
Cal.4th at p. 1146.) However, we provided that an employee’s Berman waiver, while not dispositive, remains a
significant factor in considering unconscionability. An
agreement’s failure to “provide an employee with an accessible and affordable arbitral forum for resolving wage
disputes may support a finding of unconscionability. As
with any contract, the unconscionability inquiry requires
a court to examine the totality of the agreement’s substantive terms as well as the circumstances of its formation to
determine whether the overall bargain was unreasonably
one-sided.” (Ibid.)

12a
The Sonic II majority opinion focused repeatedly on
the need for accessible and affordable arbitration, reasoning that these were key benefits of the Berman process
that parties to an arbitration agreement had decided to
forgo. We stopped short of defining the requirements for
an acceptable arbitration framework, however, and emphasized that arbitration can be structured in various
ways “so that it facilitates accessible, affordable resolution of wage disputes,” without necessarily replicating
Berman protections. (Sonic II, supra, 57 Cal.4th at p.
1147.) So long as the arbitral procedure is relatively “lowcost” (ibid.) and provides a forum for wage claimants “to
pursue their claims effectively” (ibid.), its adoption in lieu
of the Berman process will not, in itself, be considered unconscionable (id. at pp. 1147-1148). In short, when an adhesion contract requires arbitration, “the unconscionability inquiry focuses on whether the arbitral scheme imposes costs and risks on a wage claimant that make the
resolution of the wage dispute inaccessible and unaffordable,” thus effectively blocking every forum for redress
including arbitration itself. (Id. at p. 1148.)
We did not decide whether the Sonic II agreement
was substantively unconscionable under this standard.
Recognizing that unconscionability is a fact-specific defense, we remanded for the trial court to examine additional evidence regarding the particulars of the arbitration process set out in the agreement. (Sonic II, supra, 57
Cal.4th at pp. 1147-1148.)
B. Unconscionability of the Arbitration Argument

California law strongly favors arbitration. Through
the comprehensive provisions of the California Arbitration Act (Code Civ. Proc., § 1280 et seq.), “the Legislature
has expressed a ‘strong public policy in favor of arbitra-

13a
tion as a speedy and relatively inexpensive means of dispute resolution.’ ” (Moncharsh v. Heily & Blase (1992) 3
Cal.4th 1, 9 (Moncharsh).) As with the FAA (9 U.S.C. § 1
et seq.), California law establishes “a presumption in favor
of arbitrability.” (Engalla v. Permanente Medical Group,
Inc. (1997) 15 Cal.4th 951, 971.) An agreement to submit
disputes to arbitration “is valid, enforceable and irrevocable, save upon such grounds as exist for the revocation of
any contract.” (Code Civ. Proc., § 1281; see 9 U.S.C. § 2.)
“ ‘[G]enerally applicable contract defenses, such as . . .
unconscionability, may be applied to invalidate arbitration
agreements without contravening’ the FAA” or California
law. (Pinnacle Museum Tower Assn. v. Pinnacle Market
Development (US), LLC (2012) 55 Cal.4th 223, 246 (Pinnacle); see Concepcion, supra, 563 U.S. at p. 339.) Unconscionability can take different forms depending on the circumstances and terms at issue. However, the doctrine’s
application to arbitration agreements must rely on the
same principles that govern all contracts. (Sonic II, supra, 57 Cal.4th at p. 1133.) The degree of unfairness required for unconscionability must be as rigorous and demanding for arbitration clauses as for any other contract
clause. (Ibid.)
The general principles of unconscionability are well
established. A contract is unconscionable if one of the parties lacked a meaningful choice in deciding whether to
agree and the contract contains terms that are unreasonably favorable to the other party. (Sonic II, supra, 57
Cal.4th at p. 1133.) Under this standard, the unconscionability doctrine “ ‘has both a procedural and a substantive
element.’ ” (Ibid.) “The procedural element addresses the
circumstances of contract negotiation and formation, focusing on oppression or surprise due to unequal bargaining power. [Citations.] Substantive unconscionability pertains to the fairness of an agreement’s actual terms and to

14a
assessments of whether they are overly harsh or onesided.” (Pinnacle, supra, 55 Cal.4th at p. 246.)
Both procedural and substantive unconscionability
must be shown for the defense to be established, but “they
need not be present in the same degree.” (Armendariz,
supra, 24 Cal.4th at p. 114.) Instead, they are evaluated
on “ ‘a sliding scale.’ ” (Ibid.) “[T]he more substantively
oppressive the contract term, the less evidence of procedural unconscionability is required to” conclude that the
term is unenforceable. (Ibid.) Conversely, the more deceptive or coercive the bargaining tactics employed, the
less substantive unfairness is required. (A & M Produce
Co. v. FMC Corp. (1982) 135 Cal.App.3d 473, 487 (A & M
Produce); see Carlson v. Home Team Pest Defense, Inc.
(2015) 239 Cal.App.4th 619, 635; Carmona v. Lincoln Millennium Car Wash, Inc. (2014) 226 Cal.App.4th 74, 85
(Carmona).) A contract’s substantive fairness “must be
considered in light of any procedural unconscionability” in
its making. (Sanchez v. Valencia Holding Co., LLC (2015)
61 Cal.4th 899, 912 (Sanchez).) “The ultimate issue in
every case is whether the terms of the contract are sufficiently unfair, in view of all relevant circumstances, that a
court should withhold enforcement.” (Ibid.)
The burden of proving unconscionability rests upon
the party asserting it. (Sanchez, supra, 61 Cal.4th at p.
911; Sonic II, supra, 57 Cal.4th at p. 1148.) “Where, as
here, the evidence is not in conflict, we review the trial
court’s denial of arbitration de novo.” (Pinnacle, supra, 55
Cal.4th at p. 236.)
1. Procedural Unconscionability

The Court of Appeal observed that the arbitration
agreement’s execution involved an “extraordinarily high”
degree of procedural unconscionability. We agree.

15a
A procedural unconscionability analysis “begins with
an inquiry into whether the contract is one of adhesion.”
(Armendariz, supra, 24 Cal.4th at p. 113.) An adhesive
contract is standardized, generally on a preprinted form,
and offered by the party with superior bargaining power
“on a take-it-or-leave-it basis.” (Baltazar v. Forever 21,
Inc. (2016) 62 Cal.4th 1237, 1245 (Baltazar); see Armendariz, at p. 113.) Arbitration contracts imposed as a condition of employment are typically adhesive (see Armendariz, at pp. 114-115; Serpa v. California Surety Investigations, Inc. (2013) 215 Cal.App.4th 695, 704), and the
agreement here is no exception. The pertinent question,
then, is whether circumstances of the contract’s formation
created such oppression or surprise that closer scrutiny
of its overall fairness is required. (See Baltazar, at pp.
1245-1246; Farrar v. Direct Commerce, Inc. (2017) 9
Cal.App.5th 1257, 1267-1268.) “ ‘ “Oppression occurs
where a contract involves lack of negotiation and meaningful choice, surprise where the allegedly unconscionable provision is hidden within a prolix printed form.” ’ ”
(Pinnacle, supra, 55 Cal.4th at p. 247, italics added; see
De La Torre v. CashCall, Inc. (2018) 5 Cal.5th 966, 983.)
This record reveals both oppression and surprise.
“The circumstances relevant to establishing oppression include, but are not limited to (1) the amount of time
the party is given to consider the proposed contract; (2)
the amount and type of pressure exerted on the party to
sign the proposed contract; (3) the length of the proposed
contract and the length and complexity of the challenged
provision; (4) the education and experience of the party;
and (5) whether the party’s review of the proposed contract was aided by an attorney.” (Grand Prospect Partners, L.P. v. Ross Dress for Less, Inc. (2015) 232
Cal.App.4th 1332, 1348, fn. omitted.) With respect to
preemployment arbitration contracts, we have observed

16a
that “the economic pressure exerted by employers on all
but the most sought-after employees may be particularly
acute, for the arbitration agreement stands between the
employee and necessary employment, and few employees
are in a position to refuse a job because of an arbitration
requirement.” (Armendariz, supra, 24 Cal.4th at p. 115.)
This economic pressure can also be substantial when employees are required to accept an arbitration agreement
in order to keep their job. Employees who have worked in
a job for a substantial length of time have likely come to
rely on the benefits of employment. For many, the sudden
loss of a job may create major disruptions, including abrupt income reduction and an unplanned reentry into the
job market. In both the prehiring and posthiring settings,
courts must be “particularly attuned” to the danger of oppression and overreaching. (Armendariz, at p. 115; see
Baltazar, supra, 62 Cal.4th at p. 1244.)
The circumstances here demonstrate significant oppression. The agreement was presented to Kho in his
workspace, along with other employment-related documents. Neither its contents nor its significance was explained. One Toyota admits that Kho was required to sign
the agreement to keep the job he had held for three years.
Because the company used a piece-rate compensation system, any time Kho spent reviewing the agreement would
have reduced his pay. Moreover, as the Court of Appeal
explained, “Not only did One Toyota provide no explanation for its demand for his signature, it selected a low-level
employee, a ‘porter,’ to present the Agreement, creating
the impression that no request for an explanation was expected and any such request would be unavailing.” By
having the porter wait for the documents, One Toyota
conveyed an expectation that Kho sign them immediately,
without examination or consultation with counsel. One
Toyota protests that Kho did not ask questions about the

17a
agreement, but there is no indication that the porter had
the knowledge or authority to explain its terms. (See Carmona, supra, 226 Cal.App.4th at pp. 84-85.) Similarly, although One Toyota is correct that Kho did not attempt to
negotiate, a complaining party need not show it tried to
negotiate standardized contract terms to establish procedural unconscionability. (Carbajal v. CWPSC, Inc. (2016)
245 Cal.App.4th 227, 244; see Sanchez, supra, 61 Cal.4th
at p. 914.) By its conduct, One Toyota conveyed the impression that negotiation efforts would be futile. Finally,
Kho was not given a copy of the agreement he had signed.8
The facts also support the trial court’s finding of surprise. The agreement is a paragon of prolixity, only
slightly more than a page long but written in an extremely
small font. The single dense paragraph covering arbitration requires 51 lines. As the Court of Appeal noted, the
text is “visually impenetrable” and “challenge[s] the limits
of legibility.”
The substance of the agreement is similarly opaque.
The sentences are complex, filled with statutory references and legal jargon. The second sentence alone is 12
lines long. The arbitration paragraph refers to: the California Fair Employment and Housing Act; title VII of the
Civil Rights Act of 1964; other unspecified “local, state or
federal laws or regulations”; the National Labor Relations Act; the California Workers’ Compensation Act;
“California Small Claims” actions; the Department of
Fair Employment and Housing; the Employment Devel-

8
Nor was Kho offered a version to read in his native language. (See
Subcontracting Concepts (CT), LLC v. De Melo (2019) 34 Cal.App.5th
201, 211; Carmona, supra, 226 Cal.App.4th at p. 85.) However, because the record does not reveal the level of Kho’s English proficiency, we cannot determine the significance of this omission, and we
do not rely on it.

18a
opment Department; the “Equal Opportunity Commission”; the federal and California arbitration acts; and six
different sections of California’s Civil Code and Code of
Civil Procedure. A layperson trying to navigate this block
text, printed in tiny font, would not have an easy journey.
With respect to arbitration costs, the agreement
states: “If CCP § 1284.2 conflicts with other substantive
statutory provisions or controlling case law, the allocation
of costs and arbitrator fees shall be governed by said statutory provisions or controlling case law instead of CCP
§ 1284.2.” Code of Civil Procedure section 1284.2 states a
default rule that, unless the agreement specifies otherwise, parties to an arbitration will bear their own expenses. However, Armendariz created an exception to
this general rule for arbitrations of employment-related
disputes. (See Armendariz, supra, 24 Cal.4th at pp. 110111.)9 Although the agreement anticipates that the “controlling case law” of Armendariz would prevail over the
statutory default rule, One Toyota’s obligation to pay arbitration-related costs would not be evident to anyone
without legal knowledge or access to the relevant authorities. It is difficult to envision that Kho would have had any
idea what the cited code section says or that a 13-year-old
case creates a relevant exception to it. This example illustrates the difficulty a layperson would have in deciphering

9
Under Armendariz, “when an employer imposes mandatory arbitration as a condition of employment, the arbitration agreement or
arbitration process cannot generally require the employee to bear
any type of expense that the employee would not be required to bear
if he or she were free to bring the action in court.” (Armendariz, supra, 24 Cal.4th at pp. 110-111.) Armendariz concerned claims under
the California Fair Employment and Housing Act (Gov. Code,
§ 12900 et seq.), but One Toyota does not dispute that its holding applies equally to wage claims.

19a
key terms. It would have been nearly impossible to understand the contract’s meaning without legal training and
access to the many statutes it references. Kho had neither. Under these circumstances, Kho’s signature attesting to have read and understood the agreement appears
formulaic rather than informed. We agree with the Court
of Appeal that the agreement appears to have been
drafted with an aim to thwart, rather than promote, understanding.
The document itself and the manner of its presentation did not promote voluntary or informed agreement to
its terms. “Arbitration is favored in this state as a voluntary means of resolving disputes, and this voluntariness
has been its bedrock justification.” (Armendariz, supra,
24 Cal.4th at p. 115; see Sandquist v. Lebo Automotive,
Inc. (2016) 1 Cal.5th 233, 252.) Arbitration contracts are
vigorously enforced out of respect for the parties’ mutual
and voluntary agreement to resolve disputes by this alternative means. (See, e.g., Moncharsh, supra, 3 Cal.4th at
pp. 10-11.) However, an inference of voluntary assent can
be indulged only so far and must yield in the face of undisputed facts that undermine it. Where an employee is induced to sign an arbitration agreement through “sharp
practices” and surprise (see Gentry v. Superior Court
(2007) 42 Cal.4th 443, 469 (Gentry)),10 the consent rationale carries less force. “[A]rbitration ‘is a matter of consent, not coercion.’ ” (Stolt-Nielsen S. A. v. AnimalFeeds
Int’l Corp. (2010) 559 U.S. 662, 681; see Lamps Plus, Inc.
v. Varela (2019) ____ U.S. ____ , ____ [139 S.Ct.
1407, 1415].) On this record, it is virtually impossible to
10
In Iskanian v. CLS Transportation Los Angeles, LLC (2014) 59
Cal.4th 348, 360, we recognized that Gentry’s holding regarding class
arbitration waivers had been abrogated by United States Supreme
Court precedent.

20a
conclude that Kho knew he was giving up his Berman
rights and voluntarily agreeing to arbitration instead.
2. Substantive Unconscionability

Substantive unconscionability examines the fairness
of a contract’s terms. This analysis “ensures that contracts, particularly contracts of adhesion, do not impose
terms that have been variously described as ‘ “ ‘overly
harsh’ ” ’ (Stirlen v. Supercuts, Inc. (1997) 51 Cal.App.4th
1519, 1532), ‘ “unduly oppressive” ’ (Perdue v. Crocker National Bank (1985) 38 Cal.3d 913, 925), ‘ “so one-sided as
to ‘shock the conscience’ ” ’ (Pinnacle[, supra,] 55 Cal.4th
[at p.] 246), or ‘unfairly one-sided’ (Little [v. Auto Stiegler,
Inc. (2003)] 29 Cal.4th [1064,] 1071.) All of these formulations point to the central idea that the unconscionability
doctrine is concerned not with ‘a simple old-fashioned bad
bargain’ [citation], but with terms that are ‘unreasonably
favorable to the more powerful party.’ ” (Sonic II, supra,
57 Cal.4th at p. 1145.) Unconscionable terms “ ‘impair the
integrity of the bargaining process or otherwise contravene the public interest or public policy’ ” or attempt to
impermissibly alter fundamental legal duties. (Ibid.) They
may include fine-print terms, unreasonably or unexpectedly harsh terms regarding price or other central aspects
of the transaction, and terms that undermine the nondrafting party’s reasonable expectations. (Ibid.; see
Sanchez, supra, 61 Cal.4th at p. 911.) These examples are
illustrative, not exhaustive.
Substantive terms that, in the abstract, might not support an unconscionability finding take on greater weight
when imposed by a procedure that is demonstrably oppressive. Although procedural unconscionability alone
does not invalidate a contract, its existence requires
courts to closely scrutinize the substantive terms “to en-

21a
sure they are not manifestly unfair or one-sided.” (Gentry, supra, 42 Cal.4th at p. 469.) We hold that, given the
substantial procedural unconscionability here, even a relatively low degree of substantive unconscionability may
suffice to render the agreement unenforceable. (Carmona, supra, 226 Cal.App.4th at p. 85; A & M Produce,
supra, 135 Cal.App.3d at p. 487; see Armendariz, supra,
24 Cal.4th at p. 114.)
Kho and the Labor Commissioner do not focus on the
fairness of specific, isolated terms in the agreement. Rather, they contend One Toyota’s arbitral process is so inaccessible and unaffordable, considered as a whole, that it
does not offer an effective means for resolving wage disputes. (See Sonic II, supra, 57 Cal.4th at p. 1146.)11 This
is a close question, which cannot be resolved in the abstract. It is important to stress that the waiver of Berman
procedures does not, in itself, render an arbitration agreement unconscionable. However, a substantive unconscionability analysis is sensitive to “the context of the rights
and remedies that otherwise would have been available to
the parties.” (Sanchez, supra, 61 Cal.4th at p. 922.) We
must examine both the features of dispute resolution
adopted as well as the features eliminated. (Sonic II, supra, 57 Cal.4th at p. 1146.)
As to accessibility, Kho first observes that, unlike in
Berman proceedings, the agreement does not explain how
to initiate arbitration. Industrial Welfare Commission
(IWC) wage orders, required by law to be posted at the
jobsite (Lab. Code, § 1183, subd. (d)), direct employees to

11
Separately, Kho asserts the agreement is unconscionable because it potentially extends to enforcement actions that may be
brought by the Labor Commissioner. We do not address this new argument because, as Kho concedes, no such claims are at issue here.

22a
contact the Labor Commissioner about wage-related violations, providing for this purpose both the Department of
Industrial Relations website and a list of local labor commissioner offices. (See, e.g., IWC wage order No. 4-2001
(Cal. Code Regs., tit. 8, § 11040); IWC wage order No.
MW-2019 (Cal. Code Regs., tit. 8, § 11000).) An employee
can start the Berman process by filling out a simple form
found on the website and in local offices. The form is rendered in many languages, and detailed instructions explain how to complete and file it. In contrast, One Toyota’s
agreement does not mention how to bring a dispute to arbitration, nor does it suggest where that information
might be found.12 Commercial arbitration providers, for
example, frequently provide standardized forms to start
the process. Employees can also contact the provider for
information on claim initiation. The agreement here, however, identifies no commercial providers. In fact, it does
not mention that such providers exist. It mandates that
the arbitrator be a “retired California Superior Court
Judge” but gives no indication how an employee might
find such a person, let alone one willing to arbitrate a wage
claim. Although some employees might pursue other avenues for relief and reach arbitration after encountering a
motion to compel, these additional steps will inevitably increase the delay and expense involved. Other employees
may be so confused by the agreement that they are deterred from bringing their wage claims at all.13
12
A second document Kho signed the same day requires management to be notified in writing about compensation-related disputes
but gives no indication such a notice would be sufficient to initiate arbitration. (See dis. opn., post, at p. 31.) Indeed, it would not be, since
the agreement imposes no obligation on One Toyota to take any action upon receiving such a notice.

The dissent argues Kho could have deduced how to initiate arbitration by the agreement’s reference to the California Arbitration
13

23a
Kho also contends it would be difficult for an unsophisticated, unrepresented wage claimant to effectively navigate the agreement’s arbitral procedure. In the Berman
process, a claimant need only fill out a complaint form,
possibly assisted by a deputy labor commissioner, then attend a settlement conference and, in some cases, a hearing. (See Sonic II, supra, 57 Cal.4th at p. 1128.) By contrast, in the arbitration provided for here, the complaint
must be framed in a legal pleading, and the claimant must
respond to discovery demands and dispositive motions.
Whereas a Berman hearing is conducted by a deputy labor commissioner, who can explain terminology and assist
with witness examination (see ibid.), the arbitration here
must be conducted by a retired superior court judge, with
procedures similar to a formal civil trial. Evidence must
conform to technical rules of evidence, whereas all relevant evidence is typically admitted in Berman hearings.
(See ibid.; Cal. Code Regs., tit. 8, § 13502.)14 Collection is
Act. (Dis. opn., post, at p. 31.) While still speculative, this assertion
would have more force if Kho had been given a copy of the documents
he signed. It is undisputed he was not. It seems quite a stretch to assert that a mere reference to the California Arbitration Act in the
“visually impenetrable” (ante, at p. 17) paragraph Kho was given an
inadequate opportunity to review, and which he would have had to
recall without his own copy to assist him, informed Kho how to initiate
arbitration.
At oral argument, One Toyota’s counsel asserted that these procedural requirements would not apply in wage claim arbitrations because arbitrators would know to use simplified, Berman-like procedures instead. This argument was never previously made and is contrary to One Toyota’s position throughout this appeal. In the Court of
Appeal, One Toyota defended the complexity of its arbitral process
by arguing that the agreement’s “rules for discovery and motion practice are expressly the same as they would be in court—the same rules
that the state legislature deemed fair enough to institute for all civil
proceedings—with the only modifications noted in the four corners of
the arbitration agreement and not requiring reference to any other
14

24a
also simplified in the Berman context because the Labor
Commissioner is responsible for enforcing the judgment.
(§ 98.2, subd. (i).) Or, if the employer unsuccessfully appeals the Labor Commissioner’s award, the claimant can
collect on a posted bond. (§ 98.2, subd. (b).) In arbitration,
a successful claimant must petition to confirm the award
and reduce it to an enforceable judgment. (Code Civ.
Proc., §§ 1285, 1287.4.)
The Berman process was specifically designed to give
claimants a “speedy, informal, and affordable method” for
resolving wage disputes. (Cuadra, supra, 17 Cal.4th at p.

documents.” In its briefing here, One Toyota argued that what “Kho
and the Labor Commissioner . . . both truly desire is an arbitration
procedure that resembles the Berman hearing process. However, an
employee is not entitled to that . . . .” One Toyota never suggested its
arbitral process did, in fact, resemble the Berman procedures. Moreover, counsel’s representation at oral argument is directly contradicted by the language of the arbitration agreement. It states: “To the
extent applicable in civil courts, the following shall apply and be observed: all rules of pleading (including the right of demurrer), all rules
of evidence, all rights to resolution of the dispute by means of motions
for summary judgment, judgment on the pleadings, and judgment under Code of Civil Procedure Section 631.8. The arbitrator shall be
vested with authority to determine any and all issues pertaining to
the dispute/claims raised, any such determinations shall be based
solely upon the law governing the claims and defenses pleaded, and
the arbitrator may not invoke any basis (including but not limited to
notions of ‘just cause’) for his/her determinations other than such controlling law.” (Italics added.) This language begins in the 32d line of
the arbitration paragraph. It clearly requires the parties to follow the
same pleading, evidence, and motion practice rules that govern civil
litigation. Further, by requiring arbitration before a retired superior
court judge, the agreement ensures the arbitrators will be experienced in enforcing these procedural rules. It is difficult, if not impossible, to square the strict language of the contract with One Toyota’s
belated assertion.

25a
858.)15 The process advances “the very objectives of ‘informality,’ ‘lower costs,’ ‘greater efficiency and speed,’ and
use of ‘expert adjudicators’ that the high court has
deemed ‘fundamental attributes of arbitration.’ ” (Sonic
II, supra, 57 Cal.4th at p. 1149; see Concepcion, supra,
563 U.S. at pp. 344, 348.)16 By contrast, the arbitration
provided for here incorporates the intricacies of civil litigation. An employee must surrender the benefits and efficiencies of the Berman process but does not gain in return any of the efficiencies or cost savings often associated
with arbitration.
We observed in Little v. Auto Stiegler, Inc., supra, 29
Cal.4th at page 1075, footnote 1, that litigation-like procedures, on their own, are not necessarily so one-sided as to
make an arbitration agreement unconscionable. We certainly do not now suggest that a system of statutory and
Although the resolution of this particular dispute has not been
speedy, the delay is largely attributable to One Toyota. Kho filed a
claim with the Labor Commissioner in October 2014. A settlement
conference was held the next month, and a Berman hearing followed
nine months later, in August 2015. The Labor Commissioner issued
an award only a week after the hearing, around 10 months after Kho
filed his claim. Litigation over One Toyota’s motion to compel arbitration then consumed the next four years.
15

The dissent raises the same criticisms of the Berman procedure
that this court considered at length, and rejected, in Sonic II, supra,
57 Cal.4th at pages 1160-1162. The Berman procedures remain the
Legislature’s best “solution to the real-world problems employees
face in recovering wages owed.” (Id. at p. 1162.) These “informal procedures and incentives . . . make it more likely employees will be able
to recover wages without incurring substantial attorney fees or the
risk of liability for an employer’s attorney fees,” and help to “ensure
that employees will be able to actually collect a favorable judgment.”
(Ibid.) Now, as in 2013, “[t]he dissent does not persuade us to secondguess the efficacy of this legislative solution or to depart from this
court’s consistent understanding of the Berman statutes’ benefits.”
(Ibid.)
16

26a
common law carefully crafted to ensure fairness to both
sides, and subject to continuous review, is per se unfair.17
However, that carefully crafted process can be costly,
complex, and time-consuming. It is the opportunity to expedite and simplify the process that can motivate informed parties to agree to arbitration. Furthermore, Little’s observation was made in the context of a suit alleging
wrongful demotion and discharge. (Id. at p. 1069.) For
such claims, it may well be that an arbitration process
closely resembling civil litigation can be as advantageous
for the employee as for the employer. (See id. at p. 1075,
fn. 1.) There is no Berman-like administrative process for
wrongful discharge claims.
Our cases have taken a different approach in evaluating the compelled arbitration of wage claims, as compared
to the arbitration of other types of disputes. Employees
who agree to arbitrate claims for unpaid wages forgo not
just their right to litigate in court, but also their resort to
an expedient, largely cost-free administrative procedure.
We explained repeatedly in Sonic II that, while the waiver
of Berman procedures does not in itself render an arbitration agreement unconscionable, the agreement must provide in exchange an accessible and affordable forum for
resolving wage disputes. (Sonic II, supra, 57 Cal.4th at
pp. 1146, 1147-1148, 1150.) No specific procedures are required. (See id. at pp. 1147, 1170-1171.) But the arbitral

17
It should be evident that our observations here, which the dissent
quotes repeatedly (dis. opn., post, at pp. 1, 19, 42, 45, 48, 55), pertain
to civil litigation in general, not to the importation of civil litigation’s
formalities into an arbitration scheme that was forced on an employee
through oppression and surprise as a substitute for an administrative
procedure that we have repeatedly found to be expedient and affordable. (See, e.g., Sonic II, supra, 57 Cal.4th at pp. 1160-1161; Cuadra,
supra, 17 Cal.4th at p. 858.)

27a
scheme must offer employees an effective means to pursue claims for unpaid wages, and not impose unfair costs
or risks on them or erect other barriers to the vindication
of their statutory rights. (See id. at pp. 1142, 1147-1148,
1157-1158.) When imposed in a procedurally unconscionable fashion, such barriers to the vindication of rights may
become unenforceable.
It is true, as One Toyota notes, that the results of a
Berman hearing are nonbinding. An appeal by either
party will bring the parties to the superior court for de
novo review, where litigation formalities may apply.18 But,
as Sonic II explained, the prospect of an appeal does not
negate the efficiency or accessibility of the Berman process. (Sonic II, supra, 57 Cal.4th at pp. 1160-1162, 1167.)
Appeals are discouraged by the requirement that employers post a bond (§ 98.2, subd. (b)) and pay the costs and
attorney fees on appeal of any employee who recovers
even a minimal amount (see § 98.2, subd. (c); Lolley, supra, 28 Cal.4th at p. 376). If the employer does appeal,
The dissent contends efficiencies of the Berman process are illusory because de novo appeals will simply bring the matters to superior court. (Dis. opn., post, at p. 30.) However, the Labor Commissioner explained at oral argument that de novo appeals are relatively
rare. Most of the 30,000 to 40,000 claims filed with the commissioner
each year are resolved at the initial settlement conference, with only
around 10,000 proceeding to a Berman hearing. Of those 10,000, fewer
than 500 cases result in a de novo appeal. Moreover, although trial
courts generally have the power “ ‘ “to adopt any suitable method of
practice” ’ ” in cases before them (Murphy v. Kenneth Cole Productions, Inc. (2007) 40 Cal.4th 1094, 1118), the Labor Commissioner represents that de novo appeals typically proceed directly to trial, without lengthy pretrial proceedings. Formal discovery in the superior
court, though permissible, is disfavored except in unusually highvalue or complex wage disputes. (Sales Dimensions v. Superior
Court (1979) 90 Cal.App.3d 757, 763.) One Toyota has not challenged
these representations. (See Madera Police Officers Assn. v. City of
Madera (1984) 36 Cal.3d 403, 407, fn. 5.)
18

28a
Berman claimants who cannot afford counsel may be represented by the Labor Commissioner. Representation in
a de novo appeal is guaranteed for indigent claimants who
do not object to the commissioner’s final order. (§ 98.4.)
Absent the agreement, Kho may well have been represented by the Labor Commissioner in any de novo appeal.
Moreover, all claimants will have a better understanding
of how to support their wage claims as a result of having
the commissioner’s assistance during the Berman process.
Because the complexity of One Toyota’s arbitral process effectively requires that employees hire counsel,
there is also force to Kho’s argument that the procedure
is not an affordable option. An arbitration procedure may
not impose such costs or risks on wage claimants that it
“ ‘effectively blocks every forum for the redress of disputes, including arbitration itself.’ ” (Sonic II, supra, 57
Cal.4th at p. 1148.)
As noted, Armendariz, supra, 24 Cal.4th 83, requires
that employers bear most arbitration costs, which, because they include the arbitrator’s compensation, can be
substantial. The Armendariz rule mitigates the unfairness of expecting that employees bear costs of a procedure to which they were required to agree. Attorney fees
are different, however, because they are not unique to arbitration. It is true that employees are free to hire counsel, or not, whether they pursue their claims in court or in
arbitration. But wage claimants present a somewhat special case. These employees can secure free legal assistance from the Labor Commissioner, both at the Berman
hearing and in any subsequent appeal. While all employees would likely benefit from having a lawyer in the litigation-like arbitration process here, only wage claimants

29a
have to pay for representation that was otherwise available to them for free.19
One Toyota notes that employees who hire counsel for
wage-claim arbitrations may be able to recover their legal
fees under an applicable fee-shifting statute. (See Kirby
v. Immoos Fire Protection, Inc. (2012) 53 Cal.4th 1244,
1251.) For example, section 218.5, subdivision (a) requires
the court to award reasonable attorney fees and costs to
the prevailing party in “any action brought for the nonpayment of wages” if fees are requested “upon the initiation of the action.” The parties do not dispute that section
218.5 applies to most of Kho’s claims. While section 218.5
permits an award of fees to either employees or employers who prevail (see Kirby, at p. 1251), employers may recover fees “only if the court finds that the employee
brought the court action in bad faith.” (§ 218.5, subd. (a);
see Arave v. Merrill Lynch, Pierce, Fenner & Smith, Inc.
(2018) 19 Cal.App.5th 525, 545.)
Although section 218.5 may mitigate some financial
burden, employees still face a risk that they will not be
designated the prevailing party, rendering their fees unrecoverable. The prevailing party is the one that succeeds
One Toyota suggests that the Labor Commissioner could represent claimants in arbitration. An administrative agency’s authority is
limited to that conferred by statute or the Constitution. (Ferdig v.
State Personnel Bd. (1969) 71 Cal.2d 96, 103; Noble v. Draper (2008)
160 Cal.App.4th 1, 12.) Although section 98.4 allows the Labor Commissioner to represent indigent claimants in de novo court proceedings following a Berman hearing, no statute authorizes the representation of claimants outside this specific context. The commissioner
does have the power to prosecute its own action for the collection of
unpaid wages and penalties on behalf of workers who are unable to
afford counsel. (§ 98.3; see § 98, subd. (a).) Whether this discretionary
authority extends to representing wage claimants in an arbitration is
not readily apparent but, in any event, is a question beyond the scope
of this appeal.
19

30a
“on a ‘ “practical level” ’ ” and has “ ‘realized its litigation
objectives.’ ” (Sharif v. Mehusa, Inc. (2015) 241
Cal.App.4th 185, 192.) An employer might be deemed the
prevailing party on a wage claim if the jury denies most
or all of the wages sought, even if the employee prevails
on other claims. (See ibid.)
In contrast, the Berman statutes provide fee-shifting
to wage claimants who secure any monetary recovery in
an employer’s appeal. (§ 98.2, subd. (c).) Considering the
simplified administrative procedures that can be navigated in propria persona, and the availability of the Labor
Commissioner’s representation and favorable fee-shifting
in a de novo appeal, claimants can successfully complete
the Berman process without paying a cent to an attorney.
The calculus is significantly different for employees in the
arbitration process here, despite section 218.5. Assuming
they can find counsel willing to represent them in One
Toyota’s complex arbitral process, these employees will
have to pay the attorney if they do not prevail and may
have to pay their employer’s attorney fees upon a finding
of bad faith. (See § 218.5, subd. (a).) Moreover, since section 218.5, subdivision (a) requires a fee request “upon the
initiation of the action,” employees who hire counsel after
filing suit or starting arbitration may unwittingly forfeit
their right to fees by failing to make a timely request.
Because the arbitration process here is no more complicated than ordinary civil litigation, it might be sufficiently accessible for wage claimants who are sophisticated, or affordable for those able to hire counsel. But an
unconscionability analysis must be sensitive to context.
Context includes both the commercial setting and purpose
of the arbitration contract and any procedural unconscionability in its formation. (Sanchez, supra, 61 Cal.4th
at pp. 911-912.) As noted, the procedural unconscionability showing here is exceptionally strong. Although the

31a
same contract terms might pass muster under less coercive circumstances, a worker who is required to trade the
Berman process for arbitration should at least have a reasonable opportunity to understand the bargain he is making. Had One Toyota set out the terms of its agreement in
a legible format and fairly understandable language, or
had it given Kho a reasonable opportunity to seek clarification or advice, this would be a different case.
Ultimately, the question is whether Kho, through oppression and surprise, was coerced or misled into making
an unfair bargain. (See Gentry, supra, 42 Cal.4th at pp.
469-470; see also Sanchez, supra, 61 Cal.4th at p. 912.) The
substantive fairness of this particular agreement must be
considered in terms of what Kho gave up and what he received in return. By signing the agreement, Kho surrendered the full panoply of Berman procedures and assistance we have described. What he got in return was access
to a formal and highly structured arbitration process that
closely resembled civil litigation if he could figure out how
to avail himself of its benefits and avoid its pitfalls. Considering the unusually coercive setting in which this bargain was entered, we conclude it was sufficiently onesided as to render the agreement unenforceable.20
3. Consistency with Federal Law

Our holding rests on generally applicable unconscionability principles and heeds Concepcion’s counsel that arbitration agreements be placed “on an equal footing with
other contracts.” (Concepcion, supra, 563 U.S. at p. 339.)
Nevertheless, our dissenting colleague renews several of
the preemption arguments he made in Sonic II, insisting
20
In light of this conclusion, we need not decide the Labor Commissioner’s claim, raised below, that One Toyota forfeited its right to
arbitrate.

32a
once again that this court’s approach to unconscionability
contradicts the FAA and United States Supreme Court
jurisprudence. (See Sonic II, supra, 57 Cal.4th at pp.
1184-1192 (conc. & dis. opn. of Chin, J.).) We respectfully
suggest these complaints are unfounded.
The dissent’s primary objection is that our analysis
evinces hostility to arbitration, discriminates against arbitration, or improperly prefers a nonarbitral forum. (Dis.
opn., post, at pp. 44-49.) Yet arbitration is premised on the
parties’ mutual consent, not coercion (see Stolt-Nielsen S.
A. v. AnimalFeeds Int’l Corp., supra, 559 U.S. at p. 681),
and the manner of the agreement’s imposition here raises
serious concerns on that score. Moreover, we have repeatedly stressed that the substantive unconscionability of an
arbitration agreement “is viewed in the context of the
rights and remedies that otherwise would have been available to the parties.” (Sanchez, supra, 61 Cal.4th at p. 922,
citing Sonic II, supra, 57 Cal.4th at pp. 1146-1148.) The
dissent supports its claim with repeated quotations to our
observations about civil litigation, not the arbitral process under review. The argument is thus premised on a
false equivalence between the system of civil litigation and
the complex arbitral procedure adopted in this case, which
features few, if any, of the benefits typically associated
with arbitration and regarded as fundamental. (See Concepcion, supra, 563 U.S. at pp. 344-345.) While “the Berman statutes promote the very objectives of ‘informality,’
‘lower costs,’ ‘greater efficiency and speed,’ and use of ‘expert adjudicators’ that the high court has deemed ‘fundamental attributes of arbitration,’ ” the arbitration agreement here undermines those objectives by causing an “increase in cost, procedural rigor, complexity, or formality.”
(Sonic II, supra, 57 Cal.4th at p. 1149, quoting Concepcion, supra, 563 U.S. at p. 348.)

33a
In comparing Berman’s administrative process with
One Toyota’s arbitral procedure, we have simply evaluated the bargain at issue. We have not said no arbitration
could provide an appropriate forum for resolution of Kho’s
wage claim, but only that this particular arbitral process,
forced upon Kho under especially oppressive circumstances and erecting new barriers to the vindication of his
rights, is unconscionable.
Citing the protracted appellate proceedings here, the
dissent also complains that evaluating unconscionability
claims will erect the type of “preliminary litigating hurdle” to arbitration the high court disfavored in American
Express Co. v. Italian Colors Restaurant (2013) 570 U.S.
228, 239. For obvious reasons, the duration of this particular litigation can hardly be considered typical. Few cases
progress to appeal, and vanishingly few reach this court.
More importantly, the issue here is very different from
that in Italian Colors. Unlike the “judge-made exception
to the FAA” the high court found problematic (Italian
Colors, at p. 235), the unconscionability defense has long
been recognized as a permissible ground for invalidating
arbitration agreements under the FAA’s savings clause.
(9 U.S.C. § 2; see, e.g., Concepcion, supra, 563 U.S. at p.
339; Doctor’s Associates, Inc. v. Casarotto (1996) 517 U.S.
681, 687.) The FAA thus contemplates that unconscionability claims, like other state law contract defenses, will be
resolved before arbitration is enforced. (See Sonic II, supra, 57 Cal.4th at p. 1167.) If the defense cannot be addressed before arbitration, then the savings clause has no
meaning. The dissent also predicts delay from the caseby-case litigation of accessibility and affordability. (See
dis. opn., post, at p. 52.) But this is an argument with the
unconscionability defense itself, which is inherently fact-

34a
specific. Once again, the dissent’s view would all but eliminate the unconscionability defense to arbitration agreements, rendering the FAA’s savings clause meaningless.
“Under the dissent’s sweeping view of FAA preemption, no unconscionability rule may take into account the
surrender of statutory protections for certain claimants,
whether or not those protections interfere with fundamental attributes of arbitration.” (Sonic II, supra, 57
Cal.4th at p. 1168.) We rejected that view in Sonic II and
continue to do so. Sonic II’s “unconscionability rule does
not treat arbitration agreements differently from nonarbitration agreements, does not remotely foreclose the enforceability of agreements to arbitrate wage disputes, and
does not require such agreements to adopt any devices or
procedures inimical to arbitration’s fundamental attributes.” (Id. at p. 1171.) Our application of that rule today
fully complies with the FAA and governing law.
C. Status of the Labor Commissioner’s Award

As noted, the trial court granted One Toyota’s motion
to vacate the Labor Commissioner’s award. Because the
Court of Appeal concluded the parties must arbitrate
their wage dispute, it did not address the Labor Commissioner’s cross-appeal from the order vacating her award.
We consider the issue because the status of the Labor
Commissioner’s award has continuing significance on remand.
As One Toyota acknowledges, the issuance of such an
award has several consequences even if not reduced to an
enforceable judgment. When, as here, a de novo appeal is
taken, the employer must post bond in the amount of the
award. (§ 98.2, subd. (b).) Employees like Kho who do not
contest any aspect of the award can be represented by the
Labor Commissioner in the de novo proceedings (§ 98.4)
and obtain attorney fees if they recover any amount.

35a
(§ 98.2, subd. (c); see Lolley, supra, 28 Cal.4th at p. 377.)
Kho’s access to these benefits on remand depends on the
status of the Labor Commissioner’s award.21 A properly
vacated award could make these benefits unavailable.
However, it appears the order vacating the award was
made in error.
On the morning of the scheduled Berman hearing, One
Toyota faxed the Labor Commissioner a letter. The company explained it had filed a petition to compel arbitration
and requested the hearing be taken off calendar until arbitration was complete. The Labor Commissioner refused, proceeded with the hearing in One Toyota’s absence, and made an award for Kho.22 The trial court found
that One Toyota was substantially justified in refusing to
participate in the Berman hearing and that enforcing the
award would violate One Toyota’s right to a fair administrative hearing. The procedural posture here requires reversal of the trial court’s order granting relief from the
award.
The court purportedly relied on Code of Civil Procedure section 1094.5, subdivision (b). That statute authorizes a writ of mandate if an administrative tribunal “has
After the trial court vacated the award, One Toyota obtained an
order releasing its appeal bond. Whether section 98.2, subdivision (b)
requires reinstatement or the posting of a new bond is a matter the
trial court may consider on remand.
21

22
One Toyota argues the Labor Commissioner created a “catch22” by asserting that One Toyota would waive its right to arbitrate if
it participated in the Berman hearing. The record directly belies this
claim. After One Toyota refused to participate in the hearing, the
hearing officer notified it in writing: “[I]n the event that your client
disagrees with the Order, Decision, or Award in this matter you will
then have the opportunity to file an appeal or compel arbitration at
that time.” (Italics added.) One Toyota cites nothing in the record to
support its “catch-22” assertion.

36a
proceeded without, or in excess of, jurisdiction; whether
there was a fair trial; and whether there was any prejudicial abuse of discretion.” (Code Civ. Proc., § 1094.5,
subd. (b).) The difficulty is One Toyota did not petition for
a writ of mandate. (See Code Civ. Proc., § 1094.5, subd.
(a).) It simply filed a motion to vacate the award. Moreover, administrative mandate applies only to the results of
“a proceeding in which by law a hearing is required to be
given. . . .” (Ibid., italics added.; see Keeler v. Superior
Court (1956) 46 Cal.2d 596, 598-599.) There is no requirement that a Berman hearing be held on a wage complaint.
The Labor Commissioner has discretion to hold a hearing,
prosecute the case in court, or take “no further action . . .
on the complaint.” (Lab. Code, § 98, subd. (a).) Accordingly, Berman “hearings are not subject to review under
Code of Civil Procedure section 1094.5.” (Corrales v.
Bradstreet (2007) 153 Cal.App.4th 33, 55.)
More fundamentally, One Toyota was not entitled to
relief on its motion because it failed to exhaust its administrative remedies. The Labor Code outlines two alternatives for challenging a Berman award. (See Gonzalez v.
Beck (2007) 158 Cal.App.4th 598, 605.) First, either party
can file an appeal in the superior court. (§ 98.2.) Second, a
defendant who has failed to answer or appear in the Berman proceedings can apply to the Labor Commissioner
for relief under Code of Civil Procedure section 473. (Lab.
Code, § 98, subd. (f).) Although an application to the Labor Commissioner need not precede a de novo appeal (see
Jones v. Basich (1986) 176 Cal.App.3d 513, 518), this administrative recourse must be sought before a motion to
vacate the commissioner’s decision. Section 98, subdivision (f) states: “No right to relief, including the claim that
the findings or award of the Labor Commissioner or judgment entered thereon are void upon their face, shall accrue to the defendant in any court unless prior application

37a
is made to the Labor Commissioner in accordance with
this chapter.” (See Gonzalez, at pp. 605-606.) One Toyota
tried to pursue both lines of attack. It filed a de novo appeal and made a motion to vacate. Because it failed to seek
relief from the Labor Commissioner, however, it was
barred from obtaining the latter relief. (§ 98, subd. (f).)
If One Toyota wished to halt the Berman proceedings
while pursuing arbitration, it could have requested a stay.
The filing of a petition to compel arbitration does not automatically stay ongoing proceedings; the party seeking
arbitration must request one. (Brock v. Kaiser Foundation Hospitals (1992) 10 Cal.App.4th 1790, 1796.) Under
Code of Civil Procedure section 1281.4, “[i]f an application
has been made to a court of competent jurisdiction . . . for
an order to arbitrate a controversy which is an issue involved in an action or proceeding pending before a court
of this State and such application is undetermined, the
court in which such action or proceeding is pending shall,
upon motion of a party to such action or proceeding, stay
the action or proceeding until the application for an order
to arbitrate is determined . . . .” (Italics added.) One
Toyota’s petition to compel did, somewhat vaguely, ask
the court to stay “this action,” but it gave the court no opportunity to rule on its request. The petition was filed with
the court on the Friday before a Monday Berman hearing.
One Toyota did not ask the court for an emergency stay
in light of its late filing, and no stay order was actually
issued before One Toyota’s counsel unilaterally left the
hearing.
One Toyota argues the terms of Code of Civil Procedure section 1281.4 do not apply because Berman proceedings are not “pending before a court of this State.”
This assertion undermines One Toyota’s attempt to excuse its nonparticipation in the hearing and ignores the
rule from Brock that a motion to compel does not effect an

38a
automatic stay. Moreover, even if the language of section
1281.4 does not explicitly encompass proceedings before
the Labor Commissioner, the superior court likely had the
power to stay these administrative proceedings under
Code of Civil Procedure section 1281.8, subdivision (a),
which authorizes a range of provisional remedies in aid of
arbitration, including injunctive relief. Failing that, the
court could have issued a stay under its inherent power.
“[A] court ordinarily has inherent power, in its discretion,
to stay proceedings when such a stay will accommodate
the ends of justice.” (People v. Bell (1984) 159 Cal.App.3d
323, 329.) As the court in Landis v. North American Co.
(1936) 299 U.S. 248, 254 explained, “the power to stay proceedings is incidental to the power inherent in every court
to control the disposition of the causes on its docket with
economy of time and effort for itself, for counsel, and for
litigants.”
One Toyota did not obtain a stay, but simply refused
to participate in a hearing that had been set months before. Under these circumstances, the Labor Commissioner did not act improperly in proceeding with the hearing after One Toyota and its counsel chose to depart. Vacating that award was error. Nevertheless, One Toyota
properly appealed the award under section 98.2, which
forestalled the Labor Commissioner’s decision, terminated her jurisdiction, and vested jurisdiction in the superior court. (Murphy v. Kenneth Cole Productions, Inc.,
supra, 40 Cal.4th at p. 1116.) Although the appeal terminates the commissioner’s jurisdiction, Kho will have the
benefit of the Labor Code’s post-Berman hearing protections on remand. (See §§ 98.2, 98.4.)

39a
III. DISPOSITION

The decision of the Court of Appeal is reversed. The
matter is remanded for return to the trial court for proceedings on One Toyota’s de novo appeal from the Labor
Commissioner’s award.

40a
Dissenting opinion by CHIN, J.
Today, the majority holds that an arbitration agreement is substantively unconscionable—and therefore unenforceable—precisely because it prescribes procedures
that, according to the majority, have been “carefully
crafted to ensure fairness to both sides.” (Maj. opn., ante,
at p. 25.) If you find that conclusion hard to grasp and
counterintuitive, so do I. It is based on the majority’s view
that arbitration with such procedures, though not unaffordable or inaccessible in the abstract or “per se unfair”
(maj. opn., ante, at p. 25), is not as advantageous for employees with unpaid wage claims as the potentially multitiered, multistep, combined administrative and judicial
statutory process known as the Berman procedure. I believe the majority’s analysis and conclusion to be incorrect
under state law in numerous respects. I also believe the
Federal Arbitration Act (FAA; 9 U.S.C. § 1 et seq.), as authoritatively construed in binding United States Supreme
Court decisions, precludes the majority from invalidating
this arbitration agreement based on its subjective view
that, for the purpose of “vindicati[ng]” employees’ “statutory rights,” the prescribed arbitration procedure is not
as effective as the statutory Berman procedure. (Maj.
opn., ante, at p. 25.) I therefore dissent.
I.

DISCUSSION

To explain why I do not join the majority, I begin by
summarizing relevant state law unconscionability principles. I then explain my disagreement with the majority’s
view that “a relatively low degree of substantive” unfairness may be sufficient to render an arbitration agreement
unenforceable on the grounds of unconscionability (maj.
opn., ante, at p. 20), and with the majority’s analysis of
procedural and substantive unconscionability. Finally, I

41a
explain why I believe the majority’s analysis and conclusion are inconsistent with, and therefore preempted by,
the FAA, as the United States Supreme Court has construed that law.
A. State Law Principles of Arbitration and Unconscionability

Several state law legal principles must guide our analysis. First, as the majority acknowledges, “California law
strongly favors arbitration.” (Maj. opn., ante, at p. 12.)
The clearest expression of this state policy appears in
Code of Civil Procedure section 1281, which declares that
“[a] written agreement to submit to arbitration an existing controversy or a controversy thereafter arising is
valid, enforceable and irrevocable, save upon such
grounds as exist for the revocation of any contract.” This
section establishes the “fundamental policy” of California’s arbitration scheme: “that arbitration agreements
will be enforced in accordance with their terms.” (Vandenberg v. Superior Court (1999) 21 Cal.4th 815, 836, fn.
10.) It creates “a presumption in favor of arbitrability [citation] and a requirement that an arbitration agreement
must be enforced on the basis of state law standards that
apply to contracts in general.” (Engalla v. Permanente
Medical Group, Inc. (1997) 15 Cal.4th 951, 971-972.) The
majority, after briefly mentioning arbitration’s favored
status under state law early in its opinion, essentially ignores this principle in its analysis and in its refusal to enforce the arbitration agreement here.
Second, although the doctrine of unconscionability, as
a generally applicable contract defense, may be applied to
invalidate an arbitration agreement, as the majority
notes, the doctrine’s “application” in the arbitration context “must rely on the same principles that govern all con-

42a
tracts,” and “[t]he degree of unfairness required for unconscionability must be as rigorous and demanding for arbitration clauses as for any other contract clause.” (Maj.
opn., ante, at p. 13.)
Third, under our generally applicable principles of unconscionability, “[a] party cannot avoid a contractual obligation merely by complaining that the deal, in retrospect,
was unfair or a bad bargain” (Sanchez v. Valencia Holding Co., LLC (2015) 61 Cal.4th 899, 911 (Sanchez)) or by
showing that the contract “gives one side a greater benefit” (Pinnacle Museum Tower Assn. v. Pinnacle Market
Development (US), LLC (2012) 55 Cal.4th 223, 246 (Pinnacle)). Under state law, “[n]ot all one-sided contract provisions are unconscionable” (Sanchez, at p. 911), and even
the “fact that the bargain is a very hard or unreasonable
one is not generally sufficient per se to induce . . . courts
to interfere” (Boyce v. Fisk (1895) 110 Cal. 107, 116). Instead, the party seeking to invalidate an arbitration
agreement must show “a substantial degree of unfairness
beyond ‘a simple old-fashioned bad bargain.’ ” (SonicCalabasas A, Inc. v. Moreno (2013) 57 Cal.4th 1109, 1160,
italics added (Sonic II).) The contract “must be ‘so onesided as to “shock the conscience” ’ ” (Pinnacle, at p. 246),
or, as alternatively formulated, “ ‘overly harsh,’ ‘unduly
oppressive,’ [or] ‘unreasonably favorable.’ ” (Sanchez, at
p. 911.)
Fourth, “contracts of adhesion . . . are indispensable
facts of modern life” and “are generally enforced” even
though they “contain a degree of procedural unconscionability.” (Gentry v. Superior Court (2007) 42 Cal.4th 443,
469 (Gentry); see AT&T Mobility LLC v. Concepcion
(2011) 563 U.S. 333, 346-347 (Concepcion) [“the times in
which consumer contracts were anything other than adhesive are long past”].) “[A] contract of adhesion is fully
enforceable according to its terms” unless it violates the

43a
“reasonable expectations of the weaker or ‘adhering’
party” or is “unduly oppressive or ‘unconscionable.’ ”
(Graham v. Scissor-Tail, Inc. (1981) 28 Cal.3d 807, 819,
820 (Graham).)
Fifth, the party seeking to avoid the contract must establish both procedural and substantive unconscionability,
“the former focusing on ‘ “oppression” ’ or ‘ “surprise” ’
due to unequal bargaining power, the latter on ‘ “overly
harsh” ’ or ‘ “one-sided” ’ results.” (Armendariz v. Foundation Health Psychcare Services, Inc. (2000) 24 Cal.4th
83, 114 (Armendariz).) Although both must be present,
we have stated that “they need not be present in the same
degree. ‘Essentially a sliding scale is invoked which disregards the regularity of the procedural process of the contract formation, that creates the terms, in proportion to
the greater harshness or unreasonableness of the substantive terms themselves.’ [Citations.] In other words,
the more substantively oppressive the contract term, the
less evidence of procedural unconscionability is required
to come to the conclusion that the term is unenforceable,
and vice versa.” (Ibid.)
B. The Majority’s Sliding Scale

At this point, I note my first concern about the majority’s analysis: its assertion that “a relatively low degree of
substantive unconscionability may suffice to render” an
arbitration agreement “unenforceable” if the level of procedural unconscionability is “substantial.” (Maj. opn.,
ante, at p. 20.) To begin with, it is unclear what the majority means by “relatively low” (ibid.), and the majority
sheds no light on this question. The majority’s unadorned
and unexplained assertion inevitably poses—but does not
answer—the following questions: Low “relative[]” to
what, and how “low” is enough?

44a
Nor do our precedents support or give meaning to the
majority’s statement. The only decision from this court
the majority cites for its assertion is Armendariz. (Maj.
opn., ante, at p. 21.) However, the majority notably precedes this citation with a “see” signal, which is the signal
we use to introduce decisions that provide only “weaker
support” for a given proposition, i.e., decisions that, as
here relevant, “only indirectly support the text” or contain
“supporting dicta.” (Cal. Style Manual (4th ed. 2000) § 1:4,
p. 9.) Clearly, then, the majority itself does not believe
that Armendariz provides more than indirect and weak
support for its view.
To the extent Armendariz bears on the issue, it states,
as noted above, that the “ ‘sliding scale’ ” used in connection with procedural and substantive unconscionability
“ ‘disregards the regularity of the procedural process of
the contract formation . . . in proportion to the greater
harshness or unreasonableness of the substantive terms
themselves.’ [Citations.] In other words, the more substantively oppressive the contract term, the less evidence
of procedural unconscionability is required to come to the
conclusion that the term is unenforceable, and vice versa.”
(Armendariz, supra, 24 Cal.4th at p. 114.) As is obvious,
the main point of this passage is that where the degree of
substantive unconscionability is high—i.e., the contract
terms are extremely harsh or unreasonable—“evidence of
procedural unconscionability” becomes less important,
i.e., a court may “ ‘disregard[] the regularity of the procedural process of the contract formation’ ” and find the contract unconscionable based solely on the high level of substantive unfairness. (Ibid.) This court’s use of the phrase
“vice versa” at the end of the second sentence (ibid.)
means only that evidence of procedural unfairness becomes more important to a finding of unconscionability as
the degree of substantive unfairness decreases. That is

45a
not the same as saying that “a relatively low degree of
substantive unconscionability may suffice” where the degree of procedural unconscionability is “substantial.”
(Maj. opn., ante, at p. 20.) Notably, the majority cites not
a single case in which we have applied Armendariz in the
manner the majority now suggests.
Indeed, the very concept of “a relatively low degree of
substantive unconscionability” (maj. opn., ante, at p. 20) is
inconsistent with our prior pronouncements that a court
may not invalidate “one-sided contract provisions” upon a
mere showing that “the deal, in retrospect, was unfair or
a bad bargain” (Sanchez, supra, 61 Cal.4th at p. 911) or
“gives one side a greater benefit” (Pinnacle, supra, 55
Cal.4th at p. 246); that the contract “must be ‘so one-sided
as to “shock the conscience” ’ ” (Id. at p. 246), or “ ‘overly
harsh,’ ‘unduly oppressive,’ [or] ‘unreasonably favorable’ ” (Sanchez, at p. 911); and that the party alleging unconscionability must establish “a substantial degree of unfairness beyond ‘a simple old-fashioned bad bargain’ ”
(Sonic II, 57 Cal.4th at p. 1160, italics added). The majority’s assertion that “a relatively low degree of substantive
unconscionability may suffice” (maj. opn., ante, at p. 22)
simply cannot be squared with these principles, and the
majority does not even attempt to do so.
For its assertion, the majority more directly relies on
two Court of Appeal decisions (maj. opn., ante, at p. 22),
but neither is persuasive. In the first—Carmona v. Lincoln Millennium Car Wash, Inc. (2014) 226 Cal.App.4th
74, 85—the Court of Appeal stated: “In light of the high
degree of procedural unconscionability, even a low degree
of substantive unconscionability could render the arbitration agreement unconscionable.” But the court cited no
authority of any kind to support this bare assertion.
(Ibid.) And the statement was dictum because, in the very

46a
next sentence, the court stated that “[t]he degree of substantive unconscionability here was not particularly low.”
(Ibid., italics added.)
In the second decision the majority cites—A & M Produce Co. v. FMC Corp. (1982) 135 Cal.App.3d 473, 487 (A
& M Produce)—the Court of Appeal stated that the enforceability of a clause containing an “unreasonable risk
reallocation[] . . . is tied to the procedural aspects of unconscionability [citation] such that the greater the unfair
surprise or inequality of bargaining power, the less unreasonable the risk reallocation which will be tolerated.” But
in making this statement, the court cited no supporting
decision from either California or any other jurisdiction;
indeed, it acknowledged that regarding “the importance
of both” procedural and substantive unconscionability,
there was “little California precedent directly on point.”
(Ibid.) Moreover, like the statement in Carmona, the
statement in A & M was dictum, because the court never
subsequently applied it in analyzing the unconscionability
issue. In any event, read carefully, the statement says no
more than did Armendariz, i.e., that evidence of procedural unfairness becomes more important to a finding of
unconscionability as the degree of substantive unfairness
decreases. Again, that is not the same as saying that “a
relatively low degree of substantive unconscionability
may suffice” where the degree of procedural unconscionability is “substantial.” (Maj. opn., ante, at p. 20.) Thus,
neither A & M nor Carmona constitutes reasoned or persuasive support for the majority’s view, and no published
California decision has actually applied either that or a
similar view to the facts of a case.
This is an important issue, because the majority’s new
rule will significantly impact the enforceability of virtually
all mandatory, predispute arbitration agreements in the
employment context. This court has observed that “the

47a
economic pressure” employers exert “on all but the most
sought-after employees” to sign such mandatory arbitration contracts “may be particularly acute,” because the
contract “stands between the employee and necessary
employment, and few employees are in a position to refuse
a job because of an arbitration requirement.” (Armendariz, supra, 24 Cal.4th at p. 115; see Baltazar v. Forever
21, Inc. (2016) 62 Cal.4th 1237, 1245 (Baltazar); Sanchez,
supra, 61 Cal.4th at p. 919; Sonic II, supra, 57 Cal.4th at
p. 1134; Sonic-Calabasas A, Inc. v. Moreno (2011) 51
Cal.4th 659, 685 (Sonic I); Little v. Auto Steigler, Inc.
(2003) 29 Cal.4th 1064, 1071 (Little).) Given this observation, in the typical case of an employee who cannot afford
to refuse or lose a job because of an arbitration requirement, even were the other procedural circumstances the
majority discusses supported by the record and recognized as significant by our case law—considerations I address below—those circumstances would not make the degree of procedural unconscionability here higher in any
analytically or legally relevant sense. Supporting this
view is the fact that the majority in Sonic I found a “significant element of procedural unconscionability” (Sonic
I, supra, 51 Cal.4th at p. 686) based solely on the ground
that “the agreement was one of adhesion and imposed as
a condition of employment” (id. at p. 685, fn. 10).
For this reason, the majority’s assurance that an identical arbitration provision “might pass muster under less
coercive circumstances” (maj. opn., ante, at p. 31) rings
hollow. Because of the economic pressures faced by prospective and existing employees, the majority’s finding of
unconscionability will surely be the rule in the vast majority of cases in the employment context, regardless of the
other circumstances the majority cites. In other words,
with few exceptions, as to employees presented with a

48a
“sign or you’re unemployed” choice, the ability to read, reflect, and understand the agreement does not make the
situation “less coercive” in any meaningful sense. (Maj.
opn., ante, at p. 29.) More broadly, because it would not be
difficult for a court to find a “relatively low degree of substantive” unfairness in an adhesion contract (maj. opn.,
ante, at p. 20), the majority’s new rule casts significant
doubt on the enforceability of many contractual terms in
the employment context, not just arbitration provisions.
C. Procedural Unconscionability

I now turn to my next point of disagreement with the
majority: its analysis of procedural unconscionability.
Several aspects of that analysis are inconsistent with both
established California law and the record in this case.
First, in finding “significant oppression” (maj. opn.,
ante, at p. 16), the majority emphasizes that Kho “had no
opportunity to read” the documents his employer—plaintiff One Toyota of Oakland (OTO)—asked him to sign
(maj. opn., ante, at p. 2), and that OTO, by having an employee from its human resources department “wait for the
documents, . . . conveyed an expectation that Kho sign
them immediately, without examination or consultation
with counsel” (maj. opn., ante, at p. 16). However, in
Sanchez, our procedural unconscionability discussion
gave no weight to sworn statements of the party resisting
arbitration that he “ ‘was presented with a stack of documents,’ ” “ ‘was simply told . . . where to sign and/or initial
each one,’ ” and “ ‘was not given an opportunity to read any
of [them].’ ” (Sanchez, supra, 61 Cal.4th at p. 909.) Instead, we explained that “even when a customer is assured
it is not necessary to read a standard form contract with
an arbitration clause, ‘it is generally unreasonable, in reliance on such assurances, to neglect to read a written contract before signing it.’ ” (Id. at p. 915.) Several of our

49a
Courts of Appeal have applied this principle in the context
of employment arbitration agreements. (Avery v. Integrated Healthcare Holdings, Inc. (2013) 218 Cal.App.4th
50, 65-66; 24-Hour Fitness, Inc. v. Superior Court (1998)
66 Cal.App.4th 1199, 1215.) Moreover, in Sonic I, supra,
29 Cal.4th at page 686, the majority’s discussion of procedural unconscionability noted that “many employees may
not give careful scrutiny to routine personnel documents
that employers ask them to sign.” These precedents are
inconsistent with the majority’s view that the degree of
procedural unconscionability here was higher because
Kho did not have an opportunity to read the documents
and OTO “conveyed an expectation that [he] sign them
immediately, without examination.”1 (Maj. opn., ante, at p.
16.)
Second, I disagree with the majority insofar as it emphasizes that “[n]either [the] contents nor significance” of
the arbitration agreement “was explained” to Kho, that
“there is no indication” in the record the employee who
presented the agreement “had the knowledge or authority to explain its terms,” and that OTO, by “select[ing] a
low-level employee . . . to present the [a]greement,
creat[ed] the impression that no request for an explanation was expected and any such request would be unavailing.” (Maj. opn., ante, at p. 16.) The majority’s reliance on
the absence of evidence regarding the employee’s ability

1
The majority’s emphasis on these facts is also inconsistent with
its own assertions that the arbitration agreement’s text is “ ‘visually
impenetrable’ ” and virtually illegible (maj. opn., ante, at p. 17), and
that its “substance” is so “opaque” (ibid.) that “[i]t would have been
nearly impossible” for Kho “to understand the contract’s meaning”
(maj. opn., ante, at p. 18). If these assertions are accurate, then why
does the majority find it significant that Kho had no opportunity to
read the agreement?

50a
and authority to explain the agreement’s terms is inconsistent with the fact that Kho bears “[t]he burden of proving unconscionability.” (Maj. opn., ante, at p. 14.) More
broadly, the majority’s consideration of these circumstances is inconsistent with Sanchez and with the FAA. In
Sanchez, regarding procedural unconscionability, we
stated that the party seeking to enforce an arbitration
agreement “was under no obligation to highlight the arbitration clause of its contract” and was not “required to
specifically call that clause to [the other party’s] attention.” (Sanchez, supra, 61 Cal.4th at p. 914.) We also
stated that “[a]ny state law imposing such an obligation
would be preempted by the FAA.” (Ibid.)
Third, I disagree that the “degree of procedural unconscionability” here was “unusually” or “ ‘extraordinarily
high’ ” (maj. opn., ante, at pp. 2, 14) because “Kho was required to sign the agreement to keep the job he had held
for three years” and OTO’s conduct “conveyed the impression that negotiation efforts would be futile” (maj.
opn., ante, at pp. 17, 18). These circumstances are what
make the contract adhesive in the first place; as the majority earlier explains, “[a]n adhesive contract is standardized, generally on a preprinted form, and offered by
the party with superior bargaining power ‘on a take-it-orleave-it basis.’ ” (Maj. opn., ante, at p. 14.) They are also
characteristics of all “mandatory employment arbitration
agreements,” which this court has defined as “arbitration
agreements that are conditions of new or continuing employment.” (Sonic II, supra, 57 Cal.4th at p. 1130.) Thus,
these circumstances neither distinguish this case in any
way nor support a finding that there was a degree of procedural unconscionability beyond that found with any adhesive, mandatory employment arbitration agreement.

51a
Regarding surprise, the majority begins its analysis
by assailing the arbitration agreement as being “a paragon of prolixity.” (Maj. opn., ante, at p. 17.) However,
“prolixity” simply means the state or quality of being
lengthy, protracted and drawn out, perhaps unduly or unnecessarily so. (12 Oxford English Dict. (2d ed. 1989) p.
608; Webster’s 3d New Internat. Dict. (2002) p. 1814; see
Black’s Law Dict. (10th ed. 2014) p. 1406, col. 1 [“prolixity”
is “[t]he unnecessary and superfluous recitation of facts
and legal arguments in pleading or evidence”].) It is
doubtful that the arbitration agreement in this case, consisting of a “single” paragraph with “51 lines,” meets this
definition, let alone constitutes a “paragon”—i.e., a perfect example—of this concept. (Maj. opn., ante, at p. 17.)
In any event, contrary to what the majority suggests,
our cases establish that prolixity itself is not problematic;
for purposes of a procedural unconscionability analysis,
surprise “ ‘ “occurs . . . where the allegedly unconscionable
provision is hidden within a prolix printed form.” ’ ” (Pinnacle, supra, 55 Cal.4th at p. 247, italics added.) There is
nothing hidden about the arbitration agreement in this
case. It is not buried in a multipage document that addresses numerous other matters, but appears in a relatively short document that almost exclusively addresses
arbitration. In a heading at the top of the agreement’s
first page, set apart from the body of the agreement, the
word “ARBITRATION” appears in large, bolded, all caps
type. In a stand-alone provision at the top of the second
page, the agreement states, in large, all caps, italicized
type, that Kho is “AGREEING TO THIS BINDING ARBITRATION PROVISION.” When Kho signed the arbitration agreement, he also signed a separate two-page
agreement containing a stand-alone, bolded-type paragraph explaining that the parties understood and were
voluntarily agreeing to resolve “any disputes” regarding

52a
Kho’s employment “exclusively in accordance with binding arbitration,” and setting forth some of the features of
the arbitration procedure, i.e., “a retired California Superior Court Judge” will conduct the arbitration and “[t]he
arbitration proceedings shall be governed by the Federal
Arbitration Act, and carried out in conformity with the
procedures of the California Arbitration Act.” The separate agreement also expressly stated that Kho had executed or would “execute a more comprehensive arbitration agreement with the Company.” In finding surprise,
the majority simply ignores these considerations, as well
as precedent finding no surprise under analogous circumstances. (Pinnacle, supra, 55 Cal.4th at p. 247, fn. 12 [in
finding no surprise, citing fact that arbitration provisions
“appear in a separate article under a bold, capitalized, and
underlined caption titled ‘ARTICLE XVIII CONSTRUCTION DISPUTES’ ”]; Bigler v. Harker School
(2013) 213 Cal.App.4th 727, 737 [no surprise where arbitration clause “located at the top of the second page in a
two-page document with the heading ‘Arbitration’ in boldfaced font”]; Crippen v. Central Valley RV Outlet (2004)
124 Cal.App.4th 1159, 1165 [emphasizing that arbitration
provision “was printed on a separate page” with “ ‘Arbitration Addendum’ at the top,” and “was signed separately”].)
For the preceding reasons, I conclude that the arbitration provision here is not unusual and that its substance
does not contribute to a finding that the “degree of procedural unconscionability” in this case was, as the majority
asserts, “unusually” and “ ‘extraordinarily high.’ ” (Maj.
opn., ante, at pp. 2, 14.) Supporting this conclusion is the
fact that in cases involving a virtually identical arbitration
provision, we did not find an element of surprise that increased the degree of procedural unconscionability.

53a
(Sonic II, supra, 57 Cal.4th at pp. 1125-1126; Sonic I, supra, 51 Cal.4th at pp. 669-670; Little, supra, 29 Cal.4th at
pp. 1069-1070.)
The majority concludes its discussion of procedural
unconscionability with a line of analysis that California
courts have long and uniformly rejected. The majority
suggests that the arbitration agreement here is unenforceable because: (1) arbitration “ ‘ “is a matter of consent, not coercion” ’ ”; and (2) we cannot “infer[]” that
Kho’s “consent” to arbitrate was “voluntary,” given that
his execution of the arbitration agreement was “induced . . . through ‘sharp practices’ and surprise” and he
almost certainly did not know “he was giving up his Berman rights.” (Maj. opn., ante, at p. 19.) However, almost
40 years ago, we held that contracts of adhesion are “fully
enforceable according to [their] terms” absent certain circumstances (Graham, supra, 28 Cal.3d at p. 819), even
though they do not fit “the classical model of ‘free’ contracting by parties of equal or near-equal bargaining
strength,” given that the weaker party’s only choices are
“ ‘to adhere to the contract or reject it’ ” (id. at p. 817).
About 20 years later, we held that mandatory employment arbitration contracts are enforceable unless they
contain “one-sided, substantively unconscionable terms,”
even though “voluntariness” is the “bedrock justification”
for arbitration and almost all employees presented with
such contracts are under “acute” “economic pressure” to
sign and effectively have no “choice” but to do so. (Armendariz, supra, 24 Cal.4th at p. 115.) In subsequent years,
we have repeatedly affirmed that mandatory employment
arbitration agreements are enforceable unless substantively unconscionable. (Baltazar, supra, 62 Cal.4th 1237,
1241; Sonic II, supra, 57 Cal.4th at p. 1125; Sonic I, supra,

54a
51 Cal.4th at p. 677; Pearson Dental Supplies, Inc. v. Superior Court (2010) 48 Cal.4th 665, 677; Little, supra, 29
Cal.4th at pp. 1068-1069.)
Consistent with our decisions, California’s Courts of
Appeal have expressly rejected the majority’s lack-of-consent line of analysis. For example, in A & M Produce, supra, 135 Cal.App.3d at pp. 486-487, the court explained:
“[T]he mere fact that a contract term is not read or understood by the nondrafting party or that the drafting party
occupies a superior bargaining position will not authorize
a court to refuse to enforce the contract. Although an argument can be made that contract terms not actively negotiated between the parties fall outside the ‘circle of assent’ which constitutes the actual agreement [citation],
commercial practicalities dictate that unbargained-for
terms only be denied enforcement where they are also
substantively unreasonable.” (Fn. omitted; see also
Franco v. Arakelian Enterprises, Inc. (2015) 234
Cal.App.4th 947, 956 [“waivers that are obtained as a condition of employment . . . are not categorically invalid or
unenforceable”]; Gutierrez v. Autowest, Inc. (2003) 114
Cal.App.4th 77, 88 [“unbargained-for term” in contract of
adhesion, even if “not read or understood by the nondrafting party,” is enforceable unless “substantively unreasonable”]; Lagatree v. Luce, Forward, Hamilton & Scripps
(1999) 74 Cal.App.4th 1105, 1129 [“compulsory nature of a
predispute arbitration agreement does not render the
agreement unenforceable on grounds of coercion or for
lack of voluntariness”]; San Francisco Newspaper Printing Co. v. Superior Court (1985) 170 Cal.App. 3d 438, 443
[“failing to read the contract is no excuse, otherwise all
contracts of adhesion would be unenforceable at the whim
of the adhering party”].) Insofar as the majority’s analysis

55a
is contrary to this unbroken line of California authority, I
disagree with it.2
Nevertheless, I ultimately agree there was sufficient
procedural unconscionability here—given the adhesive
nature of the contract and the circumstances under which
OTO presented it to Kho for signature—to warrant scrutiny of the agreement’s substantive unconscionability. To
that issue, I now turn.
D. Substantive Unconscionability

The majority’s analysis of substantive unconscionability is difficult to follow, largely due to its shifting approach
to that issue. Initially, the majority seems to suggest that
substantive unconscionability is irrelevant because there
was “an unusually high degree of procedural unconscionability” here, and “an employee may not be coerced or
misled into . . . trad[ing]” the Berman process for “a litigation-like arbitration procedure,” “[e]ven if” that procedure “may be an acceptable substitute for the Berman
process in other circumstances.” (Maj. opn., ante, at p. 2.)
To the extent the majority’s FAA preemption analysis raises a
similar “concern[]” about “consent” (maj. opn., ante, at p. 33), it is erroneous for the same reason. (See Lamps Plus, Inc. v. Varela (2019)
____ U.S. ____ , ____ [139 S.Ct. 1407, 1420] (dis. opn. of Ginsburg,
J.) [“Arbitration clauses, the Court has decreed, may preclude judicial remedies even when submission to arbitration is made a take-itor-leave-it condition of employment”]; Carnival Cruise Lines, Inc. v.
Shute (1991) 499 U.S. 585, 600 (dis. opn. of Stevens, J.) [“contracts of
adhesion . . . offered on a take-or-leave basis” are enforceable if reasonable, notwithstanding argument that they cannot “justifiably be
enforced . . . under traditional contract theory because the adhering
party generally enters into them without manifesting knowing and
voluntary consent to all their terms”].) The majority’s discussion of
lack of consent, though off the mark as to Kho’s unconscionability
claim and FAA preemption, would be apropos had Kho asserted and
pursued a separate contract defense: fraud in the execution of the
contract.
2

56a
Later, however, the majority expressly acknowledges
that “[b]oth procedural and substantive unconscionability
must be shown for the [unconscionability] defense to be
established” (maj. opn., ante, at p. 13) and asserts that at
least “a relatively low degree of substantive unconscionability” is required to void the agreement, notwithstanding
“the substantial procedural unconscionability here” (maj.
opn., ante, at p. 21). At one point, the majority indicates
that “ ‘the [substantive] unconscionability inquiry focuses
on whether the arbitral scheme imposes costs and risks
on a wage claimant that make the resolution of the wage
dispute inaccessible and unaffordable,’ thus effectively
blocking every forum for redress including arbitration itself.” (Maj. opn., ante, at p. 12.) At another point, the majority indicates that the question is whether the arbitral
scheme “offer[s] employees an effective means to pursue
claims for unpaid wages, and [does] not impose unfair
costs or risks on them or erect other barriers to the vindication of their statutory rights.” (Maj. opn., ante, at p. 27.)
At still another point, the majority states that the question is whether “the bargain” between the parties “was
sufficiently one-sided as to render the agreement unenforceable” (maj. opn., ante, at p. 32), i.e., “so unfairly onesided that it should not be enforced” (maj. opn., ante, at p.
11). Finally, shifting gears one last time, the majority declares in the final paragraph of its analysis that the substantively unconscionable “question” here “[u]ltimately”
is whether the bargain was simply “unfair.” (Maj. opn.,
ante, at p. 32.)
This court’s most relevant decision on the issue—
Sonic II—is quite specific as to the applicable standard.
Under the majority opinion in that case, an agreement requiring arbitration of claims otherwise subject to the Berman procedure is not substantively unconscionable “so
long as the arbitral scheme, however designed, provides

57a
employees with an accessible, affordable process for resolving wage disputes that does not ‘effectively block[]
every forum for the redress of [wage] disputes, including
arbitration itself.’ ” (Sonic II, supra, 57 Cal.4th at pp.
1157-1158.) The majority here expressly acknowledges
that the majority opinion in Sonic II “focused repeatedly
on the need for accessible and affordable arbitration”
(maj. opn., ante, at p. 11), and that under Sonic II, “[a]n
agreement to arbitrate wage disputes can be enforceable
so long as it provides an accessible and affordable process
for resolving those disputes” (maj. opn., ante, at pp. 1-2).
Indeed, the majority even sets forth the Sonic II test at
several points. (Maj. opn., ante, at pp. 12, 29). Surprisingly, however, it never applies that test; it nowhere states
that arbitration under the agreement here is inaccessible
or unaffordable to the point that it “ ‘effectively block[s]
every forum for the redress of [wage] disputes, including
arbitration itself.’ ” (Sonic II, at p. 1158.)
Indeed, in several ways, the majority’s analysis supports the conclusion that the arbitration agreement here
does not meet the Sonic II test for substantive unconscionability. To begin with, the majority concedes that
that the arbitration process here—which permits “discovery” (maj. opn., ante, at p. 3) and calls for “the same pleading, evidence, and motion practice rules that govern civil
litigation” (maj. opn., ante, at p. 24, fn. 14)—is no more
complicated than ordinary civil litigation . . . .” (Maj. opn.,
ante, at p. 31.) Thus, arbitration under the agreement cannot be any more unaffordable or inaccessible for Kho than
“ordinary civil litigation” (ibid.), a system that, according
to the majority, has been “carefully crafted to ensure fairness to both sides” and is not “per se unfair” (maj. opn.,
ante, at p. 26). The majority also concedes that under the
arbitration agreement, Kho would be entitled to “reasonable attorney fees and costs” were he to be “the prevailing

58a
party in ‘any action brought for the nonpayment of
wages.’ ” (Maj. opn., ante, at p. 30.) This aspect of the
agreement, the majority observes, “may mitigate some financial burden” of the arbitration. (Ibid.)
The majority also recognizes that in Little, we held in
the arbitration context that use of “litigation-like procedures” does “not necessarily . . . make” a mandatory employment arbitration agreement “unconscionable.” (Maj.
opn., ante, at p. 26, italics added.) Notably, in reaching this
conclusion, we rejected the claim that “such procedures
detract from the inherent informality of arbitration” and
necessarily “inordinately benefit [employers] rather than
[employees].” (Little, supra, 29 Cal.4th at p. 1075, fn. 1.)
Consistent with Little’s analysis, the majority concedes
that, for certain claims, “it may well be that an arbitration
process closely resembling civil litigation can be as advantageous for the employee as for the employer.” (Maj. opn.,
ante, at pp. 26-27.)
Inexplicably discarding Sonic II’s test for substantive
unconscionability, the majority bases it conclusion on the
alternative substantive unconscionability tests it sets
forth. According to the majority, because “Kho surrendered the full panoply of Berman procedures and assistance,” and “received” nothing “in return” but “access to
a formal and highly structured arbitration process,” his
“bargain” with OTO was both “unfair” and “sufficiently
one-sided as to render the [arbitration] agreement unenforceable.” (Maj. opn., ante, at p. 32.)
I disagree with the majority’s analysis and conclusion
in several respects. Initially, as already explained, our
precedents establish that for an agreement to be substantively unconscionable, it is not enough that it is merely
“unfair” or “one-sided.” (Maj. opn., ante, at p. 32.) Rather,
it must cause “a substantial degree of unfairness beyond
‘a simple old-fashioned bad bargain.’ ” (Sonic II, supra,

59a
57 Cal.4th at p. 1160, italics added.) It “must be ‘so onesided as to “shock the conscience” ’ ” (Pinnacle, supra, 55
Cal.4th at p. 246), or, as alternatively formulated, “ ‘overly
harsh,’ ‘unduly oppressive,’ [or] ‘unreasonably favorable.’ ” (Sanchez, supra, 61 Cal.4th at p. 911.)
Next, to the extent an evaluation of the benefits Kho
relinquished and received is necessary, the majority’s
analysis is improperly narrow. As the majority acknowledges, “ ‘the unconscionability inquiry requires a court to
examine the totality of the agreement’s substantive
terms’ ” and to determine the fairness of the parties’
“ ‘overall bargain.’ ” (Maj. opn., ante, at p. 11.) Consistent
with this observation, under basic contract law, “new and
different consideration” is not required for “every individual promise in a contract.” (Martin v. World Savings &
Loan Assn. (2001) 92 Cal.App.4th 803, 809.) Instead, “one
promise in a contract ‘may be consideration for several
counter promises.’ ” (Ibid; see Foley v. Interactive Data
Corp. (1988) 47 Cal.3d 654, 679 [“ ‘ “[a] single and undivided consideration may be bargained for and given as the
agreed equivalent of one promise or of two promises or of
many promises” ’ ”].)
Viewed from this perspective, Kho received several
substantial benefits “in return” for agreeing to arbitration. (Maj. opn., ante, at p. 29.) First and foremost, he received the benefit of continued employment. Kho was an
at-will employee and, according to the majority, “was required to sign the agreement to keep [his] job.” (Maj. opn.,
ante, at p. 16.) Under our precedents, Kho’s “ ‘continuing
employment’ ” under such circumstances constitutes
“ ‘consideration’ ” from OTO that “ ‘support[s]’ ” the arbitration agreement. (Asmus v. Pacific Bell (2000) 23
Cal.4th 1, 14; see DiGiacinto v. Ameriko-Omserv Corp.
(1997) 59 Cal.App.4th 629, 638 [“ ‘neither party to an at-

60a
will relationship has any obligation to perform in the future, and so doing so can provide valuable consideration
for a modification of the contract’ ”].) Second, the agreement here, considered in its entirety, is not merely a Berman waiver, but is a broad, bilateral arbitration provision
that applies, with only a few exceptions, to “all disputes”
between the parties “arising from, related to, or having
any relationship or connection whatsoever with [Kho’s]
seeking employment with, employment by, or other association with” OTO. It thus confers on Kho the benefits of
arbitration as to claims not subject to the Berman procedure, unless it may be said there are no such benefits in
any covered context. The majority improperly ignores
these benefits and incorrectly evaluates the arbitration
agreement as if it were only “a waiver of Berman procedures.” (Maj. opn., ante, at p. 11.)
Moreover, under basic contract law, the receipt of a
benefit is not the exclusive measure of consideration; “a
detriment to” one party is sufficient consideration for a
contract even if the other contracting party receives no
“benefit for his promise.” (Westphal v. Nevills (1891) 92
Cal. 545, 548.) As here relevant, “ ‘[a]ny suspension or forbearance of a legal right constitutes a sufficient consideration.’ ” (Adolph Ramish, Inc. v. Woodruff (1934) 2 Cal.2d
190, 207.) In this case, OTO’s “promise[] . . . to arbitrate
[its] disputes” with Kho and “to forego” its right to “judicial determination” of those disputes—including the right
to a jury trial—“provide[d] consideration” for the agreement, as did Kho’s similar promise. (Strotz v. Dean Witter
Reynolds, Inc. (1990) 223 Cal.App.3d 208, 216; see Peleg
v. Neiman Marcus Group, Inc. (2012) 204 Cal.App.4th
1425, 1449 [“ ‘mutual promises to submit all employment
disputes to arbitration constituted sufficient consideration, because both parties were bound to the promises to
arbitrate’ ”].)

61a
In any event, even insofar as the agreement constitutes a Berman waiver, I disagree that Kho received nothing “in return” but “access to a formal and highly structured arbitration process.” (Maj. opn., ante, at p. 29.) The
Berman procedure is potentially a three-step process.
First is the administrative hearing, assuming the Labor
Commissioner, as a matter of discretion, accepts the matter and decides to hold a hearing. (Maj. opn., ante, at p. 7.)
Step two is a trial de novo in superior court (maj. opn.,
ante, at p. 8), which either party may request without having even participated in the administrative procedure.
(Jones v. Basich (1986) 176 Cal.App.3d 513.) This de novo
proceeding is “ ‘ “a trial anew in the fullest sense” ’ ” (Post
v. Palo/Haklar & Associates (2000) 23 Cal.4th 942, 948),
in which the superior court proceeds “ ‘as a court of original jurisdiction, with full power to hear and determine
[the matter] as if it had never been before the labor commissioner’ ” (Murphy v. Kenneth Cole Productions, Inc.
(2007) 40 Cal.4th 1094, 1119). Thus, as the majority notes,
in the de novo proceeding, “litigation formalities may apply.” (Maj. opn., ante, at p. 26.) Moreover, the administrative decision “is ‘entitled to no weight whatsoever.’ ” (Post,
at p. 948) and the employer “is not bound by the defenses
it raised” at the Berman hearing; it may “abandon,
change, or add defenses not brought before the Labor
Commissioner” (Murphy, at p. 1119) and may present
“entirely new evidence” (Post, at p. 948). Step three of the
Berman procedure is “a conventional appeal to an appropriate appellate court” after the trial court’s decision upon
the de novo hearing. (Ibid.)
In signing the arbitration agreement, as to claims covered by the Berman statutes, Kho gained access to a procedure with no preliminary, nonbinding administrative
process; no potential for formal civil litigation in court;
only limited judicial review; and some, but not all, of the

62a
“litigation formalities” that, as the majority concedes,
may apply in a de novo proceeding under the Berman statutes. (Maj. opn., ante, at p. 26.) And he gained OTO’s legal
commitment and obligation to pay any and all costs
“unique” to this procedure. (Armendariz, supra, 24
Cal.4th at p. 113.) Thus, “in return” for waiving the Berman procedure, Kho received considerably more than just
“access to a formal and highly structured arbitration process.” (Maj. opn., ante, at p. 29.) The majority may think
he made a “ ‘bad bargain’ ” (Sonic II, supra, 57 Cal.4th at
p. 1160), that he “could have done better” (id. at p. 1148),
or that the agreement “ ‘gives [OTO] a greater benefit’ ”
(id. at p. 1160), but our precedents preclude us from declaring an agreement to be unconscionable and unenforceable on any of those grounds.
In an attempt to diminish the value of what Kho received and inflate the value of what he gave up, the majority asserts that the Berman procedures “discourage[]” de
novo proceedings by requiring appealing employers to
post undertakings and requiring unsuccessful appellants
to pay the other side’s costs and reasonable attorney fees.
(Maj. opn., ante, at p. 26.) But the former requirement
would seem to provide little disincentive, given that the
employer’s only alternative to filing an appeal and posting
an undertaking is actually paying the award. And the latter provision also discourages employees from appealing,
because it requires them to pay costs and attorney fees if
they appeal and are “unsuccessful,” meaning they do not
obtain an “award[] . . . greater than zero.” (Lab. Code,
§ 98.2, subd. (c).) Of course, the record here provides further reason to doubt the deterrent value of these provisions; after the administrative decision, OTO, which declined even to participate in the Berman hearing, filed for
a de novo trial, completely undeterred by the statutes. In
any event, having provisions that assertedly provide some

63a
undetermined and factually unproven disincentive to
seeking a trial de novo is not at all the same as having access to an arbitration procedure that enables Kho to eliminate even the possibility that recovery of unpaid wages
will require a formal civil trial in court—with attendant
“litigation formalities” (maj. opn., ante, at p. 27)—after a
preliminary and nonbinding administrative procedure or
as a matter of first resort in lieu of that procedure. As the
majority explains, “[i]t is the opportunity to expedite and
simplify the process that can motivate informed parties to
agree to arbitration.”3 (Maj. opn., ante, at p. 26.)
The majority’s view that Kho received little or nothing
“in return” (maj. opn., ante, at p. 32) for the Berman
waiver rests on numerous other exaggerations, unproven
In rejecting my analysis, the majority relies on the statement of
counsel for the Labor Commissioner at oral argument that his “understand[ing]” is that there are “probably” fewer than 500 de novo
proceedings per year. (See maj. opn., ante, at p. 27, fn. 17.) Reliance
on this statement of counsel’s “understand[ing],” which obviously
lacks foundation and is hearsay, is improper under our “ ‘settled’ ”
rule that “ ‘on a direct appeal from a judgment [we] will not consider
matters outside the record.’ ” (People v. Gardner (1969) 71 Cal.2d 843,
854.) The majority in both Sonic I and Sonic II followed this settled
rule and expressly declined to rely on factual representations about
the arbitration process counsel made “[a]t oral argument” in an effort
to support the arbitration agreement’s validity. (Sonic II, supra, 57
Cal.4th at p. 1147; Sonic I, supra, 51 Cal.4th at p. 681, fn. 4.) It is
noteworthy that the majority here ignores the rule in order to establish the arbitration agreement’s invalidity, an issue on which Kho
bears the burden of proof. The majority’s inadequate response—that
OTO did not “challenge[]” counsel’s statement (maj. opn., ante, at p.
28, fn. 18)—fails to recognize that counsel made the statement during
rebuttal argument, after OTO’s argument, so OTO had no opportunity to respond. In any event, the majority’s response misses an essential point: By agreeing to arbitration, Kho eliminated any possibility that recovery of unpaid wages would require a formal civil trial in
court, either after a nonbinding administrative procedure or in lieu of
such a procedure.
3

64a
or erroneous assumptions, miscalculations, and/or mischaracterizations regarding the value of the Berman procedures. First, as the majority acknowledges, when an
employee files an administrative claim, “[t]here is no
[statutory] requirement that a Berman hearing be held”
(maj. opn., ante, at p. 32) and the Labor Commissioner has
“discretion to . . . take ‘no further action . . . on the complaint’ ” (ibid., quoting Lab. Code, § 98, subd. (a)). Thus,
when Kho signed the arbitration agreement—which is the
relevant time for assessing unconscionability (Civ. Code,
§ 1670.5, subd. (a))—it was entirely speculative whether
any of the Berman procedure’s asserted benefits would
be available to him, and the only thing he actually relinquished was the opportunity to ask the Labor Commissioner to exercise discretion to conduct legally nonbinding
administrative proceedings on a claim.
Second, the majority’s view that the Berman administrative procedure is more advantageous for employees because it has “no discovery process” (maj. opn., ante, at p.
7) is inconsistent with our case law. In Armendariz, supra, 24 Cal.4th 83, which involved a mandatory employment arbitration agreement, the majority held that “the
provision of adequate discovery” is one of the “minimum
requirements” of a valid and enforceable arbitration provision (id. at p. 91, italics added) and explained that “from
[an] employee’s point of view,” more “limited discovery”
is typically one of the “potential disadvantages” of arbitration (id. at p. 115, italics added). In Gentry, supra, 42
Cal.4th at page 457, the majority extended the discovery
requirement to an unpaid wage claim. Kho’s actions confirm this court’s previous statements regarding the importance of discovery to employees with wage claims; during the administrative Berman proceedings, he “requested that a subpoena be issued for various work related documents.”

65a
Third, the Berman procedure is not, as the majority
asserts, necessarily “ ‘speedy’ ” or “expedient.” (Maj. opn.,
ante, at pp. 24, 25.) As explained above, a Berman procedure is potentially a three-step, combined administrative
and judicial process, which may include a civil trial in
court with “litigation formalities.” (Maj. opn., ante, at p.
16.) This three-step process has the potential to substantially delay any recovery. Indeed, the first administrative
step by itself can take years. (Sonic I, supra, 51 Cal.4th at
p. 681, fn. 5.) [noting several “documented” cases in which
it took “slightly under one year” to commence the Berman
hearing, and one in which it took “slightly under four
years”].) In this case, for example, the Berman hearing
was not held for about 10 months after Kho filed his claim,
and the Labor Commissioner’s award was made some 16
months after Kho’s termination. Two weeks later, OTO
requested a trial de novo. (Maj. opn., ante, at pp. 5, 33.)
Thus, nothing at the time that Kho signed the contract—
and nothing that actually happened in the Berman proceedings that followed Kho’s termination—supports the
majority’s view that, by signing the arbitration agreement, Kho gave up a “ ‘speedy’ ” or “expedient” administrative procedure. (Maj. opn., ante, at pp. 24, 25.) Nor is
there any basis in the record for the majority’s implicit
conclusion that arbitration under the agreement here—
which involves no preliminary, nonbinding administrative
process and only limited appellate review—would take
longer than the Berman procedure. The majority’s reliance on factually unsupported and unproven assumptions about the Berman procedure’s speed is contrary to
the fact that Kho bears “[t]he burden of proving unconscionability.”4 (Maj. opn., ante, at p. 14.)
The majority concedes that resolution of this case through the
Berman administrative process “has not been speedy,” but asserts
4

66a
Indeed, in light of the facts of this case and the Sonic
II majority’s discussion of this issue, the majority’s steadfast reliance here on the asserted speediness of the Berman procedure is as ironic as it is legally erroneous. In
Sonic II, I argued that the potentially three-step Berman
procedure is not necessarily “speedier or more streamlined than arbitration.” (Sonic II, supra, 57 Cal.4th at p.
1181 (conc. & dis. opn. of Chin, J.).) The majority rejected
my argument, asserting it rested on “bare assertions”
that had “no evidentiary support.” (Sonic II, at p. 1167.)
At the same time, the majority left the question open, “direct[ing] the trial court on remand to consider” this issue—and the claim of unconscionability—“in light of any
relevant evidence.” (Sonic II, supra, 54 Cal.4th at p.
1162.) Contrary to that admonition, the majority here dismisses the “relevant evidence” in the record showing that
the Berman procedure is not speedy. (Ibid.) Instead of
considering that evidence, the majority does precisely
what the Sonic II majority incorrectly accused me of doing in that case: relying on “bare assertions” that have “no
evidentiary support.”5 (Sonic II, at p. 1167.)
that “the delay is largely attributable to” OTO. (Maj. opn., ante, at p.
25, fn. 14.) The majority offers no factual basis for this assertion, and
nothing in the record supports it. For example, nothing indicates why
it took several months just for Kho to receive a response from the
Labor Commissioner to his request for a Berman hearing, or why the
hearing was finally set for “some 9 months” after he made his request.
(Maj. opn., ante, at p. 4.) In any event, whether OTO or a representative of the Labor Commissioner was responsible for the delay is irrelevant to my point that the Berman process is not necessarily speedy.
The Sonic II majority was incorrect about my analysis because I
expressly referenced the fact that the employer in that case had “documented” three cases in which it took “a year or more” just to commence the Berman hearing. (Sonic II, supra, 57 Cal.4th at p. 1181
(conc. & dis. opn. of Chin, J.); see Sonic I, 51 Cal.4th, supra, at p. 681,
fn. 5 [petition to compel arbitration “documented” two cases in which
5

67a
Fourth, the Berman procedure is not as “ ‘informal’ ”
as the majority suggests. (Maj. opn., ante, at p. 7.) The
Labor Commissioner’s published policies and procedures
stress that Berman hearings “are formal procedures” at
which each party has the right to be represented by counsel, to present evidence, to testify under oath, to have
other witnesses testify under oath, to cross-examine the
opposing party and witnesses, and to subpoena witnesses,
documents and records. (Dept. of Industrial Relations,
Div. of Labor Stds. Enforcement (DLSE), Policies and
Procedures for Wage Claim Processing (2012 rev.) pp. 24 (DLSE Policies).) Moreover, the judicial trial de novo
procedure to which either side is entitled after a Berman
hearing is ordinary civil litigation, including both trial in
the superior court and appeal. At both judicial levels, as
the majority acknowledges, “litigation formalities may apply.” (Maj. opn., ante, at p. 26.) Thus, all of the features of
the arbitration agreement that are problematic for the
majority—a superior court judge, discovery, and rules of
pleading, evidence and motion practice—are actually
built into the Berman procedure, and then some.
The majority emphasizes that the deputy labor commissioner who conducts the Berman hearing “can explain
terminology and assist with witness examination.” (Maj.
opn., ante, at p. 22.) But nothing requires the hearing officer to provide such help; the decision whether to do so is
left to the hearing officer’s “sole authority and discretion.”
it took “slightly under one year” to commence the Berman hearing,
and one in which it took “slightly under four years”].) The Sonic II
majority simply chose to ignore this reference and the documented
evidence in the record. The majority here adopts the same head-inthe-sand approach, simply dismissing evidence that the Berman procedure is not, in reality, speedy, and relying instead on assertions
about what the Berman procedure was, in theory “ ‘designed to provide.’ ” (Maj. opn., ante, at p. 7.)

68a
(DLSE Policies, supra, at p. 3.) In any event, nothing in
the arbitration agreement precludes the arbitrator from
providing similar assistance, and the majority never asserts otherwise. (See Sonic II, supra, 57 Cal.4th at p. 1164
[“arbitrators have discretion to decide on features of arbitration that are not specified in the agreement”]; Sanchez
v. Western Pizza Enterprises, Inc. (2009) 172 Cal.App.4th
154, 177 [“An arbitrator ordinarily has broad discretion
with respect to the procedures and law governing the arbitration”].)
Fifth, the majority’s discussion of the relative ease of
initiating arbitration and the Berman procedure is faulty
in several respects. The arbitration agreement is problematic for the majority because it “does not explain how
to initiate arbitration.” (Maj. opn., ante, at p. 21.) However, the second agreement Kho signed when he executed
the arbitration agreement informed him that he should
“notify the Dealership’s General Manager in writing” if he
“dispute[d] the amount of wages paid to” him. This agreement informed Kho that all he had to do to initiate arbitration was to submit to OTO a written claim for unpaid
wages. Moreover, the arbitration agreement itself expressly referenced and incorporated—by both name and
specific statutory citation—the California Arbitration Act
(Code Civ. Proc., § 1280 et seq.), which sets forth the petition procedure for initiating arbitration if “a party to the
[arbitration] agreement refuses to arbitrate” a controversy. (Code Civ. Proc., § 1281.2.) Notably, although we
dealt with similar arbitration agreements in Sonic I,
Sonic II, and Little, in none of those decisions did we even
mention their failure to explain how to initiate arbitration.
On the other side of its “initiation” equation, the majority, in relying on two wage orders of the Industrial Welfare Commission (IWC) (maj. opn., ante, at p. 22), is truly
grasping at straws. To begin with, the majority does not

69a
suggest, and nothing in the record indicates, that these
wage orders were ever handed to Koh, in his possession,
or called to his attention in any way. Indeed, Kho could
not have seen one of the wage orders, because it postdated his employment with OTO by almost five years.
(IWC Wage Order No. MW-2019.) The other order states,
contrary to the majority’s assertion, that posting is unnecessary “[w]here the location of work or other conditions
make [posting] impractical,” in which case the employer
need only “keep a copy of th[e] order and make it available
to every employee upon request.” (IWC Wage Order No.
4-2001, § 22.) Again, the majority does not suggest, and
nothing in the record indicates, that the wage order was
actually posted at Kho’s worksite.
Even had the wage order that actually existed when
Kho worked at OTO been posted, nothing suggests Kho
ever saw it, let alone read it. And even had he read it, he
surely would not have understood it if, as the majority asserts, “[i]t would have been nearly impossible” for him “to
understand” the arbitration agreement’s meaning given
his lack of “legal training and access to” the statutes it references. (Maj. opn., ante, at p. 19.) To the extent, if any,
the text of the single paragraph arbitration agreement is,
as the majority asserts, “ ‘visually impenetrable’ ” (maj.
opn., ante, at p. 17), the text of the wage order—comprising 10 pages of densely packed, single-spaced type with 22
sections, multiple subsections, and multiple subparts to
the multiple subsections—is far more visually impenetrable. And to the extent, if any, the arbitration agreement’s
“substance” is, as the majority asserts “opaque” (maj.
opn., ante, at p. 17), again, the wage order’s substance is
far more opaque. The wage order contains more “statutory references and legal jargon” than the arbitration
agreement, and its “legal jargon” is much more complicated than the arbitration agreement’s. (Maj. opn., ante,

70a
at p. 17.) To borrow the words of the majority, “a layperson trying to navigate” the wage order “text would not
have an easy journey.” (Maj. opn., ante, at p. 18.) Indeed,
assuming the wage order applied to Kho—something the
majority does not actually assert—it would have been
hard for him to have understood this fact even had he read
it; in complexly structured, multipart sections containing
highly technical “legal jargon” and many “statutory references” (maj. opn., ante, at p. 18), the first three pages of
the wage order set forth 21 definitions and numerous coverage exemptions (Wage Order No. 4-2001, §§ 1, 2).
As for informing Kho about the Berman procedure,
the wage order contains not a single mention of that procedure as a means for resolving wage disputes, either by
name or by statutory reference. Nor, contrary to the majority’s suggestion, does the sentence on which the majority relies even expressly refer to “wage-related violations.” (Maj. opn., ante, at p. 22.) It refers instead only
generally to “QUESTIONS ABOUT ENFORCEMENT
of the Industrial Welfare Commission orders and reports
of violations.” (Wage Order No. 4-2001, p. 9.) For Kho to
have known that this sentence related to “wage-related
violations” (maj. opn., ante, at p. 22), he would have
needed to understand that the acts he wanted to challenge
were addressed by the wage order and constituted violations of its complicated, legally technical provisions. Finally, the sentence in question appears at the end of the
10-page wage order, after the last of its 22 sections. (Wage
Order No. 4-2001, p. 9.) Thus, Kho would not have even
come across it unless he first made his way all the way
through the rest of the long, complex, legally technical
wage order. In other words, this sentence, unlike the arbitration provision, truly is “ ‘ “hidden within a prolix
printed form.” ’ ” (Pinnacle, supra, 55 Cal.4th at p. 247,
italics added.)

71a
The other wage order—which, again, did not exist during Kho’s employment with OTO—is, in addition, similarly problematic. Though shorter, it comprises five sections of densely-packed, single-spaced, small font type;
written in very technical legal jargon; containing both
statutory references and references to other wage orders;
setting forth exceptions to its application; and including
complicated charts. (Wage Order No. MW-2019.) It
makes no mention of the Berman procedure, either by
name or by statutory reference, and contains no express
reference to “wage-related violations.” (Maj. opn., ante, at
p. 22.) Instead, at the bottom, in tiny type, its states that
“Questions about enforcement should be directed to the
Labor Commissioner’s Office.” (Wage Order No. MW2019.)
In short, the wage orders that, according to the majority, demonstrate the Berman procedure’s superiority in
terms of initiating action, demonstrate just the opposite.
To the extent, if any, the arbitration agreement is problematic in the ways the majority asserts, the wage orders
are more problematic in each of those ways. And they are
problematic in additional ways that the majority does not
even assert characterize the arbitration agreement.
In addition, the majority’s assertion about only needing to “fill[] out a simple form” to initiate the Berman procedure (maj. opn., ante, at p. 21) is inaccurate. Upon examination, the form to which the majority refers turns out
not to be so “simple” at all. (Maj. opn., ante, at p. 21.) It
requires an employee to know and provide a considerable
amount of detailed information, including: whether the
claim is “about a public works project”; whether there is
“a union contract covering [the] employment,” in which
case a copy should be attached; the “total number of [the
employer’s] employees”; and a complete breakdown of the
unpaid amounts into “regular wages,” “overtime wages,”

72a
“meal period wages,” “rest period wages,” “split shift premium,” “reporting time pay,” “commissions,” “vacation
wages,” “business expenses,” “unlawful deductions,” and
“other.” (DLSE, Initial Report of Claim (DLSE Form 1)
(rev. July 2012).) This is far more information than is necessary to file a civil complaint. Indeed, unlike the majority, the DLSE recognizes that the claim initiation form is
not so simple; with it, the DLSE offers two pages of
densely-packed “Instructions for Filing A Wage Claim”
and, attached to the instructions, a densely-packed, threepage “Guide to Completing ‘Initial Report or Claim’ Form
(DLSE Form 1).”
Moreover, initiating the Berman procedure may actually require more than filling out that single form. Additional forms must be filled out and submitted “if the claim
involves “commission pay” or “vacation wages,” or “if the
plaintiff’s work hours or days of work varied per week or
were irregular and the plaintiff is seeking unpaid wages
or premium pay for meal or rest period violations.”
(DLSE Policies, supra, at p. 1.) Employees are also directed to submit a variety of other supporting documents—time records, paychecks and paystubs, bounced
checks, notice of employment information—if they have
them. (Ibid.) Given the above, the majority has exaggerated the ease of initiating the Berman procedure.
Sixth, the majority’s discussion of how “[c]ollection . . .
in the Berman context” is “simplified” compared to arbitration (maj. opn., ante, at p. 23) ignores aspects of arbitration that undermine its view. The majority emphasizes
that where “the employer unsuccessfully appeals the Labor Commissioner’s award, the claimant can collect on a
posted bond.” (Maj. opn., ante, at p. 24.) However, an employee who arbitrates a controversy may obtain provisional remedies—such as an attachment or a preliminary

73a
injunction requiring payment of wages during the arbitration—in connection with the controversy. (Code Civ.
Proc., § 1281.8.) No comparable provision enables an employee actually to obtain any payment during the Berman
procedure.
Seventh, the majority’s discussion of the relative costs
of arbitration and the Berman procedure is misleading
and incomplete. According to the majority, by agreeing to
arbitrate a wage claim, an employee gives up a “largely
cost-free administrative procedure.” (Maj. opn., ante, at
p. 25.) But an employee who requests a subpoena for documents, records or witnesses—as Kho did in this case—is
responsible for the “[c]osts incurred in the service of a
subpoena, witness fees and mileage.” (DLSE Policies, supra, at p. 3.) And employees who file de novo appeals from
awards by the Labor Commissioner must pay (1) a court
filing fee (Lab. Code, § 98.2, subd. (a)) and (2) the employer’s “costs and reasonable attorney’s fees” if they fail
to recover “an amount greater than zero” (id., subd. (c)).
In any event, as the majority correctly notes, the arbitration agreement “anticipates” that, consistent with Armendariz, OTO has the “obligation to pay arbitration-related costs.” (Maj. opn., ante, at p. 18.) Thus, if there are
any costs “unique to arbitration” under the agreement—
such as costs incident to discovery, preparation of proper
pleadings, and/or motion practice—then OTO must pay
them. (Armendariz, supra, 24 Cal.4th at p. 113.) As the
majority explains, this payment obligation “mitigates the
unfairness of expecting that [Kho] bear costs of a procedure to which [he was] required to agree.” (Maj. opn.,
ante, at p. 29, italics added.)
So it turns out that the majority’s only real concern
about costs relates to “[a]ttorney fees,” which, says the
majority, are “different” from other costs “because they
are not unique to arbitration.” (Maj. opn., ante, at pp. 26-

74a
27.) According to the majority, “employees can secure
free legal assistance from the Labor Commissioner, both
at the Berman hearing and in any subsequent appeal.”
(Maj. opn., ante, at p. 27.) By contrast, in the arbitration,
they must “pay for [legal] representation.” (Ibid.)
The majority’s analysis is problematic for several reasons. First, to be clear, according to the majority, the commissioner may not provide an employee with “representation” by “a lawyer” at a Berman hearing (maj. opn.,
ante, at p. 27), because “no statute authorizes” such representation (maj. opn., ante, at p. 27, fn. 13). Instead, in
terms of providing “free legal assistance” (maj. opn., ante,
at p. 27) at the Berman hearing, the commissioner only
may “assist . . . with cross-examination and explain issues
and terms involved” (maj. opn., ante, at p. 8). Second, as
noted above, nothing in the arbitration agreement precludes the arbitrator from providing similar assistance,
and the majority never asserts otherwise. Third, even as
to de novo appeals, not all employees are eligible for legal
representation by the commissioner, and even fewer are
absolutely entitled to such representation. Employees
who are “financially []able to afford counsel” are not eligible for representation by the commissioner. (Lab. Code,
§ 98.4.) If they are “financially unable to afford counsel,”
but are “objecting to any part of the Labor Commissioner’s final order,” they are eligible for representation,
but the commissioner has discretion not to provide it.
(Ibid.) Thus, employees requesting a trial de novo are
never guaranteed representation by the commissioner,
because they are, by definition, objecting to part of the final order; representation of such employees is always a
matter for the commissioner’s discretion. Only those employees who are both “financially unable to afford counsel”

75a
and “not objecting to any part of the Labor Commissioner’s final order” are statutorily guaranteed representation by the commissioner. (Ibid.)
Fourth, the majority gives short shrift to OTO’s claim
that “the Labor Commissioner could represent claimants
in arbitration.” (Maj. opn., ante, at p. 27, fn. 13.) The majority states that “no statute authorizes the representation of [wage] claimants outside th[e] specific context” of
de novo proceedings following a Berman hearing. (Maj.
opn., ante, at p. 27, fn. 13.) However, Labor Code section
98.3, subdivision (a), states that “[t]he Labor Commissioner may prosecute all actions for the collection of
wages, penalties, and demands of persons who in the judgment of the Labor Commissioner are financially unable to
employ counsel and the Labor Commissioner believes
have claims which are valid and enforceable.” The majority asserts that this statute only gives the commissioner
“the power to prosecute its own action . . . on behalf of
workers” (maj. opn., ante, at p. 27, fn. 13), but the statutory language on its face does not seem so confined, and
the majority offers no analysis for its restrictive reading.
Moreover, Labor Code section 98.3, subdivision (b), states
that “[t]he Labor Commissioner may prosecute action for
the collection of wages and other moneys payable to employees or to the state arising out of an employment relationship or order of the Industrial Welfare Commission.”
These provisions, and OTO’s argument, merit more in
depth and definitive consideration if, as the majority reasons, the asserted unavailability of free counsel in arbitration is the primary reason the arbitration agreement is
substantively unconscionable.
Finally, the majority’s comparison of the employee’s
ability to recover attorney fees in arbitration and in a Berman procedure is misleading. As noted above, the parties
agree—and the majority does not dispute—that were Kho

76a
to hire counsel to assist in an arbitration and were he to
prevail, as “to most of [his] claims,” he would be entitled
to “reasonable attorney fees and costs” under Labor Code
section 218.5. (Maj. opn., ante, at p. 27.) Nevertheless, the
majority continues, he “face[s] a risk that [he] will not be
designated the prevailing party” under the fee statute.
(Maj. opn., ante, at p. 28.) By contrast, the majority asserts, “The Berman statutes provide fee-shifting to wage
claimants who secure any monetary recovery in an employer’s appeal.” (Maj. opn., ante, at p. 28.) Of course, this
means that claimants who recover nothing in an employer’s appeal are not entitled to recover attorney fees.
And the majority’s use of the limiting phrase “in an employer’s appeal” (ibid.) means that in an appeal by the employee, the employee may not recover attorney fees under
any circumstances, even upon securing full monetary recovery. (Sonic I, supra, 51 Cal.4th at p. 673 [in de novo
proceeding, “successful appellants may not obtain [attorney] fees”].) Moreover, appealing employees, even if “financially unable to afford counsel,” are not guaranteed
representation by the Labor Commissioner, because they
would be “objecting to [some] part of the Labor Commissioner’s final order.” (Lab. Code, § 98.4.) In this respect,
arbitration, by making attorney fees potentially available
to employees even if they are appealing parties, is actually
more accessible and affordable for employees.
The majority offers little response to my detailed analysis, other than to say I am simply “rais[ing] the same
criticisms of the Berman procedure that [the majority]
considered at length, and rejected” in Sonic II. (Maj. opn.,
ante, at p. 25, fn. 15.) Although some of the points I make
here about the Berman procedure are the same as points
I made in Sonic II, many are not. The majority simply
ignores the points that are new. It also ignores the evi-

77a
dence I cite to refute its assessment of the Berman procedure, which is based solely on this court’s assertions about
what that procedure was, in theory “ ‘designed to provide.’ ” (Maj. opn., ante, at p. 7.)
Moreover, contrary to the majority’s assertion, I am
not making “criticisms” of the Berman procedure. (Maj.
opn., ante, at p. 25, fn. 15.) I am simply pointing out relevant aspects of the Berman procedure that are inherent
in the statutory provisions themselves or that have revealed themselves through actual administration of those
provisions. This level of detailed inquiry is necessary because of the basis for the majority’s unconscionability
finding: its assessment of the Berman procedure’s benefits relative to those of the arbitration procedure. A
proper evaluation of that finding requires close examination of the majority’s assumptions and of any real, substantive differences between the two procedures. The
court should not cavalierly invalidate this arbitration
agreement based on erroneous assumptions or assertions
about its procedures as compared to the Berman procedure. In light of the above considerations, it is impossible
to reach a reliable, accurate, or definitive conclusion that
the Berman procedure is less costly than the arbitration
procedure. Given the uncertainties regarding such a comparison, the majority’s analysis provides an insufficient
basis for concluding that Kho has carried his burden to
prove that the agreement was “unconscionable at the time
it was made.” (Civ. Code, § 1670.5, subd. (a).)
Of course, reasonable people may reach different conclusions about the inchoate value, at the time the arbitration agreement was signed, of a Berman procedure’s potential benefits in comparison to the inchoate value of the
arbitration procedure’s potential benefits. But a court’s
after-the-fact, subjective assessment of the relative bene-

78a
fits of the two procedures should not be the basis for exercising the judicial power to declare that an agreement
was “unconscionable at the time it was made” (Civ. Code,
§ 1670.5, subd. (a)), and thus unenforceable. This should
be especially true where, as here, the basis for the court’s
conclusion is that the arbitration procedure is simply too
much like a procedure—ordinary civil litigation—that, according to the majority, has been “carefully crafted to ensure fairness to both sides.” (Maj. opn., ante, at p. 25.)
Which brings me to my next point of disagreement
with the majority: its view that our case law allows invalidation of this arbitration agreement based on the relative
benefits of the arbitration procedure and the Berman procedure. To be sure, the majority in Sonic II, supra, 57
Cal.4th at page 1149, said that a court, “in determining
whether an arbitration agreement is unconscionable,”
may “consider the value of benefits provided by the Berman statutes” that the employee has “surrender[ed].”
However, the Sonic II majority also emphasized: that an
“employee’s surrender of such benefits does not necessarily make the agreement unconscionable” (id. at p.
1125); that a finding of substantive unconscionability may
not be “premised on the superiority of the Berman hearing as a dispute resolution forum” (id. at p. 1149); that “the
unconscionability doctrine does not mandate the adoption
of any particular form of dispute resolution mechanism,
and courts may not decline to enforce an arbitration
agreement simply on the ground that it appears to be a
bad bargain or that one party could have done better” (id.
at p. 1148); that “[t]he unconscionability inquiry is not a
license for courts to impose their renditions of an ideal arbitral scheme” (ibid.); that the party seeking to compel arbitration need not “justify the [arbitration] agreement
through provision of benefits comparable to those otherwise afforded by statute” (id. at p. 1152); that “parties

79a
may opt out of the Berman process with any agreement
that provides for accessible, affordable arbitration of
wage disputes” (id. at p. 1168); that “[o]ur rule requires
only that wage claimants have an accessible and affordable mechanism for dispute resolution, not that the mechanism adopt any particular procedure or assume any particular form” (id. at pp. 1170-1171); and that “an adhesive
arbitration agreement that compels the surrender of Berman protections as a condition of employment” (id. at p.
1150) is enforceable “so long as” it “provides employees
with an accessible, affordable process for resolving wage
disputes that does not ‘effectively block[] every forum for
the redress of [wage] disputes, including arbitration itself’ ” (id. at pp. 1157, 1158).
As noted earlier, the majority acknowledges that the
features of the arbitration procedure here were “carefully
crafted to ensure fairness to both sides” (maj. opn., ante,
at p. 25) and are not “per se unfair” (maj. opn., ante, at p.
25), and the majority does not find that arbitration is so
unaffordable or inaccessible for Kho as to effectively block
every forum for redress. If the statements of the Sonic II
majority have any meaning, then that should end the inquiry, and the arbitration agreement should be enforced.
But the majority nevertheless invalidates the agreement
because, in its view, the arbitration procedure is not as
advantageous for Kho as the Berman procedure. In this
regard, the majority’s analysis and conclusion are inconsistent with the Sonic II majority’s many statements and
assurances regarding the enforceability of arbitration
agreements in this context, especially its statement that a
finding of substantive unconscionability may not be
“premised on the [purported] superiority of the Berman
hearing as a dispute resolution forum.” (Sonic II, supra,
57 Cal.4th at p. 1149.)

80a
The majority here essentially ignores the Sonic II majority’s statements, proclaiming that “the question” here
“[u]ltimately” is whether Kho “was coerced or misled into
making an unfair bargain” that is too “one-sided” to be
enforced. (Maj. opn., ante, at p. 32.) To be sure, the Sonic
II majority stated that “courts may examine the terms of
adhesive arbitration agreements to determine whether
they are unreasonably one-sided.” (Sonic II, supra, 57
Cal.4th at p. 1145.) But the Sonic II majority also stated
that, with respect to claims that qualify for the Berman
procedure, “arbitration conducted with many of the formalities of litigation is not unconscionably one-sided” if it
provides “accessible and affordable resolution of wage
disputes.” (Id. at p. 1163.) And the Sonic II majority expressly “reaffirm[ed]” Little’s discussion on this point
(ibid.), where we said “[i]t is not at all obvious” that provisions incorporating “legal formalities into” an arbitration
agreement—i.e., “the rules of pleading and evidence” and
“traditional judicial motions such as demurrer and summary judgment”—“would inordinately benefit [the employer] rather than [the employee]” (Little, supra, 29
Cal.4th at p. 1075, fn. 1). The majority’s analysis and conclusion are inconsistent with these statements.
Finally, even were the majority correct that the agreement is one-sided with respect to claims covered by the
Berman procedure—and as I have demonstrated, it is
not—the majority’s analysis is contrary to the Sonic II
majority opinion’s discussion of one-sidedness. Consistent
with my earlier discussion of basic contract law, the Sonic
II majority stated that whether a contract is “unreasonably one-sided” must be determined based on “the overall
bargain.” (Sonic II, supra, 57 Cal.4th at p. 1146.) Thus,
even were it true that the arbitration procedure provides
Kho with little or no benefit with respect to claims covered

81a
by the Berman procedure, that would not mean the parties’ “ ‘overall bargain’ ” was “ ‘one-sided,’ ” let alone “ ‘unreasonably one-sided.’ ” (Maj. opn., ante, at p. 11). Only by
evaluating the arbitration agreement as if it were merely
“a waiver of Berman procedures” (maj. opn., ante, at p.
11) and ignoring the overall benefits Kho received and the
detriment OTO suffered—all in disregard of our precedents—can the majority assert that, given what Kho “received in return” for “surrender[ing] the full panoply of
Berman procedures and assistance” (maj. opn., ante, at p.
32), the agreement is “so unfairly one-that it should not be
enforced” (maj. opn., ante, at p. 11).
For all of the preceding reasons, the majority’s analysis and conclusion are incorrect as a matter of state law.
E. Federal Law—The FAA

The final reason I do not join the majority opinion is
that its analysis is inconsistent with—and thus preempted
by—the FAA, as the high court has construed that law.
The high court cases applying the FAA authoritatively
establish at least two principles that are fatal to the majority’s analysis and conclusion. First, an arbitration
agreement’s enforceability may not “turn[] on” a state’s
“judgment concerning the forum for enforcement of [a]
state-law cause of action.” (Buckeye Check Cashing, Inc.
v. Cardegna (2006) 546 U.S. 440, 446 (Buckeye).) Thus, as
the Sonic II majority stated, the FAA precludes a court
from “finding an arbitration agreement unconscionable”
based on “the fact that arbitration supplants an administrative hearing.” (Sonic II, supra, 57 Cal.4th at p. 1146.)
Second, judges may not declare an arbitration agreement
to be unenforceable based on their subjective view that
the arbitration procedure would not provide “ ‘effective
vindication’ ” of a statutory right, unless the agreement

82a
goes so far as to “forbid[] the assertion of certain statutory rights,” and “perhaps” if it imposes “filing and administrative fees . . . that are so high as to make access to
the forum impracticable.” (American Express Co. v. Italian Colors Restaurant (2013) 570 ____ U.S. ____ ,
____ [133 S.Ct. 2304, 2310-2311] (Italian Colors).)
The majority’s analysis and conclusion violate both of
these binding FAA principles. Again, the majority,
though recognizing that the arbitration procedure here
was “carefully crafted to ensure fairness to both sides”
(maj. opn., ante, at p. 25) and is not “per se unfair,” unaffordable, or inaccessible (ibid.), nevertheless invalidates
the arbitration agreement based on its view that the procedure is not as advantageous for Kho and other employees as the Berman procedure. In other words, contrary to
high court precedent, the majority makes the agreement’s
enforceability “turn[] [entirely] on” a state court’s “judgment” that the Berman procedure provides a better “forum for enforcement of [a] state-law cause of action”
(Buckeye, supra, 546 U.S. at p. 446), and that the arbitration procedure “supplants” that more advantageous “administrative” forum (Sonic II, supra, 57 Cal.4th at p.
1146). Also contrary to high court precedent, the majority
expressly has rested its conclusion on the view that the
arbitration procedure, as compared to the Berman procedure, “erect[s] . . . barriers to the vindication of [employees’] statutory rights.” (Maj. opn., ante, at p. 27.) Under
binding high court case law, the FAA does not permit invalidation of the arbitration agreement on these grounds.
It is true that under the FAA, enforcement of an arbitration agreement is subject to “such grounds as exist at
law or in equity for the revocation of any contract.” (9
U.S.C. § 2.) It is also true that under this clause—which is
known as the saving clause—unconscionability, as a
“ ‘generally applicable contract defense[],’ ” may be the

83a
basis for declining to enforce an arbitration agreement.
(Concepcion, supra, 563 U.S. at p. 339.)
However, the FAA imposes substantial limits on what
a court may do in the name of unconscionability. To begin
with, “[a] court may not . . . construe [an arbitration]
agreement in a manner different from that in which it otherwise construes nonarbitration agreements under state
law.” (Perry v. Thomas (1987) 482 U.S. 483, 493, fn. 9
(Perry).) Nor may a court apply the unconscionability doctrine “in a fashion that disfavors arbitration” or “ ‘rely on
the uniqueness of an agreement to arbitrate as a basis for
a state-law holding that enforcement would be unconscionable.’ ” (Concepcion, supra, 563 U.S. at p. 341.) In
short, the saving clause “establishes an equal-treatment
principle: A court may invalidate an arbitration agreement based on ‘generally applicable contract defenses’
like fraud or unconscionability, but not on legal rules that
‘apply only to arbitration or that derive their meaning
from the fact that an agreement to arbitrate is at issue.’ ”
(Kindred Nursing Centers Ltd. Partnerships v. Clark
(2017) ____ U.S. ____ , ____ [137 S.Ct. 1421, 1426]
(Kindred Nursing).) As this court has explained, this
equal treatment principle mandates that our unconscionability standard “be . . . the same for arbitration and
nonarbitration agreements” (Sanchez, supra, 61 Cal.4th
at p. 912) and that we enforce our unconscionability rules
“evenhandedly” (Sonic II, supra, 57 Cal.4th at p. 1143). It
preempts any rule of unconscionability that “discriminat[es] on its face against arbitration.” (Kindred Nursing,
at p. 1426.)
But the equal treatment principle extends beyond
overt discrimination, “displac[ing] any [state] rule [of unconscionability] that covertly accomplishes the same objective” (Kindred Nursing, supra, ____ U.S. at p. ____

84a
[137 S.Ct. at p. 1426]) or that employs “more subtle methods” to “target arbitration” (Epic Systems Corp. v. Lewis
(2018) ____ U.S. ____ , ____ [138 S.Ct. 1612, 1622]
(Epic)). Thus, as this court has explained, the FAA
“preempts even a ‘generally applicable’ state law contract
defense if that defense (1) is ‘applied in a fashion that disfavors arbitration’ [citation], or (2) ‘interferes with fundamental attributes of arbitration’ [citation], such as ‘ “lower
costs, greater efficiency and speed, and the ability to
choose expert adjudicators to resolve specialized disputes.” ’ ” (McGill v. Citibank, N.A. (2017) 2 Cal.5th 945,
964 (McGill).) In other words, although the FAA’s “saving
clause preserves generally applicable contract defenses,”
it does not “preserve state-law rules that stand as an obstacle to the accomplishment of the FAA’s objectives.”
(Concepcion, supra, 563 U.S. at p. 343). Nor does it permit
state courts, in “addressing the concerns that attend contracts of adhesion,” “to take steps” under the rubric of unconscionability that “conflict with the FAA or frustrate its
purpose to ensure that private arbitration agreements are
enforced according to their terms.” (Id. at p. 347, fn. 6.)
Thus, “[t]he ‘grounds’ ” for invalidating an arbitration
agreement that the saving clause preserves do not “ ‘include a State’s mere preference for procedures that are
incompatible with arbitration and that “would wholly eviscerate arbitration agreements.” ’ ” (Id. at p. 343.)
By refusing to enforce the arbitration agreement
based on its view that the arbitration procedure is less advantageous for Kho and other employees than the Berman procedure, the majority runs afoul of these governing principles. Given the majority’s recognition that the
arbitration procedures have been “carefully crafted to ensure fairness to both sides” (maj. opn., ante, at p. 25), and
are not “per se unfair,” unaffordable, or inaccessible (maj.
opn., ante, at p. 25), the majority’s “comparative benefit”

85a
basis for invalidating the agreement constitutes nothing
more than a “ ‘mere preference’ ” for the “ ‘procedures’ ”
prescribed by the Berman statutes. (Concepcion, supra,
563 U.S. at p. 343.) By insisting that the arbitration agreement have more features comparable to those of the Berman procedure, the majority is “frustrat[ing]” the FAA’s
“purpose to ensure that private arbitration agreements
are enforced according to their terms.” (Id. at p. 347, fn.
6.) The majority’s effort to disguise this obvious preference for the Berman procedure under the cloak of unconscionability does not render its analysis and conclusion
valid under the FAA; as explained above, the FAA’s equal
treatment principle extends beyond overt discrimination,
“displac[ing] any [state] rule [of unconscionability] that
covertly accomplishes the same objective” (Kindred
Nursing, supra, ____ U.S. at p. ____ [137 S.Ct. at
p. 1426]) or employs “more subtle methods”
to “target arbitration” (Epic, supra, ____ U.S. at p. ____ [138
S.Ct. at p. 1622]).
But the majority’s effort is perhaps not as subtle or
covert as it might at first appear. The high court, in discussing the “ ‘great variety’ of ‘devices and formulas’ ” that
judges hostile to arbitration have used to invalidate arbitration agreements, has expressly “not[ed] that California’s courts have been more likely to hold contracts to arbitrate unconscionable than other contracts.” (Concepcion, supra, 563 U.S. at p. 342.) Any reader of this court’s
opinions would surely be able to confirm the high court’s
observation. Any such reader would also be able to discern that the unconscionability analysis and contract principles this court applies in arbitration cases—including
the majority’s “comparative benefit” rationale for invalidating the arbitration agreement here, its insistence that
there be separate consideration for Kho’s agreement to
arbitrate claims covered by the Berman procedure, its

86a
failure to consider the parties’ overall bargain and the detriment OTO suffered in determining what Kho received in
return for his agreement to arbitrate, and its reliance on
factors to find procedural unconscionability that our precedents hold are not factors—are indeed very different
from the analysis and principles the court applies in
nonarbitration cases.
Indeed, a majority of this court long ago expressly announced that with respect to arbitration agreements, it
would apply “the ordinary principles of unconscionability . . . in forms peculiar to the arbitration context.” (Armendariz, supra, 24 Cal.4th at p. 119.) Here, the majority
again explicitly acknowledges that the “approach” it uses
in “evaluating” the unconscionability of “compelled arbitration of wage claims” otherwise subject to the Berman
procedure is “different” from the approach this court uses
in evaluating other unconscionability claims. (Maj. opn.,
ante, at p. 25.) This unique, Berman-specific approach—
and the majority’s analysis and conclusion in this case—
violate, and are thus preempted by, the FAA and its equal
treatment principle, which preclude a court from “constru[ing an arbitration] agreement in a manner different
from that in which it otherwise construes nonarbitration
agreements under state law” (Perry, supra, 482 U.S. at p.
493, fn. 9), from applying the unconscionability doctrine
“in a fashion that disfavors arbitration,” and from
“ ‘rely[ing] on the uniqueness of an agreement to arbitrate
as a basis for a state-law holding that enforcement would
be unconscionable’ ” (Concepcion, supra, 562 U.S. at p.
341). As this court has held, the FAA’s equal treatment
principle mandates that our unconscionability standard
“be . . . the same for arbitration and nonarbitration agreements” (Sanchez, supra, 61 Cal.4th at p. 912) and that we
enforce our unconscionability rules “evenhandedly”
(Sonic II, supra, 57 Cal.4th at p. 1143). In this case, the

87a
majority, once again, fails to heed this court’s own pronouncements.
Moreover, this case confirms my view, as set forth in
Sonic II, that the unique unconscionability analysis a majority of this court applies to compulsory arbitration of
Berman claims is incompatible with, and therefore
preempted by, the FAA for another reason: it “ ‘ “stand[s]
as an obstacle to the accomplishment and execution of
[Congress’s] full purposes and objectives” ’ in passing the
FAA.” (Sonic II, supra, 57 Cal.4th at p. 1187 (conc. & dis.
opn. of Chin, J.).) In Italian Colors, supra, 570 U.S. ____
at pages ____ , ____ [133 S.Ct. 2304, 2311-2312], the
high court rejected an approach that would “ ‘require
courts to proceed case by case to tally the costs and burdens to particular plaintiffs in light of their means’ ” and
“ ‘the size of their claims.’ ” “Such a preliminary litigating
hurdle,” the court explained, “would undoubtedly destroy
the prospect of speedy resolution that arbitration in general and bilateral arbitration in particular was meant to
secure. The FAA does not sanction such a judicially created superstructure.” (Id. at p. [133 S.Ct. at p. 2312].) As
I explained in Sonic II, the unconscionability inquiry the
Sonic II majority set forth—by requiring a “minitrial” in
superior court “on the comparative costs and benefits of
arbitration and the Berman procedure for a particular
employee” and possible “appellate review of the trial
court’s decision”—creates “the very type of ‘superstructure’ ” that, according to the high court, “the FAA prohibits.” (Sonic II, at p. 1188 (conc. & dis. opn. of Chin, J.).)
In rejecting my view, the Sonic II majority confidently
responded that its approach would “not erect a ‘preliminary litigating hurdle’ of the sort prohibited by Italian
Colors.” (Sonic II, supra, 57 Cal.4th at p. 1167.) To support its view, the majority asserted that a wage claim “is

88a
simpler than the antitrust claim at issue in Italian Colors,” that courts “have routinely decided whether arbitration is affordable in a given case,” and that applicable statutes would facilitate “summary” disposition of unconscionability claims. (Id. at p. 1157.)
The facts and the majority’s conclusion in this case validate my analysis. OTO moved to compel arbitration in
August 2015. The trial court denied the motion four
months later, in December 2015. OTO then appealed, and
in August 2017—two years after OTO moved to compel
arbitration—the Court of Appeal disagreed with the trial
court and ordered the motion granted. Now, after another
two years of litigation, a majority of this court is reversing the Court of Appeal based on a different assessment
of the arbitration procedure’s benefits relative to a Berman procedure. Thus, as the majority acknowledges, the
“[l]itigation” in this case just to apply Sonic II’s unique
unconscionability test has “consumed . . . four years.”
(Maj. opn., ante, at p. 24, fn. 12, italics added.) Even still,
says the majority, its decision does not settle the question
of whether an identical arbitration agreement would be
enforceable “under less coercive circumstances.” (Maj.
opn., ante, at p. 32.) The length of this litigation and the
majority’s case-specific limitation on its holding confirm
my view that the unconscionability analysis this court has
prescribed for agreements to arbitrate claims the Berman
procedure covers creates a preliminary litigating hurdle
that, according to Italian Colors, is incompatible with, and
thus preempted by, the FAA.
The majority’s response—that this inordinate delay in
arbitration is permissible under the FAA because unconscionability is a generally applicable contract defense that
“has long been recognized as a permissible ground for invalidating arbitration agreements under the FAA’s sav-

89a
ings clause” (maj. opn., ante, at p. 34)—is simply incorrect. Under high court precedent, the unconscionability
defense does not “qualify for protection under the saving
clause” if it is applied so as to “interfere[] with a fundamental attribute of arbitration.” (Epic, supra, ____ U.S.
at p. ____ [138 S.Ct. at p. 1622].) Consistent with this
precedent, we unanimously stated just two years ago that
the FAA “preempts even a ‘generally applicable’ state
law contract defense if that defense . . . ‘interferes with
fundamental attributes of arbitration,’ ” including
“ ‘ “lower costs [and] greater efficiency and speed.” ’ ”
(McGill, supra, 2 Cal.5th at p. 964, italics added.) Because
the extended litigation made necessary by a majority of
this court’s unique approach to unconscionability in the
Berman waiver context substantially interferes with
these fundamental attributes of arbitration, the FAA
preempts that approach notwithstanding the fact that unconscionability is otherwise a generally applicable contract defense.6
The majority opinion here also confirms another aspect of my FAA preemption analysis in Sonic II. There, I
explained that the Sonic II majority’s unconscionability
analysis is “inconsistent with” the FAA, as the high court
construed it in Southland, because it “is not a ground that
exists at law or in equity for the revocation of any contract, but is . . . merely a ground that exists for the revocation of arbitration provisions in contracts subject to the

6
The majority’s other response—that this case is atypical because
“[f]ew cases progress to appeal, and vanishingly few reach this court”
(maj. opn., ante, at p. 34)—ignores (1) the cost and delay attributable
to the superior court proceedings, and (2) the fact that between 10,000
and 15,000 appeals are filed in our Courts of Appeal each year. (Jud.
Council of Cal., 2017 Court Statistics Report, Statewide Caseload
Trends: 2006-2007 Through 2015-2016, p. 48.)

90a
Berman statutes or to other statutes that ‘legislatively’ afford to ‘a particular class . . . specific protections in order
to mitigate the risks and costs of pursuing certain types
of claims.’ ” (Sonic II, supra, 57 Cal.4th at p. 1190 (conc. &
dis. opn. of Chin, J.).) Consistent with my analysis, the majority, in finding unconscionability here, concedes that it
is using “a different approach in evaluating the compelled
arbitration of wage claims, as compared to the arbitration
of other types of disputes.” (Maj. opn., ante, at p. 25.) That
approach, the majority continues, is not appropriate for
“wrongful demotion and discharge” claims because
“[t]here is no Berman-like administrative process for”
such claims (maj. opn., ante, at p. 25) and no provision for
“free legal assistance” (id. At p. 27) as there is with the
Berman procedure; “[w]hile all employees would likely
benefit from having a lawyer in the litigation-like arbitration process here,” “wage claimants present a somewhat
special case” because “only [they] have to pay for representation that was otherwise available to them for free”
(ibid.). Thus, although arbitration with “litigation-like
procedures” is permissible for some employment claims,
it is unacceptable as a “substitute for [the Berman] administrative procedure.” (Maj. opn., ante, at p. 16.) These
statements reinforce the view I stated in Sonic II: This
court’s rule of unconscionability for agreements requiring
arbitration of unpaid wage claims otherwise eligible for
the Berman procedure is “inconsistent with” the FAA because it “is not a ground that exists at law or in equity for
the revocation of any contract, but is . . . merely a ground
that exists for the revocation of arbitration provisions in
contracts subject to the Berman statutes.’ ” (Sonic II, supra, at p. 1190 (conc. & dis. opn. of Chin, J.).)
Under the FAA, “[p]arties may generally shape [arbitration] agreements to their liking by specifying with
whom they will arbitrate, the issues subject to arbitration,

91a
the rules by which they will arbitrate, and the arbitrators
who will resolve their disputes. [Citation.] Whatever they
settle on, the task for courts and arbitrators at bottom remains the same: ‘to give effect to the intent of the parties.’ ” (Lamps Plus, Inc. v. Varela, supra, ____ U.S. at
p. ____ [139 S.Ct. at p. 1416].)
California law embodies a similar principle; as this
court has explained, by enacting the California Arbitration Act, “the Legislature has determined that the parties
shall have considerable leeway in structuring the dispute
settlement arrangements by which they are bound . . . .”
(Graham, supra, 28 Cal.3d at p. 825.) This “leeway . . .
permit[s] the establishment of arrangements which vary
to some extent from the dead-center of ‘neutrality,’ ” so
long as they meet “certain ‘minimum levels of integrity.’ ”
(Ibid.) In light of the public policy strongly favoring arbitration, those arrangements should be enforced—and
“the matter should be permitted to proceed to arbitration”—absent a “clear[]” showing that they “essentially
preclude the possibility of a fair hearing.” (Id. at p. 826,
fn. 23.) “If, in the course of arbitration proceedings, the
resisting party is actually denied a fair opportunity to present his position, ample means for relief are available
through a subsequent petition to vacate the award.”
(Ibid.)
The majority violates these federal and state law principles by invalidating the arbitration rules to which the
parties in this case agreed—even though those rules have
been “carefully crafted to ensure fairness to both sides”
(maj. opn., ante, at p. 25) and do not make arbitration “per
se unfair,” unaffordable, or inaccessible (ibid.)—because
they are not, in the majority’s view, as advantageous for
Kho as the Berman procedure. This conclusion is both inconsistent with California law and preempted by the FAA.
For the foregoing reasons, I dissent.

92a
APPENDIX B
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION ONE

A147564

OTO, L.L.C.,
Plaintiff and Appellant,
v.
KEN KHO,
Defendant and Respondent;
JULIE A. SU, as Labor Commissioner, etc.,
Intervener and Appellant

Filed: August 21, 2017

Before: MARGULIES, HUMES, and BANKE, JJ.
OPINION
Opinion of the court by MARGULIES, J.
Ken Kho filed a claim for unpaid wages with the California Labor Commissioner (commissioner) against his
former employer, OTO, L.L.C., doing business as One

93a
Toyota of Oakland (hereafter One Toyota). After settlement discussions failed, One Toyota filed a petition to
compel arbitration. Under the arbitration agreement,
which One Toyota required Kho to execute without explanation during his employment, the wage claim would be
subject to binding arbitration conducted by a retired superior court judge. Because the intended procedure incorporated many of the provisions of the Code of Civil Procedure and the Evidence Code, the anticipated arbitration
proceeding would resemble ordinary civil litigation.
The trial court denied the petition to compel. Under
Sonic-Calabasas A, Inc. v. Moreno (2013) 57 Cal.4th 1109
(Sonic II), an arbitration agreement that waives the various advantageous provisions of the Labor Code governing
the litigation of a wage claim is substantively unconscionable if it fails to provide the employee with an affordable
and accessible alternative forum. The trial court concluded that the alternative anticipated by One Toyota’s
arbitration agreement failed this standard because it effectively required Kho to retain counsel and did not expressly provide for him to recover his attorney fees if he
prevailed. We reverse, concluding the arbitration proceeding satisfies the Sonic II requirements of affordability and accessibility.
I.

BACKGROUND

Kho worked as an auto mechanic for One Toyota from
January 2010 through April 2014, when his employment
was terminated. Several months later, in October 2014,
Kho filed a wage claim with the commissioner.
In November 2014, Kho and One Toyota participated
in an unsuccessful settlement conference, mediated by a
deputy labor commissioner. The parties continued settlement discussions for the following month, until, in midDecember, One Toyota requested that the commissioner’s

94a
office forward a proposed settlement agreement to Kho.
After Kho “decided not to accept” the offer, he requested
a so-called “Berman hearing” on his claim.1
On January 30, 2015, the commissioner notified One
Toyota of Kho’s request, and in March the hearing was
scheduled for the following August. In July, Kho requested the issuance of a subpoena for records from One
Toyota in preparation for the hearing. The subpoena was
issued, requiring One Toyota to bring the requested documents to the hearing.
On the morning of the Berman hearing, a Monday,
One Toyota’s attorney faxed a letter to the commissioner’s office, requesting that the hearing be taken off
calendar because One Toyota had filed a petition to compel arbitration and stay the administrative proceedings on
the prior Friday.2 By return fax, the commissioner’s office
informed counsel that the hearing would proceed as
scheduled. At the appointed time, counsel for One Toyota
appeared, served Kho with the petition to compel and stay
proceedings, and left. Undeterred, the hearing officer
proceeded with the hearing in One Toyota’s absence and
later issued an extensive “Order, Decision, or Award”
Apparently Kho’s refusal of the offer was not communicated to
One Toyota by the commissioner until March 2015, at which time One
Toyota told the commissioner it would continue to try to settle the
matter. By that time, of course, One Toyota had received notice of the
scheduled Berman hearing.
1

2
The parties dispute whether this was the first time One Toyota
raised the issue of arbitration. In a declaration filed later, One
Toyota’s attorney claimed to have informed Kho at the time of the
settlement conference that it intended to seek arbitration of his
claims. Both Kho and the deputy commissioner who conducted the
hearing denied that the issue of arbitration was raised, and One
Toyota acknowledged there is no written record reflecting this interaction. The trial court did not resolve this issue of fact.

95a
(ODA) finding Kho entitled to $102,912 in unpaid wages
and $55,634 in liquidated damages, interest, and penalties.
One Toyota thereafter sought de novo review of the
ODA in the trial court pursuant to Labor Code section
98.2, posting the requisite bond to secure payment of the
award. (Id., subd. (b).) At the same time, One Toyota supplemented its petition to compel arbitration with the filing
of a motion to vacate the ODA. By stipulation, the commissioner was allowed to intervene in the trial court proceedings.
One Toyota’s petition to compel arbitration was premised on a “Comprehensive Agreement—Employment AtWill and Arbitration” (Agreement), executed by Kho on
February 22, 2013, three years into his employment. The
substance of the Agreement appears to be quite similar to
the arbitration agreement addressed in the Sonic decisions. (See Sonic II, supra, 57 Cal.4th at pp. 1125-1126,
1146; Sonic-Calabasas A, Inc. v. Moreno (2011) 51 Cal.4th
659, 680 (Sonic I).) Notwithstanding its designation as a
“comprehensive” employment contract, the one and onequarter page contract is merely an arbitration clause
grafted onto an acknowledgment of at-will employment.
The clause, written in a tiny font size, consists of a dense,
single-spaced paragraph that occupies nearly the entirety
of the first page.3 The terms of the clause are broad, requiring arbitration of “any claim, dispute, and/or controversy” by either party against the other. Although arbitration under the Agreement purports to be subject to the
procedures of the California Arbitration Act (CAA; Code
Civ. Proc., § 1280 et seq.), the clause requires any arbitration to be conducted by a retired California superior court
3
The clause is written in seven-point font size. For purposes of
demonstration, this sentence is written in seven-point font. A copy of
the Agreement is attached as an appendix to this decision.

96a
judge and in conformance with California laws governing
pleading and evidence. Accordingly, the clause permits
the full extent of discovery authorized by the CAA, authorizes demurrers and motions for summary judgment,
among all other California pleadings, and requires the arbitration hearing to be conducted pursuant to the Evidence Code. It anticipates, in short, ordinary civil litigation, followed by the equivalent of a civil bench trial, except that one or both parties must finance the judge and
facilities. With respect to the allocation of the costs of arbitration, the clause states: “If [Code of Civil Procedure
section] 1284.2 conflicts with other substantive statutory
provisions or controlling case law, the allocation of costs
and arbitrator fees shall be governed by said statutory
provisions or controlling case law instead of [Code of Civil
Procedure section] 1284.2.”4
In opposing the petition to compel, Kho explained the
circumstances of his execution of the Agreement: “After
working for One Toyota of Oakland for approximately 3
years, Alba, who was a ‘porter’ employed with [the human
resources department of] One Toyota of Oakland,
brought . . . paperwork for me to sign. This happened approximately in February 2013. [¶] . . . I remember working at my station and Alba asked me to sign several additional documents in February 2013. I was not asked to
come into the human resources office to review the documents and I was required to sign and return them immediately to Alba, who was waiting in my work station for
4
Code of Civil Procedure section 1284.2 states: “Unless the arbitration agreement otherwise provides or the parties to the arbitration
otherwise agree, each party to the arbitration shall pay his pro rata
share of the expenses and fees of the neutral arbitrator, together with
other expenses of the arbitration incurred or approved by the neutral
arbitrator, not including counsel fees or witness fees or other expenses incurred by a party for his own benefit.”

97a
me to finish signing them. It took about 3-4 minutes for
me to sign these documents. After I signed them, I gave
the documents back to Alba and I was not given an opportunity to read what those documents were. [¶] . . . I was
not provided with a copy of the documents signed on [sic]
February 2013. No one from One Toyota of Oakland read
to [sic] the contents of the documents to me nor did they
explain to me that I was signing an arbitration agreement
and waiving any of my rights. [¶] . . . [A]t no point during
my employment with One Toyota of Oakland did I receive
a copy of the arbitration agreement. My first language is
Chinese and a copy of this agreement was not provided in
my native language.”
One Toyota did not dispute Kho’s account.
The trial court denied the petition to compel. In an extensive written decision, the court found “that there was
a high level of procedural unconscionability connected
with the execution of the arbitration agreement in this
case.” It noted Kho was not given time to review the
Agreement, was given no explanation of it, and was not
given a copy afterward, which the court found “consistent
with the conclusion that the arbitration provision was imposed on [Kho] under circumstances that created oppression or surprise due to unequal bargaining power.” The
court also found the Agreement substantively unconscionable under Sonic II because it deprived Kho of the advantages of the commissioner’s procedures, which provide
for a relatively quick, inexpensive method for resolving
wage claims that is designed to accommodate pro se
claimants, like Kho, without providing an “accessible and
affordable” alternative. As the court noted, the Agreement anticipates close to a full trial, which would necessitate the hiring of counsel, but it does not provide for the
recovery of attorney fees to incentivize counsel. Because

98a
the court denied the petition to compel, it declined to address Kho’s argument that One Toyota’s last-minute assertion of its right to arbitrate waived that right. Although
the court denied the petition to compel, it did grant One
Toyota’s motion to vacate the ODA, concluding that the
agency abused its discretion in proceeding with the hearing after having been informed that Kho had executed an
agreement to arbitrate that could moot the proceeding.
One Toyota has appealed the denial of its petition to
compel arbitration, while the commissioner, as intervener, has cross-appealed the order vacating the ODA.
Kho has not appeared personally or by counsel, but the
commissioner has filed a respondent’s brief asserting arguments on his behalf.
II. DISCUSSION
A. Governing Law
1. Unconscionability

“ ‘A written agreement to submit to arbitration an existing controversy or a controversy thereafter arising is
valid, enforceable and irrevocable, save upon such
grounds as exist for the revocation of any contract.’ [Citation.] A party seeking to compel arbitration of a dispute
‘bears the burden of proving the existence of an arbitration agreement, and the party opposing arbitration bears
the burden of proving any defense, such as unconscionability.’ ” (Jenks v. DLA Piper Rudnick Gray Cary US
LLP (2015) 243 Cal.App.4th 1, 8.) The Supreme Court
summarized the doctrine of unconscionability in the context of arbitration agreements in Sanchez v. Valencia
Holding Co., LLC (2015) 61 Cal.4th 899 (Sanchez):
“ ‘ “One common formulation of unconscionability is
that it refers to ‘ “an absence of meaningful choice on the
part of one of the parties together with contract terms
which are unreasonably favorable to the other party.” ’

99a
[Citation.] As that formulation implicitly recognizes, the
doctrine of unconscionability has both a procedural and a
substantive element, the former focusing on oppression or
surprise due to unequal bargaining power, the latter on
overly harsh or one-sided results.” ’ [Citation.]
“ ‘ “The prevailing view is that [procedural and substantive unconscionability] must both be present in order
for a court to exercise its discretion to refuse to enforce a
contract or clause under the doctrine of unconscionability.” [Citation.] But they need not be present in the same
degree. “Essentially a sliding scale is invoked which disregards the regularity of the procedural process of the
contract formation, that creates the terms, in proportion
to the greater harshness or unreasonableness of the substantive terms themselves.” [Citations.] In other words,
the more substantively oppressive the contract term, the
less evidence of procedural unconscionability is required
to come to the conclusion that the term is unenforceable,
and vice versa.’ [Citation.] Courts may find a contract as a
whole ‘or any clause of the contract’ to be unconscionable.
[Citation.]
“As we stated in Sonic II: ‘The unconscionability doctrine ensures that contracts, particularly contracts of adhesion, do not impose terms that have been variously described as “ ‘ “overly harsh” ’ ” [citation], “ ‘unduly oppressive’ ” [citation], “ ‘so one-sided as to “shock the conscience” ’ ” [citation], or “unfairly one-sided” [citation]. All
of these formulations point to the central idea that unconscionability doctrine is concerned not with “a simple oldfashioned bad bargain” [citation], but with terms that are
“unreasonably favorable to the more powerful party” [citation]. These include “terms that impair the integrity of
the bargaining process or otherwise contravene the public
interest or public policy; terms (usually of an adhesion or

100a
boilerplate nature) that attempt to alter in an impermissible manner fundamental duties otherwise imposed by the
law, fine-print terms, or provisions that seek to negate the
reasonable expectations of the nondrafting party, or unreasonably and unexpectedly harsh terms having to do
with price or other central aspects of the transaction.” ’ ”
(Sanchez, supra, 61 Cal.4th at pp. 910-911.)
When, as here, the evidence is not in dispute, we review de novo a trial court’s decision on a petition to compel
arbitration. (Lane v. Francis Capital Management LLC
(2014) 224 Cal.App.4th 676, 683.)
2. Litigation of Wage Claims

Claims for unpaid wages filed by California workers
are investigated by California’s Division of Labor Standards Enforcement, headed by the commissioner. (Performance Team Freight Systems, Inc. v. Aleman (2015) 241
Cal.App.4th 1233, 1237 (Aleman).) The handling of such
claims was explained in Sonic I, supra, 51 Cal.4th 659,
which held that the right to the commissioner’s procedures cannot be waived:5
“ ‘If an employer fails to pay wages in the amount, time
or manner required by contract or by statute, the employee has two principal options. The employee may seek
judicial relief by filing an ordinary civil action against the
employer for breach of contract and/or for the wages prescribed by statute. [Citations.] Or the employee may seek
administrative relief by filing a wage claim with the commissioner pursuant to a special statutory scheme codified
in [Labor Code] sections 98 to 98.8. The latter option was
added by legislation enacted in 1976 (Stats. 1976, ch. 1190,
§§ 4-11, pp. 5368-5371) and is commonly known as the

5

This holding was overruled by Sonic II, supra, 57 Cal.4th 1109.

101a
“Berman” hearing procedure after the name of its sponsor.’ [Citations.]
“Once an employee files a complaint with the Labor
Commissioner for nonpayment of wages, [Labor Code]
section 98, subdivision (a) ‘ “provides for three alternatives: the commissioner may either accept the matter and
conduct an administrative hearing [citation], prosecute a
civil action for the collection of wages and other money
payable to employees arising out of an employment relationship [citation], or take no further action on the complaint. [Citation.]” ’ [Citation.] . . . [P]rior to holding a Berman hearing or pursuing a civil action, the Labor Commissioner’s staff may attempt to settle claims either informally or through a conference between the parties. [Citation.]
“A Berman hearing is conducted by a deputy commissioner, who has the authority to issue subpoenas. [Citations.] ‘The Berman hearing procedure is designed to provide a speedy, informal, and affordable method of resolving wage claims. In brief, in a Berman proceeding the
commissioner may hold a hearing on the wage claim; the
pleadings are limited to a complaint and an answer; the
answer may set forth the evidence that the defendant intends to rely on, and there is no discovery process; if the
defendant fails to appear or answer no default is taken
and the commissioner proceeds to decide the claim, but
may grant a new hearing on request. [Citation.] The commissioner must decide the claim within 15 days after the
hearing. [Citation.]’ [Citation.] The hearings are not governed by the technical rules of evidence, and any relevant
evidence is admitted ‘if it is the sort of evidence on which
responsible persons are accustomed to rely in the conduct
of serious affairs.’ [Citation.] The hearing officer is authorized to assist the parties in cross-examining witnesses
and to explain issues and terms not understood by the

102a
parties. [Citation.] The parties have a right to have a
translator present. [Citations.]
“Once judgment is entered in the Berman hearing, enforcement of the judgment is to be a court priority. [Citation.] The Labor Commissioner is charged with the responsibility of enforcing the judgment and ‘shall make
every reasonable effort to ensure that judgments are satisfied, including taking all appropriate legal action and requiring the employer to deposit a bond as provided in [Labor Code] Section 240.’ [Citation.]
“Within 10 days after notice of the decision any party
may appeal to the appropriate court, where the claim will
be heard de novo; if no appeal is taken, the commissioner’s
decision will be deemed a judgment, final immediately,
and enforceable as a judgment in a civil action. [Citation.]
If an employer appeals the Labor Commissioner’s award,
‘[a]s a condition to filing an appeal pursuant to this section, an employer shall first post an undertaking with the
reviewing court in the amount of the order, decision, or
award. The undertaking shall consist of an appeal bond
issued by a licensed surety or a cash deposit with the court
in the amount of the order, decision, or award.’ [Citation.]
The purpose of this requirement is to discourage employers from filing frivolous appeals and from hiding assets in
order to avoid enforcement of the judgment. [Citation.]
“Under [Labor Code] section 98.2, subdivision (c), ‘If
the party seeking review by filing an appeal to the superior court is unsuccessful in the appeal, the court shall determine the costs and reasonable attorney’s fees incurred
by the other parties to the appeal, and assess that amount
as a cost upon the party filing the appeal. An employee is
successful if the court awards an amount greater than
zero.’ This provision thereby establishes a one-way feeshifting scheme, whereby unsuccessful appellants pay attorney fees while successful appellants may not obtain

103a
such fees. [Citation.] This is in contrast to [Labor Code]
section 218.5, which provides that in civil actions for nonpayment of wages initiated in the superior court, the ‘prevailing party’ may obtain attorney fees.6
“Furthermore, the Labor Commissioner ‘may’ upon
request represent a claimant ‘financially unable to afford
counsel’ in the de novo proceeding and ‘shall’ represent
the claimant if he or she is attempting to uphold the Labor
Commissioner’s award and is not objecting to the Commissioner’s final order. [Citation.] Such claimants represented by the Labor Commissioner may still collect attorney fees pursuant to [Labor Code] section 98.2, although
such claimants have not, strictly speaking, incurred attorneys fees, because construction of the statute in this manner is consistent with the statute’s goals of discouraging
unmeritorious appeals of wage claims. [Citation.]
“In sum, when employees have a wage dispute with an
employer, they have a right to seek resolution of that dispute through the Labor Commissioner, either through
the commissioner’s settlement efforts, through an informal Berman hearing, or through the commissioner’s direct prosecution of the action. When employees prevail at
a Berman hearing, they will enjoy the following benefits:
(1) the award will be enforceable if not appealed; (2) the
Labor Commissioner is statutorily mandated to expend
best efforts in enforcing the award, which is also established as a court priority; (3) if the employer appeals, it is
required to post a bond equal to the amount of the award
so as to protect against frivolous appeals and evading the
6
Following the issuance of Sonic I, this contrast between Berman
proceedings and Labor Code section 281.5 was substantially mitigated when that section was amended to provide that a prevailing employee in a wage dispute can recover attorney fees, while a prevailing
employer can recover such fees only if the employee brought the action in bad faith. (Stats. 2013, ch. 142, § 1.)

104a
judgment; (4) a one-way attorney fee provision will ensure
that fees will be imposed on employers who unsuccessfully
appeal but not on employees who unsuccessfully defend
their Berman hearing award, or on employees who appeal
and are awarded an amount greater than zero in the superior court; (5) the Labor Commissioner is statutorily
mandated to represent in an employer’s appeal claimants
unable to afford an attorney if the claimant does not contest the Labor Commissioner’s award.” (Sonic I, supra,
51 Cal.4th at pp. 671-674, fn. omitted.)
3. Substantive Unconscionability in the Context of
Wage Claim Arbitration

In Sonic I, the Supreme Court held an arbitration
clause that has the effect of waiving an employee’s statutory right to Berman procedures to be substantively unconscionable. (Sonic I, supra, 51 Cal.4th at p. 686.) The
circumstances of Sonic I were virtually indistinguishable
from those presented here. The respondent was an auto
dealership employee who had filed a wage claim with the
commissioner. The arbitration clause in his employment
contract appears to have been very similar to that in the
Agreement. (Id. at pp. 669, 680; see Sonic II, supra, 57
Cal.4th at p. 1146.)
In Sonic II, the Supreme Court acknowledged that
Sonic I’s holding of per se unconscionability was inconsistent with the United States Supreme Court’s intervening decision in AT&T Mobility LLC v. Concepcion (2011)
563 U.S. 333. (Sonic II, supra, 57 Cal.4th at p. 1141.) At
the same time, Sonic II recognized that unconscionability
remained a valid defense to a petition to compel arbitration of a wage claim, at least under the correct circumstances. (Id. at p. 1142.) With respect to an adhesive contract, “the unconscionability doctrine is concerned . . .
with terms that are ‘unreasonably favorable to the more

105a
powerful party’ [citation].” (Id. at p. 1145.) Accordingly,
the court concluded, “the waivability of a Berman hearing
in favor of arbitration does not end the unconscionability
inquiry” and remanded the matter to the trial court to
conduct a “fact-specific inquiry” regarding “the totality of
the agreement’s substantive terms as well as the circumstances of its formation to determine whether the overall
bargain was unreasonably one-sided.” (Id. at p. 1146.)
In discussing the nature of this inquiry, the court explained, “The Berman statutes include various features
designed to lower the costs and risks for employees in
pursuing wage claims . . . . Waiver of these protections
does not necessarily render an arbitration agreement unenforceable, nor does it render an arbitration agreement
unconscionable per se. But waiver of these protections in
the context of an agreement that does not provide an employee with an accessible and affordable arbitral forum
for resolving wage disputes may support a finding of unconscionability. As with any contract, the unconscionability inquiry requires a court to examine the totality of the
agreement’s substantive terms as well as the circumstances of its formation to determine whether the overall
bargain was unreasonably one-sided.” (Sonic II, supra, 57
Cal.4th at p. 1146.) While Sonic II later reiterated that
waiver of Berman hearing protections alone would not
support a finding of unconscionability (id. at p. 1147), it
provided no further guidance regarding the type of “affordable and accessible” procedure that would stand as a
suitable substitute. Rather, the court merely repeated
that “in the context of a standard contract of adhesion setting forth conditions of employment, the unconscionability inquiry focuses on whether the arbitral scheme imposes costs and risks on a wage claimant that make the
resolution of the wage dispute inaccessible and unaffordable, and thereby ‘effectively blocks every forum for the

106a
redress of disputes, including arbitration itself.’ ” (Id. at p.
1148.)
Although Sonic II remanded the matter for an inquiry
into both the procedural and substantive unconscionability of the arbitration clause in question, we assume that
the dual requirements of affordability and accessibility
are concerned only with substantive unconscionability.
Both of these features are determined by the substantive
terms of the arbitration agreement, not by the manner of
its execution or its form. The requirements of affordability and accessibility therefore set the minimum standard
that an arbitration clause requiring waiver of Berman
procedures must meet to avoid a finding of substantive
unconscionability as a result of that waiver.
B. Unconscionability of the Agreement
1. Procedural Unconscionability

A contract is adhesive, and therefore procedurally unconscionable to a degree, if “written on a preprinted form
and offered on a take-it-or-leave-it basis.” (Baltazar v.
Forever 21, Inc. (2016) 62 Cal.4th 1237, 1245; Carbajal v.
CWPSC, Inc. (2016) 245 Cal.App.4th 227, 243 [“ ‘It is well
settled that adhesion contracts in the employment context, that is, those contracts offered to employees on a
take-it-or-leave-it basis, typically contain some aspects of
procedural unconscionability.’ ”].) Given the circumstances of Kho’s execution of the Agreement, there is no
question that it was a contract of adhesion. The issue here
is whether, as the trial court found, the circumstances of
its formation created a greater degree of procedural unconscionability, requiring “ ‘closer scrutiny’ of the agreement’s substantive fairness.” (Farrar v. Direct Commerce, Inc. (2017) 9 Cal.App.5th 1257, 1268.) We conclude
they did.

107a
“Procedural unconscionability pertains to the making
of the agreement and requires oppression or surprise.”
(Magno v. The College Network, Inc. (2016) 1 Cal.App.5th
277, 285.) “The ‘oppression’ component of procedural unconscionability ‘arises from an inequality of bargaining
power of the parties to the contract and an absence of real
negotiation or a meaningful choice on the part of the
weaker party.’ [Citation.] ‘Surprise is defined as “ ‘the extent to which the supposedly agreed-upon terms of the
bargain are hidden in the prolix printed form drafted by
the party seeking to enforce the disputed terms.’ ” ’ ” (Lennar Homes of California, Inc. v. Stephens (2014) 232
Cal.App.4th 673, 688.) “The circumstances relevant to establishing oppression include, but are not limited to (1) the
amount of time the party is given to consider the proposed
contract; (2) the amount and type of pressure exerted on
the party to sign the proposed contract; (3) the length of
the proposed contract and the length and complexity of
the challenged provision; (4) the education and experience
of the party; and (5) whether the party’s review of the proposed contract was aided by an attorney.” (Grand Prospect Partners, L.P. v. Ross Dress for Less, Inc. (2015) 232
Cal.App.4th 1332, 1348, fn. omitted.)
The circumstances of Kho’s execution of the Agreement demonstrated a high degree of oppression. As noted,
the Agreement was not negotiated but presented on a
take-it-or-leave-it basis. Further, the Agreement was submitted to Kho for signature at a time when One Toyota
was already his employer; in the absence of any explanation, Kho could have inferred that execution of the document was expected of him as a condition of his employment. To avoid this implication, One Toyota could have excused Kho from his work station, submitted the Agreement to him with an explanation of both its purpose and

108a
meaning, and explained its significance, if any, for his further employment. It chose to do none of those things. Instead, the document was presented to him at his work station, where he was under pressure to perform his job. Not
only did One Toyota provide no explanation for its demand for his signature, it selected a low level employee, a
“porter,” to present the Agreement, creating the impression that no request for an explanation was expected and
any such request would be unavailing. These circumstances were highly coercive and appear intended to
thwart, rather than promote, voluntary and informed consent.
The issue of surprise is less clear-cut, but it is by no
means absent. The Agreement seems intended as a parody of the classic adhesion contract. Written in a single
block, without paragraphs to delineate different topics,
the arbitration clause is visually impenetrable. Because
the entire Agreement occupies less than two pages, there
was no practical need for One Toyota to choose a small
typeface. Yet the font chosen is so small as to challenge
the limits of legibility. Further, the language is legalistic,
and the text is complex. The second sentence of the arbitration clause manages to occupy 11 lines of text, notwithstanding the tiny typeface. Some of the language, such as
the reference to Code of Civil Procedure section 1284.2,
requires a specialist’s legal training to understand. It cannot be said that One Toyota was attempting to hide the
ball by burying the arbitration clause in an otherwise prolix agreement, since the Agreement consists almost entirely of the arbitration clause. Yet the Agreement is
drafted and composed in a manner, again, to thwart rather than promote understanding.7 For these reasons, we
Because the record contains no information about Kho’s English
facility, we are less concerned with the failure to present him with a
version of the Agreement written in Chinese, his native language.
7

109a
conclude that the degree of procedural unconscionability
was extraordinarily high.
2. Substantive Unconscionability

Although we find a high degree of procedural unconscionability, we conclude the Agreement is not substantively unconscionable under the standard of Sonic II,
which requires enforcement of a Berman hearing waiver
if the arbitration clause provides an “accessible and affordable arbitral forum.”8 (Sonic II, supra, 57 Cal.4th at
p. 1146.)
The commissioner first argues that the Agreement is
substantively unconscionable under general arbitration
law because it is unduly harsh or one-sided. (E.g.,
Sanchez, supra, 61 Cal.4th at p. 911.) In the abstract, however, the arbitration provisions of the Agreement are neither harsh nor one-sided. The arbitration clause does not,
for example, require arbitration of claims most likely to
be filed by an employee while excluding those of an employer. (E.g., Carbajal v. CWPSC, Inc., supra, 245
Cal.App.4th at p. 248.) Nor does it contain any other substantive features that appear, on their face, designed to
benefit the employer. (See id. at pp. 250-251 [arbitration
clause required each party to bear own fees, effectively
waiving various employee fee recovery statutes].) The
Many American immigrants who were born speaking another language are fluent in written English.
8
This requirement applies only to an arbitration clause contained
in a contract of adhesion. While we find it unnecessary to review the
procedural unconscionability of Kho’s execution of the Agreement, we
have no doubt that the Agreement was a contract of adhesion, given
the circumstances of its execution. (See Sonic II, supra, 57 Cal.4th at
p. 1133 [a contract of adhesion is drafted by a party of superior bargaining strength and gives to the other party only the opportunity to
adhere to the contract or reject it].)

110a
Agreement anticipates a proceeding very much like ordinary civil litigation, with no special procedural features
that would tend to favor One Toyota—any more, at least,
than the complexity and expense of civil litigation naturally tends to favor a party with greater sophistication and
financial resources.
Rather, the Agreement can be argued “harsh or onesided” only in comparison to the various features of the
Labor Code that seek to level the playing field for wage
claimants—features that, as the Supreme Court characterized them, are “designed to lower the costs and risks
for employees in pursuing wage claims, including procedural informality, assistance of a translator, use of an expert adjudicator who is authorized to help the parties by
questioning witnesses and explaining issues and terms,
and provisions on fee shifting, mandatory undertaking,
and assistance of the Labor Commissioner as counsel to
help employees defend and enforce any award on appeal.”
(Sonic II, supra, 57 Cal.4th at p. 1146.) The premise of
Sonic II, however, was that these various features lawfully could be waived by an arbitration agreement governing wage claims, and the court presumably factored the
permissibility of such a waiver into its unconscionability
standard. As the court held, “Waiver of these protections
does not necessarily render an arbitration agreement unenforceable, nor does it render an arbitration agreement
unconscionable per se. But waiver of these protections in
the context of an agreement that does not provide an employee with an accessible and affordable arbitral forum
for resolving wage disputes may support a finding of unconscionability.” (Ibid.) In other words, waiver of the various employee-friendly wage claim provisions of the Labor Code does not make an arbitration agreement unconscionable so long as the resulting arbitration procedure is

111a
“affordable and accessible.” We proceed on that assumption in considering the Agreement.
As to the first factor, affordability, One Toyota
acknowledges that it must pay all costs of arbitration under the Agreement. As noted above, the Agreement provides that the parties will split the costs of arbitration, as
required by Code of Civil Procedure section 1284.2, unless
“statutory provisions or controlling case law” provide otherwise. With respect to wage claims, One Toyota concedes
that the Supreme Court’s decision in Armendariz v.
Foundation Health Psychcare Services, Inc. (2000) 24
Cal.4th 83 (Armendariz) requires an employer to pay the
costs of arbitration, notwithstanding section 1284.2. Armendariz held that certain statutory rights cannot be
waived and that arbitration agreements encompassing
such rights “must be subject to particular scrutiny.”9 (Armendariz, at pp. 100, 101.) Given the importance of these
rights, Armendariz held, an agreement requiring their
arbitration must be interpreted to require the employer
to pay any costs of arbitration “that the employee would
not be required to bear if he or she were free to bring the
action in court.” (Id. at pp. 110-111.)
Accordingly, the Agreement’s silence on arbitration
costs must be interpreted under Armendariz to require
One Toyota to pay the costs of arbitration. Because Kho
will not be required to pay any costs of arbitration not required by the civil courts, the Sonic II requirement of affordability is presumably satisfied here.

9
Although Armendariz concerned the rights established by the
California Fair Employment and Housing Act (Gov. Code, § 12900 et
seq.), One Toyota does not dispute that statutory wage rights are similarly unwaivable.

112a
We find no merit in the commissioner’s argument that
the Agreement is unconscionable because it does not expressly inform Kho that One Toyota must pay the arbitral
costs of a wage claim. The Agreement was intended to
deal with a wide variety of legal claims potentially asserted by an employee against his or her employer, or vice
versa. It is therefore not surprising that it does not contain any provision specifically addressing the allocation of
costs for wage claim arbitration. Although the Agreement
does not discuss the law applicable to cost-sharing with
respect to any specific claim, it does recognize that there
are statutory and common law exceptions to the general
rule of cost-sharing established by Code of Civil Procedure section 1284.2, implicitly acknowledging the possibility, with respect to some claims, that One Toyota will be
required to pay the costs. The arbitration clause is not unconscionable merely because it does not attempt to characterize those claims.
The trial court held, and the commissioner argues,
that the arbitration envisioned by the Agreement is not
affordable because it will require Kho to retain counsel,
while the Labor Code permits a wage claimant to be represented by the commissioner in a de novo proceeding following the Berman hearing and provides for recovery of
attorney fees to a prevailing wage claimant.10 (Lab. Code,
§§ 98.2, subd. (c), 98.4.) We do not agree that the absence
of representation by the commissioner makes arbitration

10
Labor Code section 98.4 provides: “The Labor Commissioner
may, upon the request of a claimant financially unable to afford counsel, represent such claimant in the de novo proceedings provided for
in Section 98.2. In the event that such claimant is attempting to uphold the amount awarded by the Labor Commissioner and is not objecting to any part of the Labor Commissioner’s final order, the Labor Commissioner shall represent the claimant.”

113a
unaffordable for purposes of Sonic II. First, legal representation for an employee is the most obvious expense
arising in connection with wage claim arbitration. If the
Sonic II court believed an arbitration agreement must
provide for free counsel to avoid unconscionability, it easily could have said so, just as Armendariz expressly required the payment of other arbitration costs. Sonic II did
not articulate this requirement, and its silence on the
point is suggestive. Second, it must be understood that a
wage claimant has no absolute right to counsel in the de
novo portion of wage claim litigation. Representation lies
in the discretion of the commissioner, unless the claimant
has already prevailed at the Berman hearing and does not
challenge that award. The Agreement therefore does not
necessarily require an expense beyond that necessary under Labor Code procedures. Third, the claimant is not required to retain counsel for the arbitration but may proceed in pro. per. While this is certainly not the best approach, it is the option facing every litigant in ordinary
civil litigation. The type of proceeding envisioned by the
Agreement, while it is potentially more complex than a
typical arbitration hearing, is no more complex than the
civil litigation required for a de novo hearing under the
Labor Code. We conclude that the absence of free representation does not make a wage claim arbitration unaffordable.
Nor does the lack of an express employee-favorable
attorney fees provision, similar to Labor Code section
98.2, subdivision (c), cause the Agreement to be unconscionable, since the Agreement requires the application of
another, similarly favorable provision of the Labor Code.
Although the Agreement is silent as to the award of attorney fees, it requires the arbitrator to apply “the law governing the claims and defenses pleaded.” Section 98.2
would not apply to an arbitration under the Agreement

114a
because it governs only de novo appeals from a Berman
hearing. Labor Code section 218.5, however, applies more
generally to “any action brought for the nonpayment of
wages” and requires an award of reasonable attorney fees
to a prevailing employee, while granting fees to a prevailing employer only if the employee’s action was brought in
bad faith. (Id., subd. (a).) In some circumstances this provision would be more favorable to an employee than section 98.2, since the latter allows an award of attorney fees
to an employer whenever an appealing employee fails to
recover any wages, regardless of the employee’s good
faith. As One Toyota concedes, the required application of
Labor Code section 218.5 has essentially the same legal
effect as section 98.2, subdivision (c).
While the factors affecting “accessibility” are not explored in Sonic II, we find nothing in the proceeding required by the Agreement that would cause it to be inaccessible to an employee. The commissioner argues that
the Agreement should be found unconscionable because it
replaced the relative simplicity of the Berman hearing
with a complex proceeding resembling civil litigation. If
the Labor Code required only a Berman hearing to resolve wage claims, the argument might have some force.
The result of a Berman hearing, however, is nonbinding.
An appeal by either party effectively nullifies the result,
in favor of a de novo proceeding in superior court—in
other words, in favor of ordinary civil litigation. Because
the type of proceeding outlined by the Agreement is similar to civil litigation, it anticipates a proceeding that is no
more complex than will often be required to resolve a
wage claim under the Berman procedures. Such a proceeding is presumably not inaccessible for purposes of
Sonic II.
The commissioner contends the proceeding anticipated by the Agreement is inaccessible because the

115a
Agreement does not contain a provision specifying the
means for initiating an arbitration. While a well-drawn arbitration clause would have specified such means, the failure to designate a manner of commencing arbitration
does not render the clause unconscionable. The failure actually introduces flexibility, since an arbitration presumably can be commenced in any reasonable manner. Although in a roundabout way, Kho effectively commenced
an arbitration by filing a wage claim with the commissioner, thereby compelling One Toyota either to litigate
under the Labor Code or respond with a petition to compel. A variety of other means would undoubtedly be recognized as sufficient for commencement of an arbitration.
Nor do we find the proceeding inaccessible because the
Agreement does not refer to a particular arbitration sponsor or set of rules. As noted, the Agreement provides that
the proceeding will be governed by the pleading rules of
the Code of Civil Procedure and by the Evidence Code, as
applicable in California courts.
3. Enforcement of the Agreement

As our discussion likely makes clear, we are disturbed
by the manner in which the Agreement was drafted and
presented to Kho for signature. Nonetheless, California
arbitration law has consistently required both procedural
and substantive unconscionability before an arbitration
provision will be refused enforcement. (Sanchez, supra,
61 Cal.4th at p. 910 [unconscionability requires both procedural and substantive unconscionability]; Aleman, supra, 241 Cal.App.4th 1233, 1248 [where no procedural unconscionability, arbitration agreement could not be found
unconscionable].) Although a high degree of procedural
unconscionability ordinarily imposes “ ‘closer scrutiny’ of
the agreement’s substantive fairness” (Farrar v. Direct
Commerce, Inc., supra, 9 Cal.App.5th at p. 1268), Sonic II

116a
appears to establish affordability and accessibility as a
safe harbor when the claim of substantive unconscionability is premised on the waiver of Berman procedures.
Given our conclusion that the Agreement is not substantively unconscionable under Sonic II, we must reverse the
trial court’s order denying the petition to compel arbitration.
C. Waiver

Although the commissioner does not contend on appeal that One Toyota waived its right to arbitrate entirely,
it does contend that One Toyota’s delay in asserting its
right to arbitrate waived its right to avoid a Berman hearing.
We discussed the law relating to waiver of arbitral
rights through delay in Gloster v. Sonic Automotive, Inc.
(2014) 226 Cal.App.4th 438: “ ‘State law, like the [Federal
Arbitration Act (9 U.S.C. § 1 et seq.)], reflects a strong
policy favoring arbitration agreements and requires close
judicial scrutiny of waiver claims. [Citation.] Although a
court may deny a petition to compel arbitration on the
ground of waiver [citation], waivers are not to be lightly
inferred and the party seeking to establish a waiver bears
a heavy burden of proof.’ [Citation.]
“ ‘Both state and federal law emphasize that no single
test delineates the nature of the conduct that will constitute a waiver of arbitration. [Citations.] “ ‘In the past, California courts have found a waiver of the right to demand
arbitration in a variety of contexts, ranging from situations in which the party seeking to compel arbitration has
previously taken steps inconsistent with an intent to invoke arbitration [citations] to instances in which the petitioning party has unreasonably delayed in undertaking
the procedure. . . .’ ” . . .’ [Citation.]

117a
“ ‘[W]hether litigation results in prejudice to the party
opposing arbitration is critical in waiver determinations.’
[Citation.] ‘ “ ‘The moving party’s mere participation in litigation is not enough [to support a finding of waiver]; the
party who seeks to establish waiver must show that some
prejudice has resulted from the other party’s delay in
seeking arbitration.’ [Citation.]” [Citations.] [¶] . . . [¶] . . .
“[C]ourts will not find prejudice where the party opposing
arbitration shows only that it incurred court costs and legal expenses.” [Citation.]’ [Citation.] ‘Rather, courts assess prejudice with the recognition that California’s arbitration statutes reflect “ ‘a strong public policy in favor of
arbitration as a speedy and relatively inexpensive means
of dispute resolution’ ” and are intended “ ‘to encourage
persons who wish to avoid delays incident to a civil action
to obtain an adjustment of their differences by a tribunal
of their own choosing.’ ” [Citation.] Prejudice typically is
found only where the petitioning party’s conduct has substantially undermined this important public policy or substantially impaired the other side’s ability to take advantage of the benefits and efficiencies of arbitration. [¶]
For example, courts have found prejudice where the petitioning party used the judicial discovery processes to gain
information about the other side’s case that could not have
been gained in arbitration [citations]; where a party unduly delayed and waited until the eve of trial to seek arbitration [citation]; or where the lengthy nature of the delays associated with the petitioning party’s attempts to litigate resulted in lost evidence [citation].’ ” (Gloster v.
Sonic Automotive, Inc., supra, 226 Cal.App.4th at pp.
447-448.)
In her briefs, the commissioner did not attempt to
demonstrate prejudice accruing from One Toyota’s delay
in asserting its right to arbitrate, and we find none. The
first portion of the Berman procedure involves settlement

118a
discussions. We would be reluctant to require an employer to forego settlement discussions in order to preserve the right to arbitration, since such discussions seem
of potential benefit to both sides of a wage dispute. While
it would have been preferable for One Toyota to have asserted its right to arbitration immediately upon the failure of settlement discussions in order to avoid inconvenience to Kho and the commissioner, inconvenience does
not equal prejudice.11 Neither Kho nor the commissioner
was required to spend substantial time or funds in preparation for the Berman hearing, which is informal by design. At oral argument, the commissioner argued Kho was
prejudiced by delay, but we find there was no significant
delay. The Berman hearing proceeded as scheduled. Although that will now be followed by an arbitration proceeding, One Toyota’s assertion of its right to a trial de novo
ensured that Kho’s wage claim would not be resolved
promptly even in the absence of arbitration. One Toyota’s
assertion of its right immediately prior to the commencement of the hearing therefore caused no prejudice. In the
absence of prejudice, we cannot find One Toyota to have
waived its right to assert the Agreement.
Without discussing the extensive case law governing
waiver of the right to arbitrate, the commissioner cites
11
In finding that One Toyota did not forfeit its right to arbitration
by waiting until the 11th hour to file its petition to compel, we do not
mean to suggest we condone its conduct. At oral argument, One
Toyota insisted it waited until the morning of the hearing to inform
Kho and the commissioner of its decision on the chance the matter
would settle on the eve of the hearing. Yet the record reveals that One
Toyota’s last settlement effort occurred months before the hearing,
and it made no attempt to settle at the Berman hearing, where its
attorney stayed only long enough to serve Kho with papers. While we
find no forfeiture in the absence of prejudice, we do find an unacceptable lack of courtesy.

119a
language from Sonic II in an attempt to argue that the
decision requires a petition to compel arbitration to be
filed sufficiently far in advance of a scheduled Berman
hearing to allow the petition to be decided prior to the
hearing. It is clear, however, that Sonic II was not concerned with waiver and did not purport to render any
holding with respect to that issue. The commissioner’s attempt to construe the decision as establishing a deadline
for the filing of a petition to compel must therefore be rejected. (See People v. Brooks (2017) 3 Cal.5th 1, 110 [“It is
axiomatic that a case is not authority for an issue that was
not considered.”].)
D. The Commissioner’s Cross-appeal

Given our conclusion that Kho waived his right to pursue the Berman procedures in favor of the arbitration procedure contained in the Agreement, the commissioner’s
appeal of the order vacating the ODA is moot. Even if we
concluded the trial court erred in vacating the ODA, we
could not render effective relief because Kho was not entitled to a Berman hearing in the first place. (See
McClatchy v. Coblentz, Patch, Duffy & Bass, LLP (2016)
247 Cal.App.4th 368, 375 [matter is moot when the court
cannot grant effective relief].) We accordingly affirm the
trial court’s order vacating the ODA.
III. DISPOSITION

The trial court’s denial of One Toyota’s petition to
compel arbitration is reversed, and its order vacating the
ODA is affirmed. The matter is remanded to the trial
court with directions to enter a new order granting the
petition to compel arbitration. One Toyota may recover its
costs on appeal. (Cal. Rules of Court, rule 8.278(a)(1), (2).)

120a
Appendix
COMPREHENSIVE AGREEMENT
EMPLOYMENT AT-WILL AND ARBITRATION
1. It is hereby agreed by and between Ken Kho (hereinafter “Associate” and One Toyota of Oakland (hereinafter “Company”) that the employment and compensation
of Associate can be terminated by the Company or the Associate at any time, with or without cause and/or with or
without notice, at the option of the Company or the Associate.
2. I also acknowledge that the Company utilizes a system of alternative dispute resolution that involves binding
arbitration to resolve all disputes which may arise out of
the employment context. Because of the mutual benefits
(such as reduced expense and increased efficiency) which
private binding arbitration can provide both the Company
and myself, I and the Company both agree that any claim,
dispute, and/or controversy that either party may have
against one another (including, but not limited to, any
claims of discrimination and harassment, whether they be
based on the California Fair Employment and Housing
Act, Title VII of the Civil Rights Act of 1964, as amended,
as well as all other applicable local, state or federal laws
or regulations) which would otherwise require or allow resort to any court or other governmental dispute resolution
forum between myself and the Company (or its owners,
directors, officers, managers, associates, agents, and parties affiliated with its associate benefit and health plans)
arising from, related to, or having any relationship or connection whatsoever with my seeking employment with,
employment by, or other association with the Company,
whether based on tort, contract, statutory, or equitable

121a
law, or otherwise, (with the sole exception of claims arising under the National Labor Relations Act which are
brought before the National Labor Relations Board,
claims for medical and disability benefits under the California Workers’ Compensation Act, and Employment Development Department claims) shall be submitted to and
determined exclusively by binding arbitration. In order
to provide for the efficient and timely adjudication of
claims, the arbitrator is prohibited from consolidating the
claims of others into one proceeding. This means that an
arbitrator will hear only my individual claims and does not
have the authority to fashion a proceeding as a class or
collective action or to award relief to a group of employees
in one proceeding, to the maximum extent permitted by
law. Thus, the Company has the right to defeat any attempt by me to file or join other employees in a class, collective, or joint action lawsuit or arbitration (collectively
“class claims”). Notwithstanding the prohibition herein
against “class claims” in arbitration, where my aggregate
claims seek a small amount of damages (e.g., relief that
would otherwise require or permit me to proceed in a California Small Claims action), and where the arbitrator
makes a specific factual finding after an evidentiary hearing that the prohibition against “class claims” would, for
my specific claims, become an exemption to the Company
from responsibility for its own alleged willful injury to me
and that such prohibition against “class claims” violates
fundamental notions of fairness to the extent that the arbitrator determines that the prohibition against “class
claims” is substantively unconscionable, I will be permitted to bring “class claims” in binding arbitration subject
to all the legal requirements for maintaining “class
claims.” I further understand that I will not be disciplined,
discharged, or otherwise retaliated against for exercising
my rights under Section 7 of the National Labor Relations

122a
Act, including but not limited to challenging the limitation
on a class, collective, or join action. I understand and
agree that after I exhaust administrative remedies
through the Department of Fair Employment and Housing and/or the Equal Employment Opportunity Commission, I must pursue any such claims through this binding
arbitration procedure. I acknowledge that the Company’s
business (repairing automobiles and selling automobiles
and parts coming from outside the State) and the nature
of my employment in that business affect interstate commerce. I agree that the arbitration and this Agreement
shall be controlled by the Federal Arbitration Act, in conformity with the procedures of the California Arbitration
Act (Cal. Code Civ. Proc. Sec 1280 et seq., including section 1283.05 and all the Act’s other mandatory and permissive rights to discovery). However in addition to requirements imposed by law, any arbitrator herein shall be
a retired California Superior Court Judge and shall be
subject to disqualification on the same grounds as would
apply to a judge of such court. To the extent applicable in
civil actions in all rights to resolution of the dispute by
means of motions for summary judgment, judgment on
the pleadings, and judgment under Code of Civil Procedure Section 631.8. The arbitrator shall be vested with authority to determine any and all issues pertaining to the
dispute/claims raised, any such determinations shall be
based solely upon the law governing the claims and defenses pleaded, and the arbitrator may not invoke any basis (included but not limited to, notions of “just cause”) for
his/her determinations other than such controlling law.
The arbitrator shall have the immunity of a judicial officer
from civil liability when acting in the capacity of an arbitrator, which immunity supplements any other existing
immunity. Likewise, all communications during or in connection with the arbitration proceedings are privileged in

123a
accordance with Cal. Civil Code Section 47(b). As reasonably required to allow full use and benefit of this agreement’s modifications to the Act’s procedures, the arbitrator shall extend the times set by the Act for the giving of
notices and setting of hearings. Awards shall include the
arbitrator’s written reasoned opinion. If CCP § 1284.2
conflicts with other substantive statutory provisions or
controlling case law, the allocation of costs and arbitrator
fees shall be governed by said statutory provisions or controlling case law instead of CCP § 1284.2. Both the Company and I agree that any arbitration proceeding must
move forward under the Federal Arbitration Act (9
U.S.C. §§ 3-4), even though the claims may also involve
or relate to parties who are not parties to the arbitration agreement and/or claims that are not subject to
the arbitration: thus, the court may not refuse to enforce this arbitration agreement and may not stay the
arbitration proceeding despite the provisions of California Code of Civil Procedure § 1281.2(c). The arbitrator, and not any federal, state, or local court or agency,
shall have exclusive authority to resolve any dispute
relating to the interpretation, applicability, enforceability, or formation of this Agreement, including without limitation any claim that this Agreement is void or
voidable. Thus, the Company and Employee voluntarily waive the right to have a court determine the enforceability and/or scope of this Agreement.
I UNDERSTAND BY AGREEING TO THIS BINDING ARBITRATION PROVISION, BOTH I AND THE
COMPANY GIVE UP OUR RIGHTS TO TRIAL BY
JURY.
3. It is further agreed and understood that any agreement contrary to the foregoing must be entered into, in
writing, by the President of the Company. No supervisor

124a
or representative of the Company, other than its President, has any authority to enter into any agreement for
employment for any specified period of time or make any
agreement contrary to the foregoing. Oral representations made before or after you are hired do not alter this
Agreement.
4. This is the entire agreement between the Company
and the Associate regarding dispute resolution, the length
of my employment, and the reasons for termination of employment, and this agreement supersedes any and all
prior agreements regarding these issues.
5. Should any term or provision, or portion thereof, be
declared void or unenforceable it shall be severed and the
remainder of this agreement shall be enforced.
MY SIGNATURE BELOW ATTESTS TO THE
FACT THAT I HAVE READ, UNDERSTAND, AND
AGREE TO BE LEGALLY BOUND TO ALL OF THE
ABOVE TERMS.
Signed at One Toyota, California, this 22 day of Feb,
2013.
Associate’s Signature:
/s/ Ken Kho
Print Name:
Ken Kho
Date:
2/22/13

125a
APPENDIX C
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF ALAMEDA

RG15781961

One Toyota of Oakland
Plaintiff/Petitioner
v.
KHO,
Defendant/Respondent

Filed: February 3, 2016

ORDER
MOTION FOR RECONSIDERATION DENIED
The Motion for Reconsideration was set for hearing on
02/03/2016 at 01:30 PM in Department 14 before the Honorable Evelio Grillo. The Tentative Ruling was published
and was contested.
Third Party and Moving Party Labor Commissioner,
State of California; Department of Industrial Relations
appearing by counsel Fernando Flores.
The matter was argued and submitted, and good cause
appearing therefore,
IT IS HEREBY ORDERED THAT:

126a
The Motion of the Labor Commissioner for Reconsideration of Order Granting Petitioner’s Motion to Vacate
Labor Commissioner’s Order is denied.

127a
APPENDIX D
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
IN AND FOR THE COUNTY OF ALAMEDA

RG15781961

ONE TOYOTA OF OAKLAND,
Petitioner,
v.
KEN KHO,
Respondent.
LABOR COMMISSIONER, STATE OF
CALIFORNIA,
Intervener

Filed: December 11, 2015

ORDER ON PETITIONER’S MOTION TO COMPEL
ARBITRATION AND STAY PROCEEDINGS
The motion by One Toyota of Oakland (“Petitioner”)
to compel Ken Kho (“Respondent”) to arbitrate his claims
against Petitioner arising out of his employment, including those pending before the Department of Labor Standards Enforcement; and to stay this action until arbitration
is completed, came on regularly for hearing on November

128a
23, 2015, in Department 14 of the above-entitled court, the
Honorable Evelio Grillo presiding. Petitioner appeared
by counsel David A. Hosilyk and the law firm of Fine,
Boggs & Perkins, LLP. Intervenor Labor Commissioner,
Division of Labor Standards Enforcement, Department
of Industrial Relations, State of California (“DLSE”) appeared by counsel Fernando Flores, Attorney for Labor
Commissioner. Following the hearing, the court took the
matter under submission, and now rules as follows:
The petition to compel arbitration is DENIED.
Petitioner alleges that it employed Respondent. The
employment agreement includes a written arbitration
provision requiring the parties to arbitrate all “disputes
which may arise out of the employment context.” Petitioner alleges that a “controversy” has arisen, within the
meaning of the arbitration provision, because Respondent
has filed a claim for unpaid wages against Petitioner
DLSE. Petitioner seeks to compel arbitration of Respondent’s claim for unpaid wages.
On October 9, 2014, Respondent filed an administrative claim with the DLSE under the statutory scheme for
adjudication of wage claims under the DLSE non-binding
“Berman” administrative procedure. (Labor Code secs.
98-98.8.) Petitioner was first notified of Respondent’s administrative wage claim on October 17, 2014, when notice
of a Settlement Conference was provided. The Settlement
Conference was held on November 10, 2014, and Petitioner and Respondent appeared. Petitioner made a settlement offer in December 2014, which Respondent rejected. Respondent requested a hearing and on January
30, 2015, the DLSE sent notice that a hearing would be
scheduled. On March 26, 2015, the DLSE sent notice to
Petitioner of the Berman hearing scheduled for August
17, 2015. On July 6, 2015, the DLSE issued a Subpoena

129a
Duces Tecum to compel Petitioner to produce various documents at the August 17, 2015 hearing.
On August 14, 2015, Petitioner filed the Petition to
Compel Arbitration in this case. On the morning of the administrative hearing on August,17, 2015, counsel for Petitioner faxed a letter to the DLSE indicating that Respondent and Petitioner had agreed to arbitrate all employment-related disputes and informing the DLSE that
a Petition to Compel Arbitration had been filed with this
court on August 14, 2015. Petitioner requested that the
Berman hearing be taken off calendar until the completion of the arbitration. The Labor Commissioner refused
to drop the hearing. Respondent appeared briefly at the
hearing, but only to inform the Respondent and the Labor
Commissioner of the existence of the arbitration agreement and its demand for arbitration.
After the hearing, the Labor Commissioner issued an
Order, Decision, or Award (“ODA”) dated August 25, 2015
awarding $158,546.21 to Respondent from Petitioner. Petitioner has appealed the ODA.
Under the Code of Civil Procedure section 1281.2, if a
party files a petition alleging the existence of a written
agreement to arbitrate a controversy and that a party
thereto refuses to arbitrate that controversy, the court is
required to order the petitioner and respondent to arbitrate the controversy if it determines that a written agreement to arbitrate the controversy exists, unless one of the
three exceptions provided in section 1281.2 is applicable.
Petitioner has established that Respondent entered
into a written agreement to arbitrate all claims, disputes
or controversies arising out of his employment with Petitioner. There is also no dispute that a controversy and dispute has arisen with regard Respondent’s employment,
because Respondent has filed a claim for unpaid wages
against Petitioner with the DLSE. Finally, Petitioner has

130a
established that Respondent refuses to arbitrate his
claims. Thus, Petitioner has satisfied the prima facie requirements for an order compelling Respondent to arbitrate his claims for unpaid wages and any other claims
arising from his employment with Petitioner. (Code. Civ.
Proc., sec. 1281.2.)
The DLSE argues that two of the exceptions under
section 1281.2 are applicable. First, the DLSE argues that
the petition should be denied because the right to compel
arbitration has been waived by Petitioner. Second, the
DLSE argues that grounds exist for revocation of the
agreement based on the fact that it is unconscionable.
I.

UNCONSCIONABILITY

A party opposing arbitration on the ground that the
agreement is unconscionable has the burden of proof. Under California law, an agreement can only be found unconscionable if it is both procedurally and substantively unconscionable. It is not necessary that procedural and substantive unconscionability be present to the same degree.
If there is a strong showing of procedural unconscionability, the burden to show substantive unconscionability is
lessened, and vice versa. (Nelsen v. Legacy Partners Residential, Inc. (2012) 207 Cal.App.4th 1115, 1123-1126.)
The procedural element of unconscionability addresses the circumstances of contract negotiation and formation, focusing on oppression or surprise due to unequal
bargaining power. (Pinnacle Museum Tower Assn. v.
Pinnacle Market Development (US), LLC (2012) 55
Cal.4th 223, 246.) Procedural unconscionability generally
takes the form of a pre-printed contract of adhesion imposed by the party with superior bargaining strength on
the weaker party on a “take-it-or-leave-it” basis. (Armendariz v. Foundation Health Psychcare Services, Inc.
(2000) 24 Cal.3d 83, 113-114). Although an arbitration

131a
agreement that is an essential part of a “take-it-or-leaveit” employment condition, without more, is procedurally
unconscionable (Martinez v. Master Protection Corp.
(2004) 118 Cal.App.4th 107, 114), failure to provide information about the applicable arbitration rules is another
factor that supports procedural unconscionability. (Carmona v. Lincoln Millennium Car Wash, Inc. (2014) 226
Cal.App.4th 74, 84; Trivedi v. Curexo Technology Corp.
(2010) 189 Cal.App.4th 387, 393.)
The DLSE has made a strong showing of procedural
unconscionability. The evidence provided shows that Respondent, who was hired as an automotive technician,
signed 3-5 documents on the first day of work, over the
course of 5-7 minutes. Additional papers were brought to
Respondent for his signature about 3 years later in February 2013, at his work station, and he was asked to sign
and return them immediately to the human resources representative. The February 2013 documents include the arbitration provisions at issue in this case. Respondent asserts that he did not have time to review the documents,
no one explained them to him, and he was not given a copy
of the documents after he signed them. The agreement
does not provide any information about the rules governing the arbitration and does not indicate how to initiate
arbitration. These facts are all consistent with the conclusion that the arbitration provision was imposed on Respondent under circumstances that created oppression or
surprise due to unequal bargaining power.
Contrary to the argument made by Petitioner in reply,
the holding in Nelsen, supra, 207 Cal.App.4th at 1124 does
not reject the rule that failure to provide information
about the applicable rules governing the arbitration is a
factor that shows procedural unconscionability. In addition, Petitioner argues in reply that the agreement gave

132a
sufficient notice of the applicable rules governing the arbitration by stating that the arbitration and the agreement were controlled by the Federal Arbitration Act, in
conformity with the California Arbitration Act, including
the California Act’s mandatory and permissive rights to
discovery. The agreement’s vague references to the Federal and California Acts, and to procedures in the California act, including rights to discovery, do not provide the
type of notice that is sufficient to avoid procedural unconscionability based on failure to provide information about
the arbitral procedures. The reference to the entire Federal and California statutory schemes does not provide
notice to a reasonable person of the procedures that will
be used during the arbitration, or how information about
those procedures can be obtained.
Thus, the court concludes that evidence provided by
the DLSE supports the finding that there was a high level
of procedural unconscionability connected with the execution of the arbitration agreement in this case. As a result,
although the DLSE must also show substantive unconscionability, the level of substantive unconscionability
necessary to invalidate the agreement is lessened.
Substantive unconscionability occurs when an agreement is one-sided and the contract as a whole, or a term
or clause, creates an overly harsh effect. (Lhotka v. Geographic Explorations (2010) 181 Cal.App.4th 816, 824825.)
The DLSE contends that the agreement in this case is
unconscionable because it deprives an employee such as
Respondent of the dispute resolution procedures available under Labor Code sections 98-98.8. Under that statutory scheme, an employee seeking to recover wages from
an employer is entitled to file a claim with the DLSE Labor Commissioner. Proceedings before the DLSE are

133a
free from filing fees or expenses, there is no right to discovery other than the right to issue subpoenas for documents or the personal attendance of witnesses, and the
DLSE will issue the subpoenas on behalf of parties who
require that service for free. The administrative process
ends with a Berman hearing. The results of the hearing
can be appealed to the Superior Court, but an undertaking in the amount of the award is required if the employer
appeals, which facilitates the process of recovery if the
employee succeeds. When a timely appeal is properly
filed, the Superior Court conducts a de novo trial (Lab.
Code, sec. 98.2.). In addition, although section 98.2 provides that a party seeking review who does not succeed is
liable for the costs and attorney’s fees incurred by the
other parties on appeal, an employee is considered successful if the court awards an amount greater than zero.
In addition, an employee claimant who is unable to afford
counsel on appeal may request that the Labor Commissioner represent the claimant in the de novo proceeding
before the Superior Court, and the Labor Commissioner
is required to represent the claimant if the claimant is
seeking to uphold the amount awarded by the Labor Commissioner and is not objecting to any part of the final administrative order. (Lab. Code, sec. 98.4.)
Respondent also asserts that the arbitration agreement is unconscionable because it does not state who will
pay for the costs of arbitration, and conveys the misleading impression that the arbitrator may award attorney’s
fees to an employer when an employee does not prevail.
Under the holding in Armendariz, supra, 24 Cal.4th at
110-111, an employer cannot impose any type of expense
on an employee during the arbitration that the employee
would not be required to bear if he or she were free to
bring the action in court.

134a
Petitioner contends that the failure to state which side
will pay the costs of the arbitration does not support a substantive unconscionability finding, because under the rule
in Armendariz, Respondent will not be required to pay
the costs of arbitration. Petitioner argues that the lack of
an explicit provision with regard to payment of the arbitrator’s fees is relevant to the issue of “surprise” and procedural unconscionability only. This argument is not persuasive. The fact that the agreement did not give notice
that an employee seeking to compel arbitration will not be
required to pay the costs of arbitration beyond those costs
that would be incurred in a court action creates a disincentive for an employee to initiate arbitration.
Respondent and Petitioner both rely on the holding in
Sonic-Calabasas A, Inc. v. Moreno (2013) 57 Cal.4th 1109
(Sonic II), in which the court provided guidance about
when an arbitration agreement that deprives an employee
of rights under the Berman statutory scheme is unconscionable:
Although a court may not refuse to enforce an arbitration agreement imposed on an employee as a condition
of employment simply because it requires the employee to bypass a Berman hearing, such an agreement may be unconscionable if it is otherwise unreasonably one-sided in favor of the employer. As we explained in Sonic I and reiterate below, the Berman
statutes confer important benefits on wage claimants
by lowering the costs of pursuing their claims and by
ensuring that they are able to enforce judgments in
their favor. There is no reason why an arbitral forum
cannot provide these benefits, and an employee’s surrender of such benefits does not necessarily make the
agreement unconscionable. The fundamental fairness
of the bargain, as with all contracts, will depend on

135a
what benefits the employee received under the agreement’s substantive terms and the totality of circumstances surrounding the formation of the agreement.
(Id. at 57 Cal.4th at pp. 1124-1125.)
The court in Sonic II also noted:
But the waiveability of a Berman hearing in favor of
arbitration does not end the unconscionability inquiry.
The Berman statutes include various features designed to lower the costs and risks for employees in
pursuing wage claims, including procedural informality, assistance of a translator, use of an expert adjudicator who is authorized to help the parties by questioning witnesses and explaining issues and terms, and
provisions on fee shifting, mandatory undertaking,
and assistance of the Labor Commissioner as counsel
to help employees defend and enforce any award on
appeal. Waiver of these protections does not necessarily render an arbitration agreement unenforceable,
nor does it render an arbitration agreement unconscionable per se. But waiver of these protections in the
context of an agreement that does not provide an employee with an accessible and affordable arbitral forum for resolving wage disputes may support a finding
of unconscionability. As with any contract, the unconscionability inquiry requires a court to examine the totality of the agreement’s substantive terms as well as
the circumstances of its formation to determine
whether the overall bargain was unreasonably onesided. In the present case, we remand to the trial court
to conduct this fact-specific inquiry.
(Id. at pp. 1146-1147.)
Finally, the court in Sonic II explained:

136a
We emphasize that there is no single formula for designing an arbitration process that provides an effective and low-cost approach to resolving wage disputes.
There are potentially many ways to structure arbitration, without replicating the Berman protections, so
that it facilitates accessible, affordable resolution of
wage disputes. We see no reason to believe that the
specific elements of the Berman statutes are the only
way to achieve this goal or that employees will be unable to pursue their claims effectively without initial
resort to an administrative hearing as opposed to an
adequate arbitral forum. Waiver of the Berman protections will not, by itself, support a finding of unconscionability where the arbitral scheme at issue provides employees with an accessible and affordable process for resolving wage disputes. The unconscionability inquiry is not a license for courts to impose their
renditions of an ideal arbitral scheme. Rather, in the
context of a standard contract of adhesion setting
forth conditions of employment, the unconscionability
inquiry focuses on whether the arbitral scheme imposes costs and risks on a wage claimant that make the
resolution of the wage dispute inaccessible and unaffordable, and thereby “effectively blocks every forum
for the redress of disputes, including arbitration itself.” (Gutierrez, supra, 114 Cal.App.4th at p. 90, 7
Cal.Rptr.3d 267.)
In Sonic I, we acknowledged that outside the context
of an adhesive form contract, other considerations
may inform the unconscionability inquiry. Evidence
that a Berman waiver is part of a nonstandard contract
freely negotiated by parties of comparable bargaining
power, “such as may exist between an employer and a
highly compensated executive employee,” weighs
against a finding of unconscionability. (Sonic I, supra,

137a
51 Cal.4th at p. 682, fn. 7, 121 Cal.Rptr.3d 58, 247 P.3d
130.) Whether Moreno, who was not a low-wage
worker at Sonic and whose wage claim alleges
“ ‘[v]acation wages for 63 days: . . . at the rate of
$441.29 per day’ ” (id. at p. 670, 121 Cal.Rptr.3d 58, 247
P.3d 130), had comparable bargaining power or freely
negotiated his contract are matters for the trial court
to determine on remand. Further, when a negotiated
or nonstandard contract is at issue, terms of employment unrelated to arbitration may confer substantial
benefits that inform the fairness of requiring the employee to surrender statutory protections in favor of
arbitration. In addition, Civil Code section 1670.5, subdivision (b) indicates that any evidence concerning the
“commercial setting, purpose, and effect” of the agreement is pertinent to the inquiry.
In sum, the unconscionability doctrine does not mandate the adoption of any particular form of dispute resolution mechanism, and courts may not decline to enforce an arbitration agreement simply on the ground
that it appears to be a bad bargain or that one party
could have done better. The unconscionability doctrine
is instead concerned with whether the agreement is
unreasonably favorable to one party, considering in
context “its commercial setting, purpose, and effect.”
(Civ.Code, § 1670.5, subd. (b).) In applying the doctrine to the arbitration agreement here, the trial court
may consider as one factor Moreno’s surrender of the
Berman protections in their entirety, although that
factor alone does not necessarily render the agreement unconscionable. Because it may not have been
clear before our decision today that evidence concerning the specific arbitral scheme at issue in this case is
pertinent to the unconscionability inquiry, the parties
will have the opportunity to present such evidence in

138a
order to inform the trial court’s unconscionability determination. “Since unconscionability is a contract defense,” it will be Moreno’s burden on remand to prove
“that an arbitration provision is unenforceable on that
ground.” (Chin v. Advanced Fresh Concepts Franchise Corp. (2011) 194 Cal.App.4th 704, 708, 123
Cal.Rptr.3d 547.)
(Id. at pp. 1146-1147.)
Based on the holding in Sonic II, the court concludes
that the arbitration agreement in this case is substantively unconscionable. First, the court can consider the
fact that the agreement required Respondent to surrender the Berman protections in their entirety in determining whether it renders the agreement unconscionable.
And, the waiver of Berman protections in the context of
an agreement that does not provide the employee with an
accessible and affordable arbitral forum for resolving
wage disputes may support a finding of unconscionability.
(Sonic II supra, 57 Cal.4th at 1146.)
In this case, the arbitration provision provides that all
rules applicable to civil actions in California are applicable, including the rules of evidence, the rules of pleading
including the right to demurrers and motions for judgment on the pleadings, the right to bring a motion for
summary judgment, and the right to judgment under
Civil Code section 631.8, which allows the defendant to
move for judgment at the conclusion of the plaintiffs case.
The arbitration provision provides that all mandatory and
permissive rights to discovery under the California Action
are applicable, including the right to take depositions under Code of Civil Procedure section 1283.05. As discussed
above, it is not clear what other procedural rules are applicable.

139a
Based on the evidence before the court, the arbitration
agreement in this case deprives employees of the benefits
of the Berman hearing process without providing any corresponding benefits to achieve the goal of the Berman
hearing procedure. As a practical matter, the process contemplated by the arbitration agreement is similar in nature to litigation in the Superior Court. An employee seeking to vindicate the right to unpaid wages under the
agreement will almost necessarily be required to hire
counsel. But the agreement does not include an attorney’s
fees clause, which might be used to induce counsel to
agree to represent an employee. Thus, any judgment obtained by an employee under the arbitration agreement in
this case would almost necessarily be reduced by the expense of hiring counsel. This has the obvious effect of discouraging, if not precluding, attempts to recover lost
wages that do not justify the costs necessary for an attorney to draft pleadings, defend demurrers and motions to
strike, attend depositions, introduce evidence at trial, and
respond to motions for judgment at trial. In addition, unlike the procedures applicable to an appeal of a Berman
hearing, there is nothing in the agreement that provides
an efficient method for an employee to recover the judgment. Thus, the agreement fails to provide a speedy, informal and affordable method of resolving wages claims
and has virtually none of the benefits afforded by the Berman hearing procedure.
Finally, the agreement appears intended to have the
effect of eviscerating the protections provided by the Berman procedure, in violation of the public policy in favor of
inexpensive resolution of claims for unpaid wages that underlies the Berman procedures. Contrary to the assumption that arbitration is intended to provide an inexpensive,
efficient procedure to vindicate rights, the agreement in
this case seeks, in large part, to restore the procedural

140a
rules and procedures that create expense and delay in
civil litigation. The intent seems further apparent from
the fact that Petitioner, after learning that Respondent
had filed a claim with the DLSE in October 2014, failed to
seek a stay and asserted its right to compel arbitration on
the day of the hearing on August 17, 2015. To the extent
that the agreement is construed to permit Petitioner to
wait almost 10 months from the time a claim is filed with
the DLSE until the day a Berman hearing is scheduled to
demand arbitration, thereby creating unnecessary delay
and expense for Petitioner and the DLSE, the arbitration
agreement is also unconscionable as a deprivation of the
rights to speedy resolution of employee claims for wages
on that basis.
The DLSE has made a strong showing that the arbitration agreement in this case is procedurally unconscionable, and has also shown that it is substantively unconscionable. On that basis, the agreement is deemed unenforceable and the petition to compel arbitration is DENIED.
II. WAIVER

The DLSE also argues that Petitioner has waived its
right to compel arbitration. (Code Civ. Proc., sec.
1281.2(a).) In light of the court’s ruling that the arbitration agreement is unenforceable based on procedural and
substantive unconscionability, it is not necessary to rule
on Respondent’s claim of waiver, and the court declines
to do so.
III. STAY PROCEEDING

Petitioners’ request to stay this action until arbitration
is completed is MOOT in light of the court’s ruling on the
Petition to Compel Arbitration.

141a
APPENDIX E
SUPERIOR COURT OF THE
STATE OF CALIFORNIA
IN AND FOR THE COUNTY OF ALAMEDA

RG15781961

ONE TOYOTA OF OAKLAND.
Petitioner,
v.
KEN KHO,
Respondent.
LABOR COMMISSIONER, STATE OF
CALIFORNIA,
Intervener

Filed: December 11, 2015

ORDER ON PETITIONER’S MOTION TO
VACATE ADMINSTRATIVE AWARD
The motion by One Toyota of Oakland (“Petitioner”)
to vacate the Order, Decision or Award (“ODA”) issued by
the Labor Commissioner, Division of Labor Standards
Enforcement, Department of Industrial Relations, State
of California, on August 25, 2015, came on regularly for
hearing on November 23, 2015, in Department 14 of the

142a
above-entitled court, the Honorable Evelio Grillo presiding. Petitioner appeared by counsel David A. Hosilyk and
the law firm of Fine, Boggs & Perkins, LLP. Intervenor
Labor Commissioner, Division of Labor Standards Enforcement, Department of Industrial Relations, State of
California (“DLSE”) appeared by counsel Fernando Flores, Attorney for Labor Commissioner. Following the
hearing, the court took the matter under submission, and
now rules as follows:
The motion to vacate the ODA issued on August 25,
2015 is GRANTED. In this case, Respondent Kenneth
Kho (“Respondent”) filed an administrative claim with the
DLSE’s office on October 9, 2014, and a “Berman” hearing was scheduled for August 17, 2015. Petitioner asserts
that on the morning of August 17, 2015, counsel for Petitioner faxed a letter to the DLSE indicating that Respondent and Petitioner had agreed to arbitration of all
employment-related disputes and that a Petition to Compel Arbitration had been filed with this court on August
14, 2015. Petitioner requested that the Berman hearing be
taken off calendar until the completion of the arbitration.
The Labor Commissioner refused to take the hearing off
calendar. After the hearing, the Labor Commissioner issued an Order, Decision, or Award (“ODA”) dated August
25, 2015 awarding $158,546.21 to Respondent from OTO,
LLC, dba One Toyota of Oakland, One Scion of Oakland.
Under the holding in Sonic-Calabasas A, Inc. v.
Moreno (2013) 57 Cal.4th 1109, 1142 (“Sonic II”), if an employer and employee have entered into an enforceable
agreement to arbitrate disputes arising out of employment, employees are not entitled to proceed with a Berman hearing before proceeding to arbitration. Petitioner
provided notice of its arbitration agreement with Respondent and the fact that it had filed a petition to compel

143a
arbitration before the Berman hearing was held. Petitioner failed to attend the hearing for that reason.
Under the circumstances presented in this case, the
court finds that the ODA should be vacated, because enforcing the ODA would violate the right of Petitioner to a
fair administrative hearing. (Code Civ. Proc., sec.
1094.5(b).) The law with regard to the enforceability of arbitration agreements that require employees to waive
Berman procedural rights is unsettled, but it is clear that
employers are not required to participate in a Berman
hearing prior to arbitration if there is an enforceable arbitration agreement. (Sonic II, supra, 57 Cal.4th at 1142.)
Here, Petitioner provided notice prior to the hearing of
the existence of the arbitration agreement and its petition
to compel arbitration. Under the circumstances, Petitioner was substantially justified in refusing to participate
in the hearing in relying on the arbitration agreement,
and it would be unfair to enforce the ODA. Petitioner and
Respondent, on the other hand, will not be significantly
prejudiced if the ODA is vacated and a new hearing is
held, in which Petitioner has the opportunity to present a
defense.
In light of the court’s ruling denying the Petition to
Compel Arbitration, the Labor Commissioner is authorized to schedule and provide notice of a renewed Berman
hearing on Respondent’s claims.

